<html>
<title> - WHY BROADBAND MATTERS</title>
<body><pre>[Senate Hearing 110-1225]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1225

 
                         WHY BROADBAND MATTERS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 16, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                  U.S. GOVERNMENT PRINTING OFFICE
80-429                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b0d7c0dff0d3c5c3c4d8d5dcc09ed3dfdd9e">[email&#160;protected]</a>  


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         KAY BAILEY HUTCHISON, Texas, 
    Virginia                             Ranking
JOHN F. KERRY, Massachusetts         TED STEVENS, Alaska
BYRON L. DORGAN, North Dakota        JOHN McCAIN, Arizona
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             ROGER F. WICKER, Mississippi
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 16, 2008...............................     1
Statement of Senator Inouye......................................     1
Statement of Senator Klobuchar...................................    53
Statement of Senator McCaskill...................................    48
Statement of Senator Nelson......................................     3
    Prepared statement...........................................     3
Statement of Senator Pryor.......................................    51
Statement of Senator Stevens.....................................     2
Statement of Senator Thune.......................................    56

                               Witnesses

Cohen, Larry, President, Communications Workers of America (CWA).     7
    Prepared statement...........................................    10
Conroy, Margaret M., Missouri State Librarian, on behalf of the 
  American Library Association (ALA).............................    23
    Prepared statement...........................................    25
Linkous, Jonathan D., Chief Executive Officer, American 
  Telemedicine Association.......................................    15
    Prepared statement...........................................    17
Mayor, Ph.D., Mara, Member, Board of Directors, AARP.............    19
    Prepared statement...........................................    21
Peltola, Gene, President and Chief Executive Officer, Yukon-
  Kuskokwim Health Corporation...................................    40
    Prepared statement...........................................    43
Ramsey, Rey, Chief Executive Officer, One Economy Corporation....     4
    Prepared statement...........................................     5

                                Appendix

American Homeowners Grassroots Alliance, prepared statement......    62
Institute of Electrical and Electronics Engineers-United States 
  of America (IEEE-USA), prepared statement......................    66
Letter, dated November 18, 2008, from Margaret M. Conroy, 
  Missouri State Librarian to Hon. Claire McCaskill, U.S. Senator 
  from Missouri..................................................    75
Response to written questions submitted by Hon. John F. Kerry to:
    Larry Cohen..................................................    70
    Margaret M. Conroy...........................................    74
    Jonathan Linkous.............................................    71
    Mara Mayor, Ph.D.............................................    72
Townsend, Charles, President and CEO, Atlantic Wireless L.P., 
  prepared statement.............................................    61


                         WHY BROADBAND MATTERS

                              ----------                              


                      TUESDAY, SEPTEMBER 16, 2008

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:37 a.m., in 
room SR-253, Russell Senate Office Building, Hon. Daniel K. 
Inouye, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Good morning. In this morning's hearing, we 
explore the question why broadband matters. Broadband matters 
because broadband communications have become the great economic 
engine of our time. Broadband deployment drives opportunities 
for business, education, health care. It provides widespread 
access to information that can change the way we communicate 
with one another and improve the quality of our lives.
    This is why our discussion this morning is not about pipes 
and providers. It is about people. Our citizens stand to gain 
the most from universal broadband adoption. By some estimates, 
universal broadband adoption would add $500 billion to the 
United States economy and create more than a million new jobs, 
and added to this, hundreds of millions of dollars in savings 
through government and telemedicine initiatives and untold 
riches we can reap by tapping the genius of Web-based 
entrepreneurs in every corner of this country. I think the case 
for better broadband is very clear.
    Still, our broadband state is not what it should be. Though 
controversial in some quarters, rankings among the Organization 
for Economic Cooperation and Development (OECD) showed the 
United States slipping down the international broadband ranks. 
As of this year, for the first time, China has a larger number 
of broadband subscribers than the U.S. By some measures, Asian 
and European countries have high-speed connections that are 20 
times faster than ours and for just half the cost. And I 
believe that all of us will agree this is unacceptable and we 
should do better.
    So let me offer my thoughts about where to begin. I believe 
we cannot manage problems that we cannot measure. For this 
reason, last year I introduced S. 1492, the Broadband Data 
Improvement Act, which is designed to enhance our understanding 
of broadband deployment and adoption in every state. This bill 
is not about regulation or deregulation. This is about getting 
the facts because from good information flows good policy.
    So I hope in the remaining days of this Congress that 
Members of this Committee can work together to advance this 
measure or something similar to that in the Senate. Together I 
believe we can look back and say we understand that broadband 
matters and we did something about it.
    Senator Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Mr. Chairman, thank you for scheduling 
this hearing.
    In Alaska, our residents, especially our elderly residents, 
depend upon the ability of their health care providers to be 
able to communicate rapidly and effectively over the Internet 
with the health care community. Many Alaskans live off the road 
system in our rural areas, and the bottom line is that 
broadband is often the only way for them to receive the same 
quality of health care as Americans living in what we call the 
South 48.
    Today I intend to introduce the Telehealth for America Act 
of 2008, which will be a bill to improve health care for rural 
America by allowing smaller rural health care providers to 
participate in the Universal Service Program. The Universal 
Service Fund was meant to provide the Nation's rural health 
care providers with access to advance telecommunications 
services.
    Currently, however, the Communications Act only provides 
for Universal Service Fund support to larger health care 
providers, but it is clear that smaller, remotely located 
health care providers also need to be connected to the 
Internet. Allowing smaller, specialized rural health care 
entities to access the Universal Service Fund will enable them 
to combine forces with the health care community.
    For example, this bill would enable small providers to 
share information such as medical records, provide improved 
training to health care personnel through videoconferencing 
without requiring the personnel to travel away from the 
provider area and to enhance the overall ability of the health 
care community to provide rapid and coordinated responses to 
all Americans in time of crisis.
    Specifically, my bill will revise the definition of health 
care providers eligible to receive Universal Service support to 
include smaller, specialized rural health care entities such as 
doctors' offices, emergency medical facilities, hospices, blood 
banks, pharmacies, dental clinics, and facilities caring for 
our veterans.
    The bill will also require the Federal Communications 
Commission to report to Congress on its system of fiscal 
controls and accountability over the Universal Service Fund 
programs. The Universal Service Fund program is vital to our 
schools, libraries, and health care providers. It is equally 
important that these programs be involved with advanced 
technology and grow with the Internet.
    And I look forward to working to try and move this bill 
forward so that Americans in all parts of the Nation can have 
improved access to quality health care, particularly in rural 
Alaska.
    Again, I want to thank you for including at the end of this 
testimony, testimony from the President of the YKH Corporation 
in Bethel, Alaska. I think you will find it is going to be a 
very interesting conversation. Thank you.
    The Chairman. If I may, may I be listed as a co-sponsor?
    Senator Stevens. I would be delighted to have you co-
sponsor, Mr. Chairman.
    The Chairman. Thank you.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, you said it well. I do not 
need to add anything except to say I am a co-sponsor of the 
Broadband Data Improvement Act and hope we can get it moving. 
We had hearings on it last July.
    So thank you for having this hearing today, and if I may, I 
will submit the statement for the record.
    The Chairman. Without objection, so ordered.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    For more and more Americans, affordable and accessible broadband 
service is no longer something that is merely desirable.
    It's now a necessary component of our economy.
    From telecommuting to telemedicine, increased broadband 
connectivity has the potential to improve our productivity and the 
overall quality of our lives.
    Unfortunately, the true promise of broadband in the United States 
has not been met.
    After years of discussion, we are still one of the few developed 
countries lacking a comprehensive national plan for universal broadband 
access.
    And the results of that failure are starting to show.
    In 2000, the Organization for Economic Cooperation and Development 
(OECD) began ranking broadband subscribership.
    That year, we ranked 4th among 30 nations surveyed.
    Now we are 15th.
    A similar study by the International Telecommunications Union (ITU) 
puts us 24th in the world--behind Korea, Denmark, Iceland, Canada and 
Sweden.
    We've let this lack of national planning go on for far too long--
and now the chickens are coming home to roost.
    Through this hearing today, I hope we can further illustrate the 
benefits of universal broadband access.
    In addition, I really hope we can also get some movement on some 
sort of national planning mechanism.
    The Broadband Data Improvement Act (S. 1492), of which I am a co-
sponsor, represents a major step in that direction.
    We reported it out of Committee last July.
    Now it's time for the full Senate to pass this legislation.

    Senator Stevens. I might say to the Senator from Florida, 
we might be able to make this small bill I am putting in as an 
amendment to your bill. I would like to chat with you about 
that.
    The Chairman. We have six witnesses this morning: first, 
the Chairman and Chief Executive Officer of One Economy 
Corporation of Washington, Mr. Rey Ramsey; the President of the 
Communications Workers of America, Mr. Larry Cohen; the 
Executive Director of the American Telemedicine Association, 
Mr. Jonathan Linkous; AARP Board Member, Dr. Mara Mayor; 
Missouri State Librarian, Ms. Margaret Conroy; and the 
President and CEO of Yukon-Kuskokwim Health Corporation of 
Bethel, Alaska, Mr. Gene Peltola.
    May I call upon Mr. Ramsey?

       STATEMENT OF REY RAMSEY, CHIEF EXECUTIVE OFFICER, 
                    ONE ECONOMY CORPORATION

    Mr. Ramsey. Chairman Inouye, Ranking Member Hutchison, and 
Senator Stevens, it is a pleasure to be here today. I have 
submitted testimony, and I will refer to some of the testimony, 
but I would rather just speak with you candidly about some of 
the issues that I see with broadband issues in this country and 
why it matters.
    First, a quick note on One Economy Corporation. We founded 
One Economy Corporation 8 years ago, and I sort of smile 
sometimes when I think about the timing of it because that is 
when the technology bubble burst. And when I told my father I 
was starting One Economy Corporation, he smiled about the 
timing and told me I had had a good job.
    So we started One Economy with the goal of using broadband 
to assist low-income individuals with a double-sided approach, 
to look at both the supply side and the demand side.
    So on the supply side, particularly in the year 2000, what 
we discovered very quickly was too many low-income individuals 
and individuals living in rural communities did not have access 
to broadband. And our strategy really focused on three basic 
principles: to make sure broadband would be affordable, to make 
sure it would available, and very importantly, to make sure it 
would be useful. And I would like to just unpack those three 
issues because all three are important.
    The affordability issue has been crucial, and I think some 
of the things around competition, the lowering of the costs of 
broadband, networking affordable housing developments, has had 
some impact on driving down some of the costs, although there 
is more to be done.
    Available. As you know, Mr. Chairman, there are many rural 
communities that it is still not available the way it should 
be, but I would like to spend more time focusing on the issue 
of how useful it is, and that is the issue of the demand side 
of broadband.
    I think this is the most crucial area for us to focus on in 
this country. We started at One Economy to focus on this area 
that we refer to as content, public purpose content, public 
purpose media, and when we look at the issue of poverty, we 
said one of the most important issues is making sure that we do 
not have information haves and information have nots. There is 
a nexus, a very important nexus, between the quality of 
information and the quality of life. There are a lot of people 
who do not have access to a doctor and do not know where to get 
a doctor. There are many people who are trapped in poor 
performing schools, and yet we have the means to be able to 
bring content and teaching tools to those individuals if we are 
smart about how we apply broadband.
    And so in this whole supposed digital divide movement, most 
of the attention has been paid to the issue of supply, and I 
think that is important. But we would like to see more 
attention paid to the applications of the technology.
    So just to give you a few examples. We launched a website a 
number of years ago called the Beehive, www.thebeehive.org, 
which is a portal design for low- and moderate-income 
individuals to deliver information on health, on jobs, getting 
the Earned Income Tax Credit, taking advantage of several 
programs. In the past couple of years alone, as we have done 
outreach campaigns online to help low-income people--just this 
past tax season, we helped people get $10 million back just in 
a few cities of the campaign on their taxes, and it was all 
filed online. And these were low-income, limited literacy 
individuals, proving that you could use technology to help 
people. We have had more than 15 million individuals use that 
website to be able to access important public purpose 
information.
    Later this year, December 11 of this year, we will be 
launching our most ambitious effort yet called the Public 
Internet Channel, which will be an online space that is 
designed to be able to bring information around health, around 
employment, around starting a business, around a whole host of 
areas in partnership with many other organizations, in both 
English and in Spanish, to be able to bring the benefits of 
broadband to more people.
    So our focus and what we urge Congress and many others to 
look at is how we can make sure broadband is affordable, it is 
available, and it is useful to people because, again, it is 
both a supply and a demand side issue, and we would like to see 
more attention paid to the demand side because we could do 
more. We are not making enough investments on the applications 
of technology, and where a lot of focus is spent on who has 
broadband and who does not, the real issue is if we can make 
sure there are applications available to buttress our health 
care system, to buttress our education system, to buttress our 
workforce development system, you will get more innovation, 
more people wanting to go online. There are people now that 
have broadband available to them, but they do not avail 
themselves because they do not see that the applications are 
actually speaking to them.
    And this is where I think there is an ideal collaboration 
between the private sector and a nonprofit like ours. So we 
team up with companies both on the supply side and the demand 
side, the Ciscos, the Verizons, the AT&Ts, the cable industry. 
We work very closely with Google on content so that our content 
is searchable for people. So we will not rest as an 
organization until we can form more partnerships to make sure 
broadband has that universal application that we think this 
country so desperately needs.
    So I submit that to you as my remarks today.
    [The prepared statement of Mr. Ramsey follows:]

      Prepared Statement of Rey Ramsey, Chief Executive Officer, 
                        One Economy Corporation

    Chairman Inouye, Ranking Member Hutchison, I thank you for the 
opportunity to be here today. My name is Rey Ramsey, and I am the Chief 
Executive Officer of One Economy Corporation.
    One Economy is a global nonprofit that leverages the power of 
technology and information to connect low-income people to the economic 
mainstream. We bring broadband into the homes of low-income people, 
produce public-purpose media, and train and employ youth to enhance 
communities' technology capacity. Our work has taken hold in four 
continents, from big cities to small rural towns. Since our founding in 
2000, our work has reached 15 million people.
    When I look at the state of broadband today, I see good news and 
bad news.
    The good news is that our country's efforts to stimulate the supply 
of broadband have worked well. Most Americans have access to broadband 
service--by which I mean it is available where they live if they want a 
connection to their home computer. In fact, according to the Federal 
Communications Commission's Zip Code level data, in more than 90 
percent of the United States, consumers can choose from three or more 
broadband providers. Nearly 60 percent of Americans have adopted 
broadband by paying for a high-speed connection.
    But those positive trends in broadband availability should not 
overshadow the significant inequality in broadband adoption between 
rich and poor communities. According to the most recent Census Bureau 
data, while 76 percent of households earning more than $50,000 per year 
are connected, only 35 percent of homes with annual income less than 
$50,000 have adopted broadband in their homes.
    At One Economy, we have focused our efforts on low-income 
consumers--increasing and aggregating their demand for broadband. 
Technology--broadband in particular--is at the forefront of the 21st 
century fight against poverty because there is an increasingly 
important connection between the quality of information available to 
people and their quality of life.
    For example, 70 percent of working families who receive the Earned 
Income Tax Credit (EITC) pay for professional help preparing and filing 
their taxes and as many as 25 percent of families who qualified for the 
EITC did not receive it.
    This year, we partnered with H&R Block and E*TRADE to make free tax 
preparation and filing available online. Families using our site, the 
Beehive (www.thebeehive.org), received nearly $10 million in state and 
Federal refunds. In addition to the $1,000 average refund they 
received, broadband made possible the education and support these 
families needed to file for themselves, saving hundreds of dollars in 
fees.
    Broadband is a particularly powerful tool for fighting poverty 
because it minimizes problems of time, mobility, and geographic 
isolation.
    One Economy recently began work with the Warm Springs Indian 
Reservation in Oregon, home to nearly 4,000 members of the Warm Spring, 
Wasco, and Paiute tribes. Broadband is already available on the 
reservation; the Warm Springs Tribe built a Motorola canopy-based 
wireless solution to provide broadband to the local government and 
individuals. But uptake among residents has been slow, in part because 
the average monthly cost is $50--out of reach for many area families.
    In the coming months, we will work with reservation leaders to make 
broadband a relevant and affordable tool. In addition to lowering the 
cost of home access and creating public access points, we will use 
broadband and the applications it makes possible to expand tribal 
member participation in government, support small business development, 
preserve native culture, and improve members' digital skills. Young 
people will be trained in technical and leadership skills so they can 
become cultural bridges between their community and technology.
    Government can play a role in stimulating demand, as the tribal 
government in Warm Springs is doing. Creating public-purpose online 
media--media that puts vital information and tools directly in the 
hands of citizens--can demonstrate the value proposition of bringing 
broadband into their lives and homes. For low-income people, who are 
often caught in a web of government programs and services, simple and 
direct online access to those programs can mean the difference between 
missing a day of work to stand in line at a municipal building and 
getting help in the comfort of one's home.
    Above all, we believe in meeting people where they are. Our 
signature website, the Beehive, was created to be useful and useable 
for an audience that may have a lower literacy level and may not speak 
English as their primary language. The Beehive provides low-income 
individuals with online access to the information and connections they 
need on a local level to improve their lives while eliminating the 
language, literacy and cultural barriers that keep over 50 million 
Americans from fully utilizing the benefits offered by the World Wide 
Web.
    The results have been dramatic. Among them: 600,000 high school 
students have received help with their homework, 415,000 people have 
learned about managing diabetes, and nearly 1 million people have 
learned how to secure their computers and stay safe online.
    We create these online tools and resources not only to help people 
improve their lives, but also to introduce them to the wealth of life-
changing information available online.
    Independent research and our own experience suggest that the 
principle barriers to people adopting broadband in their homes have 
less to do with access and affordability and more to do with helping 
people to understand the value of broadband, helping to alleviate 
concerns about online safety, and a series of other educational and 
cultural issues. A 2007 survey by the Pew Internet and American Life 
project asked non-Internet users why they are not online. You might 
expect the number one reason to be cost. In fact, one-third of people 
not using the Internet said they are just not interested.
    This is not to discount the importance of cost and the work that 
still needs to be done in that area, but these findings show that even 
when broadband is available and affordable, other concerns remain to be 
addressed.
    These opportunities to improve health, education, and economic 
livelihood in low-income communities demonstrate that while universal 
access is an important goal, it is only a starting point. Our 
experience has shown that additional steps--efforts that are less about 
a specific technology and more about education and creating a culture 
of use--are needed to ensure that the benefits of the Digital Age are 
reaching the communities that need them most.
    At One Economy, we believe that the time has come for a broad-based 
effort to provide these kinds of information and tools online. To that 
end, we have created the Public Internet Channel (PIC.tv): public-
purpose programming designed to inform, engage, and help people take 
action. The Public Internet Channel grew out of our experience 
delivering culturally relevant, multilingual information to low-income 
and low-literacy audiences.
    For every new 20th-century communications technology, Americans 
have created public-purpose programming that uses the power of the 
airwaves to spread common knowledge and bring people together on common 
ground. On television, the Public Broadcasting System's viewers explore 
national and local issues. On the radio, listeners tune into local 
National Public Radio affiliates to hear educational and civic-minded 
content that cuts across differences in race, class, gender, and 
geography.
    By providing the Public Internet Channel directly to all Americans, 
we hope to narrow the information gap that divides communities and 
provide a common space that crosses racial, gender, age, religious, 
geographic and political barriers.
    The millions of people who have taken advantage of our online 
resources to file their taxes, find better schools for their children, 
start new businesses, and take other steps to improve their lives 
demonstrate the need for such an effort.
    Again, I appreciate the Committee's interest in how broadband 
stands to benefit low-income communities. I believe that a policy that 
brings the traditional conception of universal service into the digital 
age, while addressing the broad spectrum of reasons why people are not 
online, stands to improve the lives of millions of Americans.

    The Chairman. Thank you very much, Mr. Ramsey.
    May we now receive testimony from President Cohen?

             STATEMENT OF LARRY COHEN, PRESIDENT, 
            COMMUNICATIONS WORKERS OF AMERICA (CWA)

    Mr. Cohen. Thank you, Mr. Chairman. It's great to be here. 
I appreciate the opportunity and also the focus of this work by 
the Committee.
    I am Larry Cohen, the President of CWA. We represent 
700,000 members. Our members build, maintain, and service these 
networks that we are discussing here today and are also 
journalists and broadcasters and others who create the content 
that travels over the communication networks of our country. So 
our members and our union everyday see why broadband matters 
and why the speed of broadband matters.
    Two years ago, we launched our national campaign called 
Speed Matters. The main website is speedmatters.org. Over the 
past two years, CWA members, working with community groups and 
activists across the country, have tried to boost up the public 
attention and information about why broadband matters, and 
specifically why the speed of broadband matters.
    There are dozens of examples which you wil1 find in my 
written testimony. I am not going to go through the examples, 
but they range from workers in the communications industry 
itself like 500 customer service workers in rural Virginia who 
work at an AT&T call center. If there were no broadband there, 
they obviously would not be employed. It used to be a mining 
area. So in terms of the conversion of our economy for the 21st 
century, high speed broadband is absolutely critical.
    But also small business. In our Speed Matters campaign, we 
talked to farmers in rural Vermont who told us their broadband 
connection allowed them to double their maple syrup business 
through Internet marketing and sales. Farmers in Iowa, a 
similar thing. They were part of the global economy and it 
would make a huge difference. Small businesses in Appalachia 
and southern Ohio creating new jobs through Connect Ohio, a 
public/private partnership, similar to the one Mr. Ramsey 
described, and bringing high-speed Internet to an industrial 
park in an underserved area.
    Examples go on and on. Internet learning. We now estimate 
3.5 million students a year take one or more courses on the 
Internet. So the demand side is growing. We need to stimulate 
that demand.
    I want to jump, though, to this chart. Part of our focus in 
Speed Matters has been that Internet speed matters, that we 
have defined broadband totally inadequately in the United 
States, so we actually overstate its presence.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Source: International data from the Information Technology and 
Innovation Foundation (ITIF); U.S. data from speedmatters.org test 
results. Most test participants had DSL or cable modem connections.

    What we see on this chart is the United States, and we 
could have many more countries, but we picked the U.S., Canada, 
France, Finland, South Korea, and Japan. The U.S. is trailing, 
where the average download speeds in the U.S. now, based on our 
survey, is 2.3 megabits per second. This is people who have 
broadband. And then you see Japan leading the world in Internet 
speeds where the average download speed is 63 megabits per 
second. That gap is enormous in terms of what that produces. 
And this is the average speed. So in Japan today, 85 percent of 
homes are passed by 100 megabit service. In the United States, 
it is a small fraction.
    Actually with me in the audience--I would just ask him to 
stand--Shoji Morishima is the head of our equivalent, the NWJ, 
in Japan. And what we have seen in Japan for years is the union 
there, the NWJ, partnering with NTT and the government to 
promote high speed broadband deployment--this is not an 
accident that this happened in Japan. It is because that was 
the focus of their public policy.
    And more than anything else today, we are here to applaud 
really S. 1492 as a beginning. We are the only industrial 
country in the world that has no policy in this way, and 
whether we talk about South Korea or Finland or France and 
Japan, all of them have had public policy for years now not 
only to promote broadband, but to define broadband in 21st 
century terms. In that regard, we applaud not only the 
Committee and the bipartisan support for S. 1492, but Senator 
Rockefeller and his resolution for setting goals.
    And in our Speed Matters campaign, we have a similar goal, 
10 megabits per second passing every American house by 2010. We 
are not going to get there unless we have real dramatic action 
and now. And again, 10 megabits per second. Look at where we 
would be on the chart even with that.
    Right now, the only progress we can report in the last year 
is that the FCC, with your help, has increased the definition 
of broadband from 200 kilobits to 768 kilobits per second. That 
happened only this year, again, more than a year into our 
campaign and more than a year, as Senator Nelson said, since 
this bill S. 1492 was introduced. 768 kilobits, less than 
three-quarters of a megabit, and the global standard is 
actually 100 megabits per second.
    And so part two of Senator Rockefeller's resolution is to 
set a standard of 100 megabits per second in both directions 
because uploading matters as well. Otherwise, we are only 
receiving, we are not sharing. And his resolution would call 
for 100 megabits per second by 2015. We need goals like this 
and we need the action to bring it about.
    How would we do that?
    First, as Mr. Ramsey said, public-private partnerships. I 
am not going to repeat that. He covered that well.
    Actually first I would say is pass S. 1492.
    Second, establish the kind of goals that Senator 
Rockefeller has talked about.
    Third, public-private partnerships.
    Fourth, the Universal Service Fund. We need to, in the 
future here, look at what we are funding with $6 billion a 
year. Dial tone does not need that kind of funding anymore. We 
need to take, in our view, the funds from the Universal Service 
Fund and focus on high-speed Internet in rural and underserved 
urban communities in this country. They are not going to get it 
through the market alone.
    And finally, as this Committee has discussed before as 
well, preserving an open Internet with reasonable network 
management.
    If we do all these things together, we believe that this 
chart could look different at least two or three years from now 
and that we are no longer talking about what are other 
countries doing, but once again, as we were in the 1990s, we 
are talking about what this country is doing and how we are 
leading and how we are providing the kind of jobs and 
education, telemedicine and the other things that others on 
this panel will talk about today for our children, for our 
parents, for our communities, for our future. Thank you.
    [The prepared statement of Mr. Cohen follows:]

             Prepared Statement of Larry Cohen, President, 
                   Communications Workers of America

    Good morning, Mr. Chairman and Members of the Senate Commerce 
Committee. Thank you for the opportunity to testify today on why 
broadband matters.
    I am Larry Cohen, President of the Communications Workers of 
America. CWA represents 700,000 workers in communications, media, 
airlines, manufacturing and public service. Our members build, 
maintain, service, and create the content that travels over our 
Nation's vital communications networks. Everyday they see why broadband 
matters.
Speed Matters on the Internet
    Two years ago CWA launched our Speed Matters campaign. Over these 
past 24 months, CWA activists have been spreading the word about why 
speed matters on the Internet. We've talked about it at state fairs, in 
union halls, before educators and health care professionals and farm 
organizations, in dozens of state houses and city council chambers and 
state broadband commissions. Everywhere we've gone, people get it. 
Speed Matters on the Internet. We've helped move state broadband 
initiatives to bring the benefits of this technology to every American 
household, business, and community in America.
    Now it's time to bring national leadership to this critical issue. 
It is long past time for the Senate to adopt S. 1492, the Broadband 
Data Improvement Act. This bill would improve Federal broadband data 
collection, provide grants to states for broadband mapping and for 
public-private partnerships to stimulate supply of and demand for 
broadband networks and services. States such as Kentucky, Tennessee, 
Ohio, Virginia, Washington, North Carolina, California and others have 
demonstrated the effectiveness of such partnerships, but their work is 
hampered by state fiscal constraints and the lack of a nationally-
focused effort.\1\ Adopting a national policy to stimulate broadband 
subscription where it is already available, and deployment where it is 
not, could have dramatic and far-reaching economic impacts, estimated 
at more than $134 billion.\2\ A broad-based alliance of 31 groups 
representing health care, education, labor, rural and public interest 
organizations, telecommunications and cable companies, and trade 
associations have joined together to urge Congress to act now to adopt 
S. 1492 as a critical first step in moving this Nation forward on a 
broadband agenda. (A copy of this letter is attached to my testimony.)
---------------------------------------------------------------------------
    \1\ States that have adopted the Connected Nation public-private 
partnership model include Kentucky, Ohio, Tennessee, West Virginia, and 
South Carolina. Additional states with broadband task forces, 
commissions, authorities or reports include Arkansas, California, 
Hawaii, Kansas, Maine, Maryland, Massachusetts, Minnesota, Missouri, 
Nebraska, New Hampshire, North Carolina, New York, South Carolina, 
Vermont, Virginia, and West Virginia. For more information on state 
programs, see CWA and Alliance for Public Technology, ``State Broadband 
Initiatives,'' 2008 (available at http://www.speedmatters.org/
statepolicy)
    \2\ Connected Nation found that increased broadband adoption by 7 
percent could result in 2.4 million new jobs; $552 million annual 
health care savings; $6.4 billion annual savings from unnecessary 
driving; $18 million in carbon credits associated with 3.2 billion 
fewer pounds of CO<INF>2</INF> emissions per years; and $35.2 billion 
in 3.8 billion hours saved from accessing broadband at home. Connected 
Nation, ``The Economic Impact of Stimulating Broadband Nationally,'' 
Feb. 2008 (available at http://www.connectednation.org/research/
economic_impact_study/index.php).
---------------------------------------------------------------------------
    High-speed broadband is the critical infrastructure for the 21st 
century. In the same way that railroads, canals, and the postal service 
drove economic development in the 19th century, and interstate highways 
and universal telephone service helped make us the richest nation on 
earth in the 20th century, high-speed broadband networks are the 
platform upon which we will grow jobs and our economy in the coming 
years. Equally important, advanced networks support innovations in 
health care, education, public safety, energy, and public services that 
will improve our lives and communities.
U.S. Trails Behind Other Countries
    Our nation is falling behind other industrialized countries in the 
deployment and adoption of high-speed Internet. You've heard the 
statistics. The U.S. has dropped to 15th among the world's advanced 
economies in home broadband penetration.\3\ There's a serious digital 
divide based on income and geography. Families in rural areas are much 
less likely to subscribe to broadband than those living in urban or 
suburban communities. And only one-quarter of low-income Americans have 
broadband, compared to 85 percent of those at the top of the income 
scale.\4\
---------------------------------------------------------------------------
    \3\ Organization for Economic Cooperation and Development, 2007 
(report available at 
http://www.oecd.org/document/54/
0,3343,en_2649_34225_38690102_1_1_1_1,00.html). The U.S. ranked 24th in 
broadband subscribers among all countries, according to the 
International Telecommunications Union, World Telecommunications Data 
base 2007 (available At http://www.itu.int/osg/spu/newslog/
ITU+Broadband+Statistics+For+1+January+2005.aspx)
    \4\ Fifty-seven percent of urban households and 60 percent of 
suburban households subscribe to broadband, compared to only 38 percent 
or rural households. Whereas 85 percent of Americans who earn over 
$100,000 a year have broadband, only 25 percent of households that earn 
less than $20,000 subscribe. Only about one-half (49 percent) of 
middle-income families earning between $30,000 and $40,000 a year 
subscribe to broadband. Pew Internet & American Life Project, ``Home 
Broadband Adoption 2008.'' (available at http://www.pewinternet.org/
PPF/r/257/report_display.asp)
---------------------------------------------------------------------------
    Moreover, we're falling behind our global competitors in the 
capacity of our broadband networks. Last month, CWA released the 
results of our second annual survey of Internet speeds in all 50 
states. You can see the results on the chart--the United States 
continues to lag far behind other countries.
    According to the survey, the median Internet download speed for the 
Nation is 2.3 megabits per second (mbps). Contrast this to Japan, where 
the median download speed is 63 megabits per second--30 times faster 
than in the U.S., and yet the Japanese pay about the same as we do for 
their faster Internet connection. The U.S. also trails South Korea, 
Finland, France, Canada, and even Croatia.\5\
---------------------------------------------------------------------------
    \5\ For international data, see Robert D. Atkinson, Daniel K. 
Correa, Julie K. Hedlund, Explaining International Broadband 
Leadership, Washington, D.C.: The Information Technology and Innovation 
Foundation, May 2008 (available at http://www.itif.org/files/
ExplainingBB
Leadership.pdf). The CWA Speed Matters 2008 report is available at 
http://speedmatters.org.
---------------------------------------------------------------------------
    Equally troubling, the 2008 speed test shows that the median 
Internet download speed increased by only four-tenths of one megabit 
per second over last year. At this rate of progress, it will take the 
U.S. more than 100 years to catch up with current Internet speeds in 
Japan.
    The CWA report details median Internet download and upload speeds 
in every state. But whatever state you live in, your Internet 
connection speed likely trails those of residents of our northern 
neighbor Canada, a large country with a significant rural population.
Speed Matters for U.S. Economic Growth and Job Creation
    Why does speed matter on the Internet? Speed determines what is 
possible. I'm talking about more than the speed at which you can 
download movies. Job creation, rural development, telemedicine, 
distance learning, even solutions to global warming all rely on truly 
high-speed, universal networks.
    High-speed broadband is essential for economic growth. In a report 
prepared for the U.S. Department of Commerce, economists found that 
communities with broadband experienced a higher rate of job growth and 
new business start-ups than communities without high-speed networks. 
Another study of the central Appalachian region found that firms in 
communities with broadband were 14 to 17 percent more productive than 
those in communities without high-speed Internet access. A Brookings 
Institution paper calculated that build-out of broadband infrastructure 
to all households would add $500 billion to gross domestic product and 
1.2 million additional jobs. Another report warned that the failure to 
improve broadband performance could reduce U.S. productivity by 1 
percentage point or more per year.\6\
---------------------------------------------------------------------------
    \6\ William Lehr, Carlos A. Osorio, Sharon E. Gillett, and Marvin 
Sirbu, ``Measuring Broadband's Economic Impact,'' U.S. Department of 
Commerce, Economic Development Administration (Feb. 2006) (available at 
http://www.eda.gov/ImageCache/EDAPublic/documents/pdfdocs2006/
mitcmubbimpactreport_2epdf/v1/rnitcmubbimpactreport.pdf); Mark L. 
Burton and Michael J. Hicks, ``The Residential and Commercial Benefits 
of Rural Broadband: Evidence from Central Appalachia,'' June 2005, 
Paper prepared for the West Virginia Development Office, Center for 
Business and Economic Research, Marshall University; R. Crandall and C. 
Jackson, ``The $500 Billion Opportunity: The Potential Economic Benefit 
of Widespread Diffusion of Broadband Internet Access,'' Criterion 
Economics, 2001 (available at www.ntia.doc.gov/ntiahome/broadband/
comments/verizon/ExhibitA.pdf); C. Ferguson, ``The United States 
Broadband Problem: Analysis and Recommendations,'' Brookings 
Institution Working Paper, 2002 (available at http://www.brookings.edu/
views/papers/ferguson/working_paper_
20020531.pdf)
---------------------------------------------------------------------------
    Behind these statistics are real stories that people have shared 
with our Speed Matters team about the ways in which high-speed Internet 
creates economic opportunity and good jobs across our great nation. 
Just ask any of the 500 CWA members working at an AT&T call center in 
southwestern Virginia, an area suffering from the decline of the coal 
and tobacco industries. They'll tell you that building a fiber backbone 
to their region was literally a lifeline for themselves and their 
families. Or ask Daniel and Karen Fortin of rural northern Vermont, who 
told us that their broadband connection allowed them to double their 
maple syrup business through Internet marketing and sales. A hog farmer 
in Iowa let us know that direct marketing to customers around the globe 
using broadband boosted his profit margin. And the owners of several 
small businesses in the Appalachian region of southern Ohio told us 
that they were able to create 60 new jobs once Connect Ohio's public-
private partnership found a way to bring a high-speed connection to 
their industrial park. The examples go on and on . . .
Speed Matters Offers Solutions to High Gas Prices and Global Warming
    High-speed broadband also offers opportunities to address our 
energy crisis and to save on gas expenses through reduced travel time. 
Telehealth, distance learning, teleconferencing, and telecommuting 
allow people to learn, work, and receive health care services at home 
without getting in their car. One study estimates that widespread 
adoption of these broadband applications over 10 years could save the 
equivalent of 11 percent of annual U.S. oil imports.\7\ Other nations 
and some states and localities are experimenting with the use of smart 
meters and electric grids to reduce energy consumption by transmitting 
real-time information about energy use over two-way broadband networks. 
A statewide pilot project in California found that the information 
provided to consumers using smart meters reduced energy bills by 10 
percent. The Electric Power Research Institute estimates that 
investment in smart grid technology, including a modernized high-speed 
Internet communications system, would yield a 20-year benefit of 
ranging from $638 billion to $802 billion.\8\
---------------------------------------------------------------------------
    \7\ Joseph P. Fuhr and Stephen B. Pociask, ``Broadband Services: 
Economic and Environmental Benefits,'' Oct. 2007 (available at http://
www.internetinnovation.org/Portals/0/Documents/
Final_Green_Benefits.pdf).
    \8\ See Report of Governmental Affairs Division, Committee on 
Consumer Affairs, New York City Council, Nov. 15, 2006 (available at 
http://webdocs.nyccouncil.info/attaehments/75
229.htm); Economic Power Research Institute, ``Power Delivery System of 
the Future: A Preliminary Estimate of Costs and Benefits,'' 2006 
(available at http://my.epri.com/portal/
server.pt?open=512&objID=210&mode=2&in_hi_userid=2&cached=true).
---------------------------------------------------------------------------
Speed Matters for Education and Lifelong Learning
    Advanced broadband networks open opportunities for students to 
participate in online learning and lifelong education. Almost 3.5 
million students take one or more courses online every year, according 
to the Sloan Foundation.\9\ Many of these are non-traditional 
students--working parents, employees who want to advance their careers, 
or unemployed adults entering the work force. They find the convenience 
of online learning allows them to take courses without the conflicts of 
child care, busy schedules, or non-traditional work hours. Online 
learners who have two-way, video connections carried over truly high-
speed broadband can participate in class discussions and ask questions 
in real-time, creating a virtual classroom experience. States such as 
New Jersey and Texas have used Federal job training monies to help low-
income adults gain new skills through online coursework.\10\ CWA offers 
online education and training programs in three areas--
telecommunications, digital media, and criminal justice. Our CWA/NETT 
Academy, as we call it, allows our members to meet new technical 
requirements and branch into new areas of study in rapidly-changing 
industries so they can succeed in their careers. As the quality of U.S. 
broadband networks improves, our university partners are able to 
provide ever-more engaging interactive, multi-media learning 
experiences for our members.\11\
---------------------------------------------------------------------------
    \9\ The Sloan Consortium of Institutions and Organizations 
Committed to Quality Online Education (available at http://www.sloan-
c.org/)
    \10\ Dr. Mary Gatt, ``The New Digital Divide for Workforce 
Development Policy: Broadband Access and Skills Training,'' Sloan 
Center on Innovative Training and Workforce Development, Center for 
Women and Work, Rutgers University, 2006 (available at http://www.itwd
.rutgers.edu/mainPages/index.htm).
    \11\ For more information, see CWA/Nett Academy at http://
www.cwanett.org.
---------------------------------------------------------------------------
The U.S. Must Adopt a National Broadband Policy
    The United States is the only industrial nation without a national 
broadband policy to promote high-speed broadband. There are a number of 
bold but specific steps that the U.S. should take to recover our lost 
leadership and competitive position to ensure that all residents 
benefit from affordable, high-speed Internet access.
    First, we must improve our broadband data collection. The Federal 
Communications Commission took a first step earlier this year, 
requiring all carriers to report the number of broadband subscribers at 
the census tract level by technology type and upload and download 
speed. Now, the Commission is considering reporting requirements on 
broadband infrastructure.
    S. 1492, the Broadband Data Improvement Act, would fill in 
important gaps in the Commission's broadband data collection. For 
example, the bill would require the Commission to analyze demographic 
information in areas without broadband and report on international 
broadband comparisons; it would require the Census Bureau to collect 
detailed information about broadband prices, technology, applications, 
and subscription in its annual consumer survey; and it would require 
the Government Accounting Office to study best practices for reporting 
broadband price, speed, and other critical issues.
    As I noted earlier, S. 1492 would also authorize a program of 
grants to states to conduct broadband mapping and fund initiatives to 
stimulate broadband adoption where it is available, and deployment 
where it is not. In Kentucky, such a program resulted in a three-year 
increase in broadband availability from 60 percent to 95 percent of 
households.\12\ CWA members sit on a number of state broadband 
commissions, and know first-hand the fiscal limitations those bodies 
face in moving forward with their work. I strongly urge Congress to 
pass S.1492 this session to improve our knowledge base on broadband 
deployment and adoption, and to assist states in their important 
efforts.
---------------------------------------------------------------------------
    \12\ Information on Connect Kentucky available at http://
www.connectkentucky.org.
---------------------------------------------------------------------------
    Looking ahead, CWA supports a number of other policies to stimulate 
broadband deployment and adoption. First, we must establish a national 
policy goal. CWA recommends we set a two tiered goal of build-out of 
networks with enough capacity for 10 megabits per second downstream and 
1 megabit per second upstream by 2010, and capable of delivering 100 
megabits per second in both directions by 2015, as proposed by Senator 
Rockefeller in S. Res. 191. Second, we need to reform our universal 
service system to support affordable high-speed Internet for all. 
Third, we should adopt policies that spur deployment of faster, second-
generation networks through tax incentives and low-interest loans. 
Fourth, we should support demand-stimulation programs that fund grants 
for community-based public-interest broadband applications and 
services, digital literacy programs, and provision of free and low-cost 
computers to low-income households. Finally, we must preserve an open 
Internet, subject to reasonable network management. In all these 
initiatives, we must continue to safeguard consumers and promote good 
career jobs for workers in the industry.
    I want to conclude with a story that captures how Speed Matters can 
erase the barriers of time and distance to improve lives. This past 
summer, Marine Lance Corporal Michael Cintron was 6,000 miles away from 
home when his wife Jeanine gave birth to his son. Cintron was able to 
watch the birth over a four-hour webcast from Maimonides Medical Center 
in Brooklyn, New York. As reported in the New York Daily News, this 
soldier stationed in Iraq heard the baby's heartbeat and got to see his 
son in New York even before the birth mother, as they put the webcam up 
to the side of the baby. (A copy of the article is attached)
    This is the power of broadband. It's up to us to make sure that 
every American has access to the power of this technology. Speed 
Matters.
    Thank you.
                              Attachment A
                                                      July 11, 2008
Hon. Daniel K. Inouye,
Chairman,
Senate Commerce Committee,
Washington, DC.
  

Hon. Ted Stevens,
Vice Chairman,
Senate Commerce Committee,
Washington, DC.
  

Hon. John D. Dingell,
Chairman,
House Committee on Energy and Commerce,
Washington, DC.

Hon. Joe Barton,
Ranking Member,
House Committee on Energy and Commerce,
Washington, DC.

Dear Chairman Inouye, Vice Chairman Stevens, Chairman Dingell and 
            Ranking Member Barton:

    The undersigned organizations write to express our strong support 
for Congressional action to promote greater availability and adoption 
of broadband high-speed Internet services.
    The leading bills pending before Congress (S. 1492, the Broadband 
Data Improvement Act and H.R. 3919, the Broadband Census of America Act 
of 2007) would improve information-gathering about current broadband 
deployment and assist in targeting resources to areas in need of such 
services. A recent FCC order requires more focused broadband data 
collection from broadband providers but does not address other 
important broadband mapping elements contained in the pending 
legislation.
    We believe Congress should adopt legislation this year that 
provides Federal Government support for state initiatives using public-
private partnerships to identify gaps in broadband coverage and to 
develop both the supply of and demand for broadband in those areas. The 
ability to accelerate deployment and adoption by bringing together 
government, broadband providers, business, labor, farm organizations, 
librarians, educators, and consumer groups in public-private 
partnerships is greater than the ability of these diverse players 
standing alone.
    Adopting a national policy to stimulate subscription where it is 
already available, and deployment where it is not, could have dramatic 
and far-reaching economic impacts. For example, a Connected Nation 
study released February 2008 estimated the total annual economic impact 
of accelerating broadband across the Nation to be more than $134 
billion. In addition to the $134 billion total benefit, the study found 
that increasing broadband adoption by another 7 percent could result 
in:

  <bullet> $92 billion through an additional 2.4 million jobs per year 
        created or retained;

  <bullet> $662 million saved per year in reduced healthcare costs;

  <bullet> $6.4 billion per year in mileage savings from unnecessary 
        driving;

  <bullet> $18 million in carbon credits associated with 3.2 billion 
        fewer pounds of CO<INF>2</INF> emissions per year in the United 
        States; and

  <bullet> $35.2 billion in value from 3.8 billion more hours saved per 
        year from accessing broadband at home.

    We cannot afford to let another year go by without adopting 
policies that will stimulate the economy in such ways, while expanding 
use of the networks that are already deployed and providing broadband 
in previously underserved areas. That is why we urge you to work in a 
bipartisan, bicameral way to enact Federal legislation this year.
    Thank you for your timely consideration of this important issue.
            Sincerely,
AT&T
Alliance for Public Technology
American Association of People with Disabilities
American Library Association
Cablevision
Charter Communications
The Children's Partnership
Comcast
Communications Workers of America
Connected Nation
Cox Communications
EDUCAUSE
Embarq
Independent Telephone & Telecommunications Alliance
Information Technology Industry Council
International Brotherhood of Electrical Workers
Internet Innovation Alliance
NIC, Inc.
National Cable and Telecommunications Association
National Farmers Union
The National Grange
National Rural Health Association
Organization for the Promotion and Advancement of Small 
Telecommunications Companies
Qwest
Time Warner Cable
U.S. Cattlemen's Association
U.S. Chamber of Commerce
United States Telecom Association
Verizon
Western Telecommunications Association
Windstream
                              Attachment B

     New York Daily News Writers--Thursday, July 10, 2008, 4.58 PM

           Marine sees birth, thanks to 6,000-mile Web hookup

                    By Jenny Merkin and Owen Moritz

    He was 6,000 miles from Brooklyn, but Marine Lance Cpl. Michael 
Cintron got a glimpse of his newborn son before his wife did.
    ``Hi. I'm your daddy,'' Cintron announced to his minutes-old son. 
``Look, your nose is squishy.''
    In a remarkable four-hour Web cast from a maternity ward at 
Maimonides Medical Center, mom Jeannine Cintron's delivery of son 
Michael James Cintron was beamed clear across ocean and land to his 26-
year-old father in Iraq.
    The baby weighed in at 7 pounds, 3 ounces and the new dad weighed 
in with a fatherly shriek: ``Look! He's looking at me!''
    In Maimonides' first ever video conference of a baby delivery, 
Cintron first heard the baby's heartbeat.
    ``What's that knocking sound I hear,'' laughed the Staten Island 
native.
    Then the camera followed as Jeannine was wheeled into an operating 
room to undergo a C-section on Tuesday. That's when the Marine got to 
see the baby emerging from his wife's womb.
    ``He got to see our son first from 6,000 miles away,'' Jeannine 
marveled. ``He actually saw the baby before I did. They put the Webcam 
up to the side with the baby.''
    The video conference was initiated by a nonprofit organization 
called Freedom Calls, which arranged with Maimonides for covering 
little Michael's birth.
    The proud parents were still in a state of disbelief Wednesday, not 
only about the birth of their first child, but the electronic wizardry 
that gave dad a real-time maternity room experience.
    ``This is surreal,'' Jeannine said. ``I didn't expect this. I feel 
so blessed. There are so many women in my situation that don't have 
this.
    ``I didn't know what I was in for,'' she added. ``It's only my 
first baby.''
    ``Pretty much throughout my entire pregnancy, I was most sad about 
doing it [birth] by myself,'' she went on. ``Delivering by myself was 
horrifying. No, he couldn't hold my hand, but he was there for hours.''
    Jeannine, 25, who works in sales for Clear Channel and hails from 
Sheepshead Bay, and Michael, 26, a sanitation worker from Staten Island 
assigned to First Supply Battalion S6, were married last year.
    The couple found out Michael was going to Iraq only a few weeks 
after they learned Jeannine was pregnant.
    ``I think I'll keep him [the baby],'' the ecstatic mom said.
    For more information on how to donate to the Freedom Calls 
Foundation, visit www.freedomcalls.org 

    The Chairman. I thank you very much.
    I would like to advise the panel that their full statements 
will be made part of the record, and if you wish to add, please 
feel free to do so.
    Next we have Mr. Jonathan Linkous.

  STATEMENT OF JONATHAN D. LINKOUS, CHIEF EXECUTIVE OFFICER, 
               AMERICAN TELEMEDICINE ASSOCIATION

    Mr. Linkous. Thank you, Mr. Chairman. I am here as the CEO 
of the American Telemedicine Association. We are a national and 
international organization composed of physicians, hospitals, 
providers of health care, as well as telecommunications 
companies and others around the country, around the world that 
are providing telemedicine to patients no matter where they 
live.
    My thoughts on broadband this morning are really shaped 
around my own personal experience. I came to Washington, D.C. 
working with the Appalachian Regional Commission. My mom and 
dad were both born in the Appalachian Region and suffered from 
the isolation. When President Johnson started the Appalachian 
Commission, we realized the Federal Government could best help 
those people by building a highway system and opening up the 
isolation of Appalachia by building those highways to give them 
access to education and jobs and health care. The highways of 
today are communication lines, and it is just as important to 
provide high-speed telecommunications, broadband, to open up 
the isolation of a lot of Americans, no matter where they live.
    Twenty years ago, telemedicine was largely composed of 
federally funded grants and demonstrations that provided access 
to rural clinics linking them together with the major hospital 
systems. A good example is what we have certainly in Hawaii, as 
well as Alaska, and pretty much every state in the country. We 
now have about 200 hospital-based networks reaching out to 
3,000 sites across America.
    The rural health care program, as part of the 
Telecommunications Act that was established by Senator 
Rockefeller and Senator Snowe, has certainly been a tremendous 
help to establishing these hub and spoke networks. The program 
probably should be revisited and expanded as we are today, but 
nevertheless, it is really vital to those people that have it. 
And no other state has benefited more, I might add, than the 
state of Alaska, which has had tremendous access to those 
programs and has shown really what can be done.
    But having built those networks, we now need to ensure that 
their interconnections are available on a continuous basis, 
that we have the broadband networks that connect them, as well 
as to the patients that they serve.
    The second stage of telemedicine is moving into the home. 
We now have about 80,000 Americans that are receiving their 
vital signs directly into their home, transmitting those to 
health care professionals, people with chronic diseases who are 
being managed and monitored on a daily basis. As a matter of 
fact, people with cardiac devices or with the heart-implantable 
pacemakers--there are almost a million Americans that are now 
having those monitored remotely using telecommunications lines. 
Many of these are based on plain old telephone service, but we 
have new emerging applications that are now going to require 
broadband.
    So today, we are entering really the third stage of 
telemedicine that moves beyond the hospitals and clinics and 
even moves beyond the home. And these are using applications 
that are being developed actually by the patients themselves 
and by the doctors. They allow users to track their own vital 
signs, to go on a weight loss diet, to track for drug 
interactions.
    A good example is the new iPhone that was introduced this 
year now has over 100 applications dealing with health care. 
The number one health care application is something called 
Hippocrates, which your physician might use if you go there to 
have your drug interaction checked with other drugs. Now 
consumers are downloading it into their own phone and using it 
themselves.
    There are a lot of other applications that allow doctors to 
use cell phones to transmit medical MRIs or other types of 
images. They will send tissue samples by video or single images 
using the phone lines to pathologists. It is kind of amazing 
what is going on.
    Online video game support like Second Life now has major 
support groups for diabetes, alcoholics, people with various 
types of diseases. And it is really expanding as a part of 
health care.
    I would like to share a personal story to really illustrate 
what this broadband has meant to people and really starting 
very personally, my own sister Diana. She was diagnosed with 
stage 3 breast cancer, and she is 60 years old. She lives 
alone. She is about 30 miles outside of Washington in a rural 
area. And since getting her diagnosis, Diana has relied on 
access to the outside world via telecommunications. She has no 
car. She is very isolated where she is.
    She looks up the complicated terms that her doctors give 
her by going on the Internet. She logs into the American Cancer 
Society site to find out what types of applications and where 
she can go. She relies on friends that she has developed 
through her own online community as part of the video 
activities that she is involved in, which is now her personal 
support group. She has an online blog in an effort to reach out 
to others, and she even uses the Internet site to occasionally 
order groceries from a delivery firm.
    Broadband has allowed my sister to get help with her health 
care. It has certainly reduced her costs for what she has. And 
it has improved her life. I would say broadband is my sister's 
lifeline and it is extremely important for her well-being.
    This is what I call telemedicine 3.0. It is where we are 
today for some Americans, but not all Americans.
    Other countries, as the previous testifier just mentioned, 
have had a lot more experience and progress than we have. I 
note that Canada and several Scandinavian countries have 
established specific national goals. Certainly Japan has done 
an excellent job, and Korea. I was just in Korea 2 months ago 
looking at their system, and I was very impressed with what 
they have been able to do.
    But we are finding actually even countries in Africa have 
leapt ahead of the United States in terms of providing cell 
phone wireless applications and broadband deployment. And they 
are having access to certain applications that are own citizens 
do not have these days.
    So it is really important whether someone is living in the 
remote islands of Hawaii or if they are living in a remote area 
of Alaska, if they are on the plains of west Texas, or even if 
they are downtown in Washington and isolated at home, if they 
are homebound, they all need access to the communications, all 
need access to the services just the way my mom and dad did in 
Appalachia. So we cannot concentrate on building concrete and 
blacktop everywhere, but we can use telecommunications to open 
up their lives. So I think that should be a priority for this 
Congress, as well as the next Congress and the next 
Administration.
    So finally, Mr. Chairman, I want to thank you for your 
support over the years for the expansion of telemedicine and 
the support of other Members of this Committee. It has really 
benefited for what we have, and I think the future holds even 
more promises. Thank you very much.
    [The prepared statement of Mr. Linkous follows:]

  Prepared Statement of Jonathan D. Linkous, Chief Executive Officer, 
                   American Telemedicine Association

    Mr. Chairman:
    I am grateful for the opportunity to speak to this Committee about 
the importance of broadband networks for healthcare. I am the CEO of 
American Telemedicine Association. ATA promotes telemedicine, sometimes 
called telehealth or telecare, and resolves barriers to its deployment. 
Members of ATA include physicians, administrators and other health 
providers as well as hospital networks and suppliers of 
telecommunications and technology used in telemedicine.
    My thoughts on broadband are shaped by my personal experience. My 
mother and father were born and raised in Appalachia. So, it's no 
surprise that when I came to Washington, D.C. in 1975, I went to work 
for the Appalachian Regional Commission. At the Commission, I learned 
the importance of opening up isolated rural communities by the 
construction of a networked highway system throughout the Appalachian 
Mountains providing access to education, jobs and health care. The 
highways of today are located providing healthcare through 
telecommunications technology on the wired and wireless communications 
lines that open up the isolation of Americans, no matter where they 
live.
    For the last two decades telemedicine has been evolving in stages. 
Each stage has dramatically changed the way we get healthcare and 
changed the need for broadband networks.
    Twenty years ago telemedicine was largely composed of federally 
funded demonstration grants and small projects that connected large 
hospitals with rural clinics to provide access to basic medical 
services and specialty care where it wasn't previously available. Since 
then, these first stage initiatives blossomed into 200 hospital-based 
networks reaching out to over 3,000 sites across America. The rural 
healthcare program established by Senators Olympia Snowe and Jay 
Rockefeller in the 1996 Telecommunications Reform Act targeted the 
growth of these hub-and-spoke networks. Although the program has been 
smaller than originally expected, for Americans living in some of the 
most remote parts of the country it has allowed them access to 
healthcare. Having built these networks, we now need to ensure their 
use by interconnecting them and ensuring we have affordable broadband 
services to all healthcare centers as well as having physicians fully 
reimbursed when they use telemedicine to provide care.
    The second stage of telemedicine provides healthcare directly into 
the home through the use of remote monitoring for those with chronic 
ailments. Today, almost 80,000 Americans are having their vital signs 
remotely monitored by a healthcare professional, helping them to manage 
their disease and providing an early warning for any complications. 
Over a million patients are using home-based remote monitoring for 
their heart rhythms or check up on their pacemakers. This is saving 
thousands of lives and saving millions of dollars by keeping people out 
of emergency rooms, hospitals and nursing homes and allowing them to 
stay in their own homes and communities.
    Because many of these home based monitoring services use plain old 
telephone service for their connections, for several years I was not 
convinced that broadband connections to the home was a priority for 
telemedicine.
    However, today, we are entering the third stage of telemedicine, 
moving beyond the walls of hospitals and clinics and even beyond the 
home. In many cases, this is a consumer-based initiative, piggybacking 
on popular PC programs and using cell phones to help the patients help 
themselves. In fact, these remote healthcare applications are often 
designed and developed by patients and caregivers. They allow users to 
track their own vital signs, get information about drug interactions or 
start on a weight loss diet. There are already over 100 health-related 
applications available for download just for the new Apple iPhone. 
Other applications allow physicians to use their new cell phones to 
look at diagnostic images such as an MRI or transmit images of tissue 
samples to pathologists. Online and video game support groups for 
patients have exploded. There are active healthcare support groups in 
the video game Second Life dealing with alcoholism, diabetes, and 
domestic violence among others. These are not novelty applications. 
They are an emerging part of healthcare delivery around the world and 
it is having a major impact on how our life and children's lives are 
lived.
    I want to share a personal story to illustrate the impact of this 
stage of telemedicine. About 3 months ago, my sister, Diana, was 
diagnosed with stage three breast cancer. She is over 60, lives alone, 
without a car, about 30 miles outside of Washington, D.C. Since getting 
her diagnosis, Diana has relied on her access to the outside world via 
telecommunications in a variety of ways. She looks up the complicated 
terms used by her doctors using the Internet and logs on to the 
American Cancer Society's site to find out about the latest advances in 
treatment. She relies on friends she developed and communicates with 
through an online community as part of her own personal support group. 
She has started an online blog in an effort to reach out to others. She 
uses an Internet site to occasionally order groceries from a local 
delivery firm. Broadband has allowed my sister to access help for her 
health. It has certainly reduced her costs. And, it has improved her 
life. Broadband is my sister's lifeline.
    This is telemedicine 3.0 and it's a reason why we need to ensure 
all citizens of the U.S. have access to broadband communications no 
matter where they live and no matter where they travel.
    Other countries, notably Canada and several Scandinavian countries 
have established specific national goals toward universal deployment of 
high speed telecommunications. Even underdeveloped nations are leaping 
ahead of the United States in deploying wireless broadband. Congress 
and the next administration should establish goals to ensure the 
availability of broadband telecommunications to every business, every 
home and every citizen in America.
    Whether someone is living on a remote island of Hawaii or on the 
plains of west Texas or in an urban area living homebound and alone, 
they are just as isolated as the people living in the hollows of 
Appalachia. We can't use concrete or blacktop to build highways to 
everyone but we can use telecommunications to open up their isolation 
and help them build a better life.
    Finally, I want to thank the Chairman for your strong support and 
your leadership over the years in getting important legislation passed 
that has helped the deployment of telemedicine. I will be happy to 
answer any questions you may have.

    The Chairman. Thank you very much.
    May I now call on Dr. Mayor?

            STATEMENT OF MARA MAYOR, Ph.D., MEMBER, 
                    BOARD OF DIRECTORS, AARP

    Dr. Mayor. Chairman Inouye, Members of the Commerce 
Committee, I am honored to appear here before you this morning 
on behalf of AARP to provide our perspective on the question of 
why broadband matters.
    I am Mara Mayor from Bethesda, Maryland and a member of 
AARP's Board of Directors. In my professional career as an 
educator, I have focused on extending learning opportunities, 
particularly to adults, in both formal and informal settings, 
especially through the creative uses of technologies.
    Broadband matters to AARP's 40 million members. High 
quality broadband networks have the potential to make the world 
more accessible to people over age 50 and, in turn, to enable 
them to contribute in many ways.
    Let me just touch on three key areas where broadband can 
make a major difference: livable communities, work 
opportunities, and lifelong learning.
    Creating livable communities is an important policy goal 
for AARP. Livable communities seek to combine diverse and 
affordable housing, adequate mobility options, employment 
opportunities, entertainment, and supportive services that 
allow people of all ages to remain independent, active, and 
engaged. Livable communities are connected communities. We tend 
to think of community in terms of the immediate neighborhood, 
but in fact, our definition is being transformed by broadband 
to include not only the people down the block, but groups of 
like-minded people who may live anywhere.
    While all have a fundamental need to connect with one 
another, staying connected is particularly important for older 
adults, and we need to abandon our outdated image of older 
adults. Most, regardless of chronological age, are vibrant and 
eager to live well and enjoy life. They often find that the 
later years present more potential opportunities for enhanced 
working, learning, and social contact than ever before. And 
with the 50-plus population projected to increase by 21 percent 
by 2020, which is around the corner, and those over 65 growing 
by 33 percent, all communities need to find ways to keep this 
growing population connected and productive.
    Connectivity also makes it easier, as you have just heard 
from Mr. Linkous, to monitor and maintain our health. 
Telemedicine, support monitoring devices, interactive video, 
and home health care all become more viable options for 
consumers with broadband in their home and particularly benefit 
those with limited mobility or not well enough to travel.
    AARP views broadband Internet technology as the 21st 
century bridge and facilitator for enhanced connectivity and 
successful aging. It believes that the goal of Federal policy 
should be to ensure sufficient or requisite connectivity, which 
has been defined as maintaining contact at the rate, richness, 
and intensity that we desire for a given task or social 
outcome.
    High quality broadband networks will help many older 
Americans achieve that requisite connectivity. Broadband allows 
for greater information carrying capacity and speed than 
earlier networks and really equally important, enables real-
time interaction and more precise, expressive communication 
almost of the kind that you have a in a face-to-face, in-person 
meeting. With it, we can have livable communities with people 
staying in their homes, which we know is where they want to be, 
in which we are truly connected.
    Creating work opportunities is a second area where access 
to broadband can make a huge difference. Many of AARP's 50-plus 
members are still active in the work force, and they find 
telecommuting very attractive with the high-speed broadband 
connection. Trends indicate that people will work much longer 
as they continue to mature. Access to broadband makes it easier 
to have flexible work schedules, to work part-time where that 
is appropriate, to take on consulting, and most important to 
continue to earn a living.
    And in addition, access to affordable broadband can make 
telecommuting an option for volunteer work which is so 
important to our nonprofit institutions and the millions they 
serve.
    A third key area of importance to people over 50 is access 
to distance learning. Years ago, I was Director of something 
called the Annenberg Projects at the Corporation for Public 
Broadcasting, and in those days--it was the early 1990s--we 
pioneered technology-based distance learning which initially 
meant using television and radio to reach people.
    And then with the Internet came the possibility for true 
interactivity between faculty and students and among students. 
With broadband, distance learning can occur at convenient times 
and places and with greater visual enhancement than previously 
available, especially for those with jobs or disabilities or 
family care responsibilities that make it difficult for them to 
travel to a classroom. Lifelong learning is important in so 
many ways. It keeps us mentally stimulated, opens new doors, 
and enables us to keep our skills and knowledge base relevant 
in a high-tech world. Again, broadband is the key.
    However, despite the bright promise of the 
Telecommunications Act of 1996, as well as know, universal 
access has not been fully realized. Simply put, the digital 
divide for older Americans remains far too wide in just two 
statistics. Only 50 percent of adults aged 50 to 64 and 19 
percent of those 65 and older have broadband in their home, and 
only 38 percent of rural adults have broadband at home compared 
to 57 percent for urban adults and 60 percent for suburban 
adults. We have to do better. A new public policy toward 
broadband is needed to stimulate the development of universally 
available, affordable, and high-quality broadband.
    AARP would encourage Congress to pass broadband mapping 
legislation. Senate bill 1492 and House-passed legislation 3919 
will help local communities and States assess their broadband 
inventory. Broadband mapping will collect accurate data that 
demonstrate current deployment, forecast deployment milestones, 
and identify areas where follow up measures are required. The 
information that these bills provide is extremely important 
and, as you all know, is needed now.
    Mr. Chairman, helping people aged 50 and older stay 
connected, informed, and engaged is central to AARP's 
commitment to its members. The potential of affordable 
broadband technology can greatly enhance the ability of older 
Americans to remain independent, in their homes, in their 
communities, work longer in settings that are supportive, and 
continue to learn and grow.
    Thank you for this opportunity to speak to you this 
morning.
    [The prepared statement of Dr. Mayor follows:]

           Prepared Statement of Mara Mayor, Ph.D., Member, 
                        Board of Directors, AARP

    Chairman Inouye, Ranking Member Hutchison, and Members of the 
Commerce Committee, I am Mara Mayor from Bethesda, Maryland. I am a 
member of AARP's Board of Directors. I am honored to appear before the 
Committee this morning on behalf of AARP \1\ to provide our perspective 
on the question of ``Why Broadband Matters.''
---------------------------------------------------------------------------
    \1\ AARP is a nonprofit, nonpartisan membership organization that 
helps people age 50+ maintain independence, choice, and control in ways 
that are beneficial and affordable to them and to society as a whole. 
With 40 million members, it is the largest organization representing 
the interests of Americans age 50 and older and their families.
---------------------------------------------------------------------------
    Broadband matters to AARP Members. High-quality broadband networks 
have the potential to make the world more accessible to persons over 
age 50, providing convenient pathways to the economic and social 
activities that are not only vital for leading comfortable and 
meaningful lives, but also for fostering and sustaining livable 
communities. Creating livable communities is an important policy goal 
for AARP. More than just a concept, livable communities seek to combine 
diverse and affordable housing, adequate mobility options, employment 
opportunities, entertainment and supportive community services to allow 
persons of all ages to remain independent, active and engaged.
    Livable communities are connected communities. While all people 
have a fundamental need to connect with one another and be part of a 
broader community, staying connected is particularly important for 
older adults. ``Gerontologists identify active engagement with life, 
which involves continued involvement with productive activities and 
maintenance of social ties, as a critical component of successful 
aging.'' \2\ Older adults often find that later life presents more 
potential opportunities for enhanced working, learning and social 
contact than ever before. And with the age 50 and older population 
projected to increase by 21 percent by 2020, and those over 65 growing 
by 33 percent, all communities need to find ways to keep this large and 
growing senior population connected and engaged.\3\
---------------------------------------------------------------------------
    \2\ Rowe, J.W., Kahn, R.L. (1988), Successful Aging, New York: 
Random House, define successful aging as the ability to maintain three 
key behaviors or characteristics: (1) low risk of disease and disease 
related disability, (2) high mental and physical function, and (3) 
active engagement with life.
    \3\ Beyond 50.05: A Report to the Nation on Livable Communities, 
``Creating Environments for Successful Aging.
---------------------------------------------------------------------------
    AARP views broadband Internet technology as the 21st century bridge 
and facilitator for enhanced connectivity and successful aging. 
Available and affordable broadband can overcome many critical 
limitations for older users that are inherent in current communications 
technology. Communicating through telephone calls or e-mails does not 
involve the physical presence that occurs with in-person meeting and 
thus does not convey visual and physical cues, such as facial features 
or body language, that not only enrich conversations, but convey 
critical information. For example, doctors trying to diagnose or treat 
a patient by telephone would not benefit from important visual cues, 
such as the grimace of a patient in pain or the lack of eye contact 
from a depressed patient. E-mails are often open to misinterpretation 
because of the inherent difficulty in conveying emotion or tone in 
written communication. In addition, sending an e-mail does not 
guarantee an immediate response, making it an ineffective tool for 
communicating urgent or emergency messages.
    All persons should have the means to stay connected to an extent 
that ensures independence and quality of life. In this regard, the goal 
of Federal policy should be one of assuring sufficient or requisite 
connectivity: which is ``the state of having robust and reliable 
communication and/or transportation modes, with operable alternative 
work-around options, so that contact may be initiated or maintained at 
the rate, richness, and intensity that we desire for a given task or 
social outcome.''
    High-quality broadband networks will help many older Americans 
achieve ``requisite connectivity''. Broadband allows for greater 
information-carrying capacity and speed than earlier networks and 
enables real-time interaction and more precise, expressive 
communication, almost of the kind that can occur during an in-person, 
face-to-face meeting.\4\
---------------------------------------------------------------------------
    \4\ AARP Public Policy Institute, Connecting for Successful Aging: 
Promoting Broadband for the Opportunities and Challenges of Later Life, 
Chris A. Baker.
---------------------------------------------------------------------------
    Telemedicine, support monitoring devices, interactive video and 
home health care all become more viable options for consumers with 
broadband, particularly persons with limited mobility or those not well 
enough to travel. In a recent survey of Older Americans age 65 and 
over, 98 percent of respondents agree that they like to know as much as 
they can about their health conditions regardless of their demographic 
characteristics. Furthermore, almost all (96 percent) of respondents 
agreed they would like to help their doctor monitor their health. More 
than a majority of respondents agreed they wish their doctor had a 
device that allows him/her to perform a variety of standard 
telepharmacy tasks such as checking medication history, prescription 
drug benefits, insurance coverage of specific medications and 
electronic forwarding of prescriptions to their pharmacy to be filled 
before travel for pick-up.\5\
---------------------------------------------------------------------------
    \5\ AARP ``Healthy @Home'', Knowledge Management. Linda L. Barrett, 
Ph.D.
---------------------------------------------------------------------------
    Distance learning is not only facilitated with broadband, but can 
be conducted with greater personal convenience and with greater visual 
enhancement than previously available. This is especially true for 
persons with jobs, disabilities or family care responsibilities that 
make it difficult to travel to a classroom.
    Many of AARP's age 50+ members are still active in the workforce 
and find telecommuting very attractive with a high-speed broadband 
connection. Trends indicate that people will work much longer as they 
continue to mature:

  <bullet> According to an AARP study on work and careers, 69 percent 
        of workers age 45 to 74 plan to work in some capacity during 
        their retirement years.

  <bullet> Many, however, want to work on different terms, with more 
        flexibility and autonomy, than they did during their earlier 
        careers.

  <bullet> In fact, 70 percent of workers age 45 to 74 say they are 
        looking for ways to better balance their work and personal 
        lives, and 41 percent report that the ability to work from home 
        is an absolutely essential part of their ideal job.\6\
---------------------------------------------------------------------------
    \6\ AARP ``Healthy @Home''.

    Not only can affordable access to broadband Internet make 
telecommuting a more realistic option for older workers, it can enhance 
opportunities for volunteer work as well. For organizations facing 
shortages of volunteers, virtual volunteer with broadband technology 
will allow greater numbers of people with time constraints, physical 
limitation or home care obligations to engage in needed charitable 
activities with organizations in their own communities and around the 
world.
    Where broadband is widely available, innovative uses of 
videoconferencing can provide older consumers with unlimited 
opportunities to expand their civic and social ties and enrich their 
lives.
    However, despite the bright promise of the Telecommunications Act 
of 1996, universal access of advanced telecommunications services has 
not been fully realized. With all of the research and potential 
benefits of high-quality broadband Internet technology, our Nation that 
invented the Internet is losing its place as a leader in the deployment 
of broadband Internet technology. Simply put, the digital divide for 
older Americans remains far too wide:

  <bullet> Thirty-eight percent of rural adults have broadband at home, 
        as compared with 57 percent for urban adults, and 60 percent 
        for suburban adults.

  <bullet> Twenty-five percent of households with income under $20,000 
        per year have broadband at home, as compared to 85 percent of 
        households with income greater than $100,000 per year.

  <bullet> Fifty percent of adults age 50 to 64 and 19 percent of those 
        65 and older have broadband in their home.\7\
---------------------------------------------------------------------------
    \7\ AARP ``Aging in Internet Time--Harnessing the Benefits of 
Broadband for Older Americans''.

    A new public policy toward broadband is needed to stimulate the 
development of universally available, affordable and high-quality 
broadband.
    A new public policy for broadband deployment should incorporate the 
following principles:

        1. Greater promotion of broadband adoption, especially among 
        the older and underserved populations;

        2. Promotion of open and standardized broadband platforms;

        3. Transparency and accountability that ensures the collection 
        and public reporting of timely and accurate data on the quality 
        of the broadband technology being deployed, the prices at which 
        the broadband technology is available, and the interoperability 
        of networks and technologies; and

        4. Increased use of broadband mapping to ensure the efficient 
        utilization of resources to achieve rapid advance of broadband 
        deployment.\8\
---------------------------------------------------------------------------
    \8\ AARP ``Aging in Internet Time''.

    AARP encourages Congress to pass broadband mapping legislation. 
Senate bill 1492, the Broadband Data Improvement Act passed by this 
Committee and House-passed legislation H.R. 3919, the Broadband Census 
of America of 2007, will help local communities and states assess their 
broadband inventory. Broadband mapping will collect accurate data that 
demonstrate current broadband deployment, forecast deployment 
milestones and identify areas where follow-up measures are required. 
The information that these bills provide is extremely important and is 
needed now if all American are to realize the promise of broadband 
technology.
    Mr. Chairman, helping people age 50 and older stay connected, 
informed and engaged is central to AARP's work of encouraging positive 
social change and fostering more livable communities. The potential and 
possibilities of affordable broadband technology are unlimited. 
Increased broadband deployment can greatly enhance the ability of older 
Americans to remain independent in their communities, providing 
convenient access to the services and activities they need to address 
the complexities of aging and lead more comfortable and meaningful 
lives.
    Thank you.

    The Chairman. Thank you very much.
    May I now call upon the Missouri State Librarian, Ms. 
Conroy?

        STATEMENT OF MARGARET M. CONROY, MISSOURI STATE

 LIBRARIAN, ON BEHALF OF THE AMERICAN LIBRARY ASSOCIATION (ALA)

    Ms. Conroy. Thank you, Mr. Chairman, Members of the 
Committee. It is with great pleasure that I submit this 
testimony on behalf of the American Library Association, the 
ALA. I am Margaret Conroy. I am the State Librarian of the 
State of Missouri, and I am also a member of ALA, which is the 
oldest and largest library association in the world.
    Today I am here to talk with you about the importance of 
broadband Internet in libraries and to share with you how the 
residents of the ``Show Me'' state are using broadband through 
their public libraries.
    Some had predicted that the rise of the Internet would lead 
to the demise of the public library, but as Missouri native 
Mark Twain wrote, ``Reports of my death are greatly 
exaggerated.'' Libraries are very lively places and they are at 
the forefront of the information age. By providing Internet 
access to the general public, libraries have become the social 
and economic hubs of their communities. They are often the only 
place Internet access is provided in their community, and 
especially now during difficult economic times, use is growing 
ever higher. Broadband technologies play an increasingly vital 
role in enabling public libraries to provide their essential 
services.
    Current research shows that while computer use has 
increased substantially, many homes still do not have computers 
or Internet access. Libraries are working to close this digital 
divide. Nationwide 73 percent of all public libraries report 
they are the only provider of no-fee Internet access in their 
communities, and this statistic rises to 83 percent in rural 
areas.
    How do our patrons use the Internet? 78 percent of 
libraries reported that education resources and data bases 
purchased for K-12 students are their most important service, 
followed closely by job hunting and e-government services and 
information.
    Librarians can also share with you many stories about how 
libraries are increasingly involved with emergency preparedness 
and disaster recovery in conjunction with local and State 
governments. For example, residents of Marble Hill flocked to 
their library this spring to file FEMA paperwork when their 
homes were flooded. Even though the library had also been 
flooded by the rise of a local creek, it remained open to 
provide access for their distressed residents in Marble Hill.
    Some other stories, from a librarian in Nevada, Missouri. I 
have been moved when I helped a wife who needed to instant 
message her husband in Iraq or a grandmother who, for the first 
time, saw her grandchild on the Internet, or a child who needed 
to find a Martin Luther King, Jr. speech. None of these people 
have computers in their homes.
    From McDonald County, which is down by the Arkansas border: 
During a 3-hour period last week, I encountered five different 
languages at one time, helped Somali refugees fill out 
citizenship forms, observed online college courses being taken, 
and helped an older gentleman send an e-mail to his son in the 
military in Japan.
    From Wright County: In our rural community, the only public 
access to broadband is the library. Business people come in to 
research and order products because it takes them less time to 
use the library's connection than it does to use the connection 
at their businesses.
    From Warrensburg: The Social Security office in Warrensburg 
closed last year. Connections are faster at the library, so 
they can assist those who cannot travel the 30 miles to the 
nearest Social Security office or those who have no computer or 
decent connection speed at home.
    From Morgan County: People come in to apply for jobs online 
on a weekly basis. More local companies, as well as chains like 
Target, Lowes, and WalMart now require online job applications. 
Truckers are even applying for jobs online now.
    From Columbia, Missouri: We are opening our computer 
training lab on Friday mornings for Refugee and Immigration 
Services to help their clients. We also have added a special 
time each week in the computer training center to help people 
with online job applications and resume writing. This is in 
addition to normal classes and partnering with AARP to provide 
electronic tax filing for senior citizens and low-income 
members of the community.
    From Oregon County: Internet access means that our local 
college students can work online, communicate with their 
professors, e-mail their assignments, take classes, and compete 
on a level playing field with students from metropolitan areas.
    You can see from just these examples why librarians well 
understand the essential nature of the importance of broadband. 
Not only have librarians embraced the digital age, we also 
maintain our more traditional services, services that are now 
in ever greater demand because technology has made them better 
known and easier to share.
    While our efforts to enhance Internet connectivity have 
been incredibly rewarding, we need to do more. 57 percent of 
public libraries report that their broadband connections are 
inadequate to serve growing demand. Broadband needs for a 
library are not the same as for home users. Libraries support 
simultaneous multiple users both in the building and people 
connecting from home or their offices. In Missouri, we are 
lucky to have MOREnet which helps provide Internet connectivity 
for public education in libraries. And you can read more about 
MOREnet in my written testimony.
    Libraries across the country truly appreciate the foresight 
of this committee in originating the E-rate discount program. 
Thank you so much. The E-rate program has been an incredibly 
valuable resource that enables many libraries to afford 
telecommunications and Internet services. The program is 
working. Without the E-rate, many of our libraries could just 
not afford the levels of connectivity that they need.
    There are some adjustments to the program that would 
encourage increased library participation that we have proposed 
to the FCC, and we hope that the commission will move forward 
on our recommendations in the near future.
    Mr. Chairman, I cannot say strongly enough how indebted we 
are to your leadership and to this Committee for the enormous 
progress we have made in the last decade. On behalf of the 
American Library Association and the libraries in the State of 
Missouri, we look forward to working closely with you in 
addressing the issues of expanding broadband deployment and 
meeting the telecommunications needs of all Americans. Thank 
you.
    [The prepared statement of Ms. Conroy follows:]

Prepared Statement of Margaret M. Conroy, Missouri State Librarian, on 
            Behalf of the American Library Association (ALA)

    Chairman Inouye, Ranking Member Hutchison, Members of the 
Committee, it is with great pleasure that I submit this testimony on 
behalf of the American Library Association (ALA). My name is Margaret 
Conroy, and I am the State Librarian for the great State of Missouri. I 
am also a member of the American Library Association (ALA), the oldest 
and largest library association in the world with 66,000 members who 
are primarily school, public, academic and some special librarians, as 
well as trustees, publishers and friends of libraries.
    I am here to share with you how the residents of the ``Show Me'' 
state are using broadband (and too-often slower connectivity) through 
our public libraries. You will see that our experiences in Missouri 
track closely with research findings in the report, Libraries Connect 
Communities: Public Library Funding & Technology Access Study 2007-
2008,\1\ released just 2 weeks ago by the American Library Association 
and the Information Institute at the College of Information at Florida 
State University. This report assesses public access to computers, the 
Internet and Internet-related services in public libraries across the 
United States, and gauges the impact of library funding changes on 
connectivity, technology deployment and sustainability. Chairman 
Inouye, I request that the Executive Summary of this report be 
submitted into the record.
---------------------------------------------------------------------------
    \1\ Bertot, John Carlo, et al. Libraries Connect Communities: 
Public Library Funding & Technology Access Study 2007-2008. American 
Library Association. September, 2008.
---------------------------------------------------------------------------
    Broadband technologies play an increasingly vital role in enabling 
public libraries to provide essential services to all, especially 
important for the ``have-nots.'' Because so many people do not have 
broadband, libraries are trying to meet all of the new demands that our 
patrons need because we are the only institution that they can come to 
for access and information.
    Some naysayers predicted that the rise of the Internet would lead 
to the demise of the public library. But as Missouri native Mark Twain 
wrote, ``reports of my death are greatly exaggerated.'' Libraries are 
now very lively places and at the forefront of the ``Information Age.'' 
By providing Internet access to the general public, public libraries 
have become the social and economic hubs of their communities, often 
times providing the only Internet access for many low-income and 
elderly people, students, job seekers, immigrants, travelers, and many 
others.
    A Pew Foundation study on how Americans search for information 
released in December 2007 shows that people who used the Internet were 
more likely to use the library than people who do not use the 
Internet.\2\ This was true regardless of income. This study also 
revealed significant new information on who is using our libraries. 
Traditionally, the profile of the library user was a middle-aged 
female. This study shows a dramatic shift in that profile to young 
people ages 18 to 30. This shift indicates two current realities about 
our libraries: (1) libraries are successful in offering technology that 
attracts younger users; and, (2) it charges libraries with keeping pace 
with emerging technologies to continue to support the information needs 
of young people as they grow into adulthood.
---------------------------------------------------------------------------
    \2\ Leigh Estabrook, Evans Witt, and Lee Rainee, Information 
Searches That Solve Problems: How people use the Internet, libraries, 
and government agencies when they need help, (Pew Internet and American 
Life Project, December 30, 2007). Available on the Internet at http://
www.pewinternet.org/PPF/r/231/report_display.asp.
---------------------------------------------------------------------------
    Libraries offer technology to link communities around the country 
and provide users access to information through state, regional, 
national and international networks. Librarians can also share with you 
the many stories about how libraries are increasingly involved with 
emergency preparedness and disaster response in conjunction with local 
governments and other organizations. Many libraries are part of 
statewide networks that provides enriched content data bases and open 
access to resources, and services that our local libraries just cannot 
afford on their own.
    However, while computer use has increased substantially in the 
United States, many American households still do not have computers or 
Internet access in their homes. Libraries are working to close this 
``digital divide'' in many of our Nation's distressed communities by 
providing no-fee, public access to computers and the Internet. 
Nationwide, 73 percent of all public libraries report they are the only 
provider of free Internet access in their communities. In rural areas, 
the role of the library is even more critical as 83 percent of 
libraries are the only no-fee Internet provider.
    To demonstrate the pervasiveness of public libraries in America, 
let me present this comparison: There are more public libraries in the 
U.S. than McDonald's restaurants--a total of 16,549 public libraries, 
including branches. Statistics also show that 63 percent of adults in 
the U.S. have public library cards.\3\ Furthermore, nationwide, there 
are now 1.3 billion visits per year to our Nation's public libraries. 
Over 2 billion items were checked out in 2006, when ALA conducted a 
poll that found that 92 percent of respondents expect libraries to be 
needed in the future, despite the increased availability of information 
on the Internet.\4\
---------------------------------------------------------------------------
    \3\ American Library Association. @ your library: Attitudes Toward 
Public Libraries Survey 2006, p. 1.
    \4\ Ibid., p. 12.
---------------------------------------------------------------------------
    Why have libraries remained so essential? Part of the answer is 
that public libraries across the country have installed thousands of 
computers for the general public--some with help from organizations 
such as the Bill and Melinda Gates Foundation, and also with major 
investment from local governments and creative budgeting by library 
administrators. The Federal ``E-rate'' program, which originated in 
this very Committee and for which libraries and library patrons are 
enormously grateful, has played a tremendous role in expanding the 
ability of public libraries to connect patrons to the Internet 
connections. Public librarians provide training to educate users on how 
to use computer applications and the Internet. Furthermore, our studies 
show 98.9 percent of public libraries now provide Internet public 
access at no-fee, and 65.9 percent of public libraries also provide 
wireless Internet access for those patrons who bring their own laptop 
computers.\5\
---------------------------------------------------------------------------
    \5\ Bertot et al., p. 28.
---------------------------------------------------------------------------
    Library access is especially important in rural areas and for low-
income families. Approximately 38 percent of rural households have 
broadband. The percentages are higher in urban and suburban: 57 percent 
and 60 percent respectively. Among households with incomes over 
$100,000, 85 percent have broadband access. Among households with 
incomes $20,000 and under, only 25 percent have broadband service.\6\
---------------------------------------------------------------------------
    \6\ Communications Workers of America, Speed Matters: A Report on 
the Internet Speeds in All 50 States, August 2008, p. 3.
---------------------------------------------------------------------------
    The ALA-Florida State report found that America's 16,543 public 
libraries are leveraging technology to help students of all ages 
succeed in school and support lifelong learning. More than 83 percent 
of libraries now offer online homework resources, including live tutors 
and collections of reliable Web sources--an increase of 15 percent in 1 
year. Libraries also reported significant increases in the number of 
audiobooks and podcasts (33 percent increase), videos (32 percent 
increase), e-books (13.5 percent increase) and digitized special 
collections (13 percent increase). As Americans are changing the ways 
they meet their educational, entrepreneurial and entertainment needs, 
libraries are changing with them and ensuring access for patrons in our 
libraries as well as for remote access users.
    How do our patrons use the Internet? The research shows:

  <bullet> 78% of the libraries reported that education resources and 
        data bases purchased for K-12 students are their most important 
        service. Since over 90 percent of school districts are 
        assigning homework that involves Internet usage and school 
        library media centers are closing across the country, this 
        priority is not surprising.

  <bullet> 62% reported job-hunting as another high priority. Given our 
        challenged economy, and knowing that the majority of the top-
        100 retailers only accept electronic and online job 
        applications, you can see why this is so important. Libraries 
        offer access to data bases with job listings, training for 
        resume development and interviewing techniques--all necessary 
        21st century skills to get that new job.

  <bullet> 55% of libraries reported that access to government 
        information has become another high priority.\7\ We know that, 
        at every level of government, agencies increasingly require 
        online-only interactions with residents for information, 
        applications, appointments, and more.
---------------------------------------------------------------------------
    \7\ Bertot et al., p. 10.

    Note also the increasing use of media services over the Internet. 
Libraries report a 30 percent growth in both video and audio content 
over the last year.\8\ Also, libraries are increasingly using two-way 
videoconferencing for their staff to reduce costs. More and more 
students are relying on videostreaming for class lectures from their 
college or university for distance learning and media content 
dissemination. Some state and local governments now require video 
training, for example to obtain a driver's license. More and more 
websites employ Web 2.0 applications that involve greater interaction 
with the user. Health care providers and businesses are integrating 
streaming video into standard components of their websites.
---------------------------------------------------------------------------
    \8\ Ibid., p. 51.
---------------------------------------------------------------------------
    While this research is extraordinarily important, perhaps more 
memorable are the reports I received from my libraries in Missouri. In 
preparation for this hearing, I asked my libraries to send me examples 
of how their Internet access has benefited their communities. Here are 
a few of these examples.

    From a librarian in Nevada, MO:

        I have been moved when I helped a wife who needed to IM her 
        husband in Iraq, or a grandmother who, for the first time, saw 
        a grandchild on the Internet, or a child who needed to find a 
        Martin Luther King, Jr. speech. None of these people have their 
        own computers at home. This is like the whole Carnegie movement 
        for books, i.e., it tried to provide information to the people 
        who could not afford books. Now, the challenge that we face is 
        that people cannot afford computers or Internet. This is 
        especially true in rural America. These individuals might have 
        computers, but getting access to an Internet connection is 
        difficult if not impossible. I've seen all these examples and 
        more and they always make me think that what we do is worth it.

    From a librarian in the McDonald County Library, Pineville MO:

        The little Noel branch library has a small computer lab, and 
        during a 3-hour period last week, . . . I encountered 5 
        different languages at one time, helped Somali refugees fill 
        out citizenship forms, watched a toddler in a diaper handle the 
        mouse on the children's computer like a pro, observed online 
        college courses being taken, helped an older gentleman send an 
        e-mail to his son in Japan in the military--the only way he 
        could afford to communicate with him. Our little computer lab 
        provided access to job searching and a way to ``escape'' this 
        small rural impoverished town with our high-speed connection.

    From a librarian in Wright County, MO:

        In our rural community the only public access to broadband IS 
        the library. Business people come in to order and research 
        products because it takes them less time to do these tasks if 
        they use our computers rather than use the slower ones they 
        have at their places of business. We are an impoverished 
        community and we have a lot of patrons that are going to 
        college 2 days a week, they come into the library and download 
        their lessons, talk to their professors, do some of their 
        assignments on-line and then send in their homework on-line. 
        They often compliment us on having such a fast connection.

        We do our cataloging through the Internet because we do not 
        have the money in our budget to hire a professional catalog 
        employee. This helps our library budget out tremendously since 
        I do not know where we could find the money for this position. 
        I believe that this is one of the best things that the State 
        helps us with--the fast Internet connections we have at all 
        branches.

    From a librarian in Oregon County, MO:

        What Internet access means to the Oregon County Library 
        District and our patrons? It means that a 90-year-old great 
        grandma can come into the library and read her e-mail, see a 
        picture of a great granddaughter in Texas on her first day of 
        kindergarten and print out the picture to show everyone. It 
        means that our local college students can work on-line, 
        communicate with their professors, e-mail their assignments, 
        take on-line classes and compete on a level playing field with 
        students from metropolitan areas. It means local citizens who 
        can't afford personal home computers and a fast Internet 
        connection can come to the public library and use our 
        resources. You must keep in mind; Oregon County is a rural, 
        economically disadvantaged county. The Alton Public Library is 
        located about ``fifty miles from anywhere''. What does Internet 
        access mean to us? It means everything!

    From a librarian in Warrensburg, MO:

        The Social Security office in Warrensburg closed last year. The 
        nearest physical offices are now in Sedalia or Lee's Summit--a 
        30+-mile drive for nearly everyone in the two counties we 
        serve. Since many of the activities related to Social Security 
        (go to http://www.ssa.gov/onlineservices/ for a list) can be 
        done online, it is crucial for the 80,000 residents of Johnson 
        & Lafayette Counties to have access to the Internet. Our 
        connections are quick (T1 and faster) so we can assist those 
        who cannot travel to the Social Security offices or those who 
        have no computer or decent connection speed.

    From a librarian in Morgan County, MO:

        High-speed Internet access is critical in Morgan County. We are 
        a poor rural community. Students who cannot afford to go away 
        to college stay at home to work and take online classes and we 
        proctor many of their tests monthly. We have kids who commute 
        to the local community college and come to the library to check 
        and complete assignments. This is their only opportunity to 
        continue their education. We have MANY grandparents for whom 
        the public computer is their only link to children and 
        grandchildren. We print a lot of family photos! Seniors who do 
        not drive great distances rely on us to bring their families 
        together.

        Society has made it necessary for almost everyone to have 
        computer access. People come in to apply for jobs online on a 
        weekly basis now that large chain stores like Target, Lowe's, 
        Applebee's, and Wal-Mart require people to apply for jobs 
        online. More local companies now require online applications 
        and even truckers apply for jobs online. Our community would be 
        at a great loss without the Internet.

        The dad in a local family was being sent to Argentina for his 
        job and the family wanted current information on climate, food, 
        culture, etc. The library did not have books on modern 
        Argentina (not much demand usually), so the Internet brought 
        Argentina to them. Home-school families, who do not have a 
        school library computer, use our library to access the Internet 
        for world news, homework help and more.

    From a librarian in Centralia, MO:

        Internet is vital to Centralia patrons for online job 
        applications. More and more companies are requiring job 
        applications to be done by computer. The staff has helped 
        numerous grateful patrons that need a non-technical job but 
        have no computer skills to apply. How sad it would be if 
        community members were unemployed just because they had no 
        Internet access or computer skills.

    From a librarian in a suburb of St. Louis, MO:

        When I was at the Richmond Heights Memorial Library, I observed 
        a nice young man who came in frequently to use our computers. I 
        never really knew what he was doing, but one afternoon he came 
        up to me at the reference desk and proudly announced, `I got 
        into medical school!' I congratulated him, and he thanked me, 
        noting that he had done the entire application process right 
        there on the library's computers. I thought it was the kind of 
        success story for which we live.

    From a librarian in the town of Ozark in southwest Missouri:

        I remember the young man who didn't live in Ozark but was just 
        traveling through and came into the library on 9/11. His sister 
        worked in the Twin Towers and he came to our library to check 
        the news and send e-mails to his family in New York City.

    From a librarian at Wood Place Public Library:

        Providing reliable, fast Internet access has become an 
        increasingly necessary library service in my small rural 
        community. Today it is used by many of the lowest income 
        patrons and is vital for anyone who is trying to ``get ahead''. 
        The GED classes that are held here have started using Internet 
        based study programs. There are also several individuals that 
        come in regularly to work on their on-line college classes. 
        Having college classes available is making it possible for more 
        non-traditional students in our community to take college 
        classes.

        I stopped in a convenience store recently and the clerk was one 
        of the middle-aged patrons that have been coming into the 
        library to take college classes on-line. She said the 
        convenience store job is her second job and in addition to 
        working two jobs and raising a family she is slowly working her 
        way through college in order to eventually obtain a better 
        paying job. It's rewarding to see someone working so hard to 
        become financially stable.

        I also see lots of individuals here that are not working or not 
        able to make ends meet. Their first step toward becoming 
        financially independent is to find work, so they don't need to 
        rely on public aid for food and other necessities. The local 
        McDonald's is one of the businesses that hire individuals with 
        no prior work experience. McDonald's now only accepts online 
        applications, and of course many of the people who need these 
        jobs don't have access to the Internet at home. We help many 
        individuals find their way into the online application website 
        for McDonald's.

        We recently used an LSTA grant to fund an upgrade and expansion 
        of our public access computers. I thought that after this 
        project was complete, we'd have all the Internet services 
        needed for this small community. I was wrong! Everything was 
        done in June 2008 and already the demand has increased to the 
        point where people are often waiting for their turn to use the 
        Internet. We have set aside a room to add a computer lab and 
        have furniture available. I know that there is an LSTA grant 
        available that will partially fund the equipment we now need in 
        order to meet the basic needs of our patrons.

        However, we don't currently have enough funds to even provide 
        the 25 percent match that is required with that grant. I don't 
        think the taxpayers will approve additional funding for us and 
        the local businesses and organizations that we used to rely on 
        to help fund library projects are already overwhelmed with 
        requests for financial assistance from other entities.

        I hope your visit to Washington will help inform Congress that 
        funding for increased broadband Internet access at libraries is 
        necessary for the good of our country.

    From a librarian at Macon Public Library:

        Here at Macon Public Library we feel our MOREnet Internet 
        access is as important to our community as our state and 
        Federal highways. Our computers are used daily and often people 
        come to us in a panic like the lady who had very little travel 
        experience and had ordered airline tickets over the phone but 
        was told she had to go online and print her tickets. She had no 
        computer, no Internet access and no computer skills. We easily 
        helped this woman and lessened her stress so she could enjoy 
        her trip.

        Wal-Mart employees use our public terminals to access their pay 
        history. They have online access at work, but when they need 
        assistance and have privacy concerns, they prefer to ask us 
        instead of someone at their place of employment. We do more and 
        more online test proctoring for students of all ages and 
        abilities who are often on a budget and saving travel miles 
        really makes a difference. These are just a few examples of how 
        average citizens in a City of 5,500 people depend on public 
        broadband access in their libraries and feel it is a necessity.

    From a librarian at Daniel Boone Regional Library, Columbia, MO:

        We are opening our computer-training lab on Friday mornings for 
        Refugee and Immigration Services to help their clients. We also 
        have added a special time each week in the computer-training 
        center to help people with on line job applications and writing 
        resumes. This is in addition to our normal classes and 
        partnering with AARP to provide electronic tax filing for 
        people over 65 and low-income members of the community. They 
        are always so grateful--when I walked by 1 day last week I was 
        greeted with a round of applause for allowing AARP to use the 
        space. I know computer access means a lot to them. At CPL, we 
        had 2,800 people log on using our wireless access just in July. 
        We see more and more business people, travelers and students 
        taking online classes and others using our wireless capacity.

    From a librarian in the Doniphan-Ripley County Library:

        We had a patron who had a good deal of pain due to blockages in 
        the veins in her legs and needed surgery. She had heard of a 
        new kind of procedure with a cool laser that needed much less 
        recovery time but she couldn't find anybody who knew anything 
        about it. With some research on the Internet, I found a surgeon 
        in Springfield, MO who specialized in the surgery and 
        successfully performed it on her. A year and a half later, the 
        hospitals in Cape Girardeau, MO (closer to her home) had the 
        equipment but it was too because the patron needed the surgery 
        immediately and we were able to help her avoid a long and 
        painful recovery with the old technique.

    You can see from these examples why librarians well understand the 
importance of broadband. Not only have we embraced the digital 
revolution, we also maintain our more traditional services--services 
that are now in greater demand because technology has also made our 
traditional resources better known, increasingly used and easier to 
share through interlibrary loans and online bibliographic catalogs.
    While our efforts to enhance Internet connectivity have been 
incredibly rewarding, we need to do more. Broadband needs for a library 
are not the same as the needs for home users. Libraries need to respond 
to a wide range of bandwidth-intensive applications requiring 
simultaneous robust connectivity for multiple users. We must support 
user needs at in-library computer workstations, for those connecting 
wirelessly on their laptops, and for those connecting remotely from 
home.
    As I mentioned earlier, the Internet has grown beyond all our 
previous wildest expectations, and libraries across the country are 
constantly playing catch-up with the growth in demand. Video-based 
services require exceptional levels of capacity. Even ordinary 
consumers will soon be demanding huge amounts of capacity for basic 
uses. Or, as some advocates have said, ``today's bandwidth hog is 
tomorrow's average Internet user.''
    While policy-makers and libraries have made extraordinary efforts 
to adapt to this rapidly changing environment, libraries are challenged 
to take maximum advantage of these new services. Public libraries 
across the country are struggling to find, install and pay for large 
enough broadband ``pipes'' to meet the great demand for Internet 
access. Frequently, patrons must wait in line to use the computers and 
librarians often find that their networks slow to a crawl, especially 
in the afternoon when students get out of school and come to the 
library to do homework. Several libraries have delayed purchasing 
popular online resources, such as the interactive homework help site 
www.tutor.com, in an effort not to exacerbate already slow access 
speeds.
    These problems are particularly acute because of the rapid 
innovations of Internet-based technologies. As Moore's Law says, 
Internet usage is doubling approximately every 18 months, and public 
libraries are no exception. Libraries that installed a basic T1 
connection last year, believing it would satisfy several years of 
demand, are finding that the capacity is already overwhelmed with 
additional demand. Our studies how that 82.5 percent of public 
libraries have fewer computers available than patrons who want to use 
them, at least some of the time (up from 77.5 percent in 2006-2007) and 
57.5 percent of public libraries report that their Internet bandwidth 
is insufficient to meet the demand some or all of the time (up from 
nearly 52 percent in 2006-2007).\9\
---------------------------------------------------------------------------
    \9\ Ibid., p. 29.
---------------------------------------------------------------------------
    There are many reasons why public libraries cannot satisfy this 
burgeoning demand.

  <bullet> Sometimes there is simply no broadband capacity available 
        from any of the existing broadband providers. Many libraries, 
        located in more rural areas, require connectivity that 
        resembles the needs of a large business, and providers may not 
        even have sufficient pipes to satisfy library needs in those 
        locations.

  <bullet> Sometimes the cost of the new capacity is prohibitively 
        expensive. We often find that there is little competition among 
        broadband providers so there is little incentive for them to 
        reduce their rates to affordable levels.

  <bullet> Sometimes local budgets cannot bear the increased costs, 
        even with E-rate discounts.

    In Missouri, we have taken special efforts to address the need for 
greater Internet connectivity. Established in 1991, the Missouri 
Research and Education Network (MOREnet) provides Internet 
connectivity, access to Internet2, technical support, videoconferencing 
services and training to Missouri's K-12 schools, colleges and 
universities, public libraries, health care, state government and other 
affiliated organizations.
    MOREnet encouraged the state's telecommunications providers to 
construct a MOREnet-designed, advanced, high-speed, high-bandwidth 
network throughout Missouri. These connections, managed by MOREnet on 
behalf of the state's schools and libraries, also laid the groundwork 
for Internet availability to thousands of rural Missourians. MOREnet is 
tremendously important to our 152 public library systems, with 372 
physical library locations and 29 bookmobiles serving more than 5.1 
million residents. Currently, 245 of our physical library locations are 
served by connections from 1.5 Mbps to 100 Mbps capacity.
    [Missouri's public libraries are primarily organized as library 
districts (88.6 percent) with the rest organized as municipal 
government libraries (9.4 percent) and as association libraries within 
a municipality (1.3 percent).\10\]
---------------------------------------------------------------------------
    \10\ Ibid., p. 97.
---------------------------------------------------------------------------
    Unfortunately, Missouri is the exception rather than the rule, as 
most states do not have the resources to adopt such a framework. Most 
states are struggling to meet a demand that simply will not wait.
    As I mentioned before, the E-rate program is an incredibly valuable 
resource without which many libraries could not afford 
telecommunications and Internet service. Libraries across the country 
have great appreciation for the foresight of this Committee in 
originating this program. In the coming months and years, the library 
community is ready to work with you, the FCC and other stakeholders to 
make appropriate refinements that could enhance the program. Many 
libraries cannot benefit fully from this program because of the 
burdensome application and disbursement process. Furthermore, the 
discount formula does not work as well for libraries as it does for 
schools so that library discount rates may not accurately reflect the 
local poverty levels. To encourage more library participation, ALA has 
submitted a simplification proposal to the FCC. We hope that the 
Commission will move forward on our recommendations in the near future. 
In this way ALA hopes to increase library participation in the E-rate 
and our libraries' ability to serve the American public.
    Mr. Chairman, I cannot say strongly enough how indebted we are to 
your leadership and to this Committee for the enormous progress we have 
made in the last decade. We know that 99 percent of public libraries 
can now offer the public some level of no-fee public access computing. 
We know that the American public is benefiting from our services. 
Public libraries are at the forefront of the Information Society and 
provide invaluable access to the Internet that cannot be obtained in 
other ways.
    But as we champion the many public services and benefits brought to 
us by broadband, we want to ensure that public libraries can continue 
to serve and enhance our service to the public. It has been clearly 
demonstrated that Americans need the services and applications that 
broadband technology delivers. Public libraries require faster and 
cheaper broadband services to deliver those services to the public.
    I applaud this Committee for expressing interest in the role that 
public libraries play in increasing the availability of Internet access 
for all Americans. On behalf of the American Library Association, we 
look forward to working closely with you in addressing the issues of 
expanding broadband deployment and meeting the telecommunications needs 
of all Americans.

                               Attachment
                     Libraries Connect Communities

Executive Brief
The State of Technology and Funding in U.S. Public Libraries in 2008
    Libraries Connect Communities: Public Library Funding and 
Technology Access Study 2007-2008 marks the second year of the study, 
funded by the Bill and Melinda Gates Foundation and the American 
Library Association (ALA), and continues the research of previous 
surveys conducted by John Carlo Bertot and Charles R. McClure, with 
others, since 1994.\1\ The study presents national and state data 
gathered through three integrated approaches: a national survey that 
collected information about public library Internet connectivity, use, 
services, funding and sustainability issues; a questionnaire sent to 
the Chief Officers of State Library Agencies (COSLA); and focus groups 
and site visits held in four states: New York, North Carolina, 
Pennsylvania and Virginia.
---------------------------------------------------------------------------
    \1\ Information about the reports from the 1994-2006 studies is 
available at http://www.ii.fsu.edu/plInternet.
---------------------------------------------------------------------------
    This year's study reinforces a key finding from 2006-2007: Library 
infrastructure (staffing, space and bandwidth) is being stretched to 
capacity. This year's report expands our understanding regarding the 
strain on public libraries to provide public access to the Internet and 
other technology, and sounds a warning about the long-term 
sustainability and future quality of free public access to the Internet 
and other technology in our Nation's libraries. Report highlights 
include:

  <bullet> Libraries serve a unique and important role in providing 
        free access to all types of information and telecommunications 
        services. The demand for such services has increased 
        significantly with growing need for access to digital and 
        online information--including e-government, continuing 
        education and employment opportunities. Almost 73 percent of 
        libraries report they are the only source of free access to 
        computers and the Internet in their communities.

  <bullet> Funding data indicate volatility in how libraries support 
        this public technology access. Even libraries with historically 
        stable funding are experiencing flat levels of local funding, 
        and have reacted to this by shifting to soft funding sources 
        (fees/fines, donations, grants, etc.) as a way to support 
        public access computing services. Local government revenue and 
        ``other'' (soft funding) account for nearly 90 percent of 
        overall public library funding.\2\
---------------------------------------------------------------------------
    \2\ National Center for Education Statistics. Public Libraries in 
the United States: Fiscal Year 2005. (NCESES 2008-301). Washington, 
D.C.: NCESES, 2007. http://nces.ed.gov/pubs2008/2008301.pdf.

  <bullet> Staffing levels are not keeping pace with patron demand--
        both for those staff who provide training and other direct 
        patron services, as well as for those staff who maintain the 
        information technology infrastructure. Libraries cite the need 
        for greater staff expertise and availability as a barrier to 
---------------------------------------------------------------------------
        being able to support and manage public access technologies.

  <bullet> An increase in the number of libraries reporting connection 
        speeds greater than 769 kbps (up 11 percent from last year) is 
        tempered by the vast majority of libraries (75 percent) who 
        report their wireless and desktop computers share the same 
        network, thus diminishing the effective speed of access to the 
        Internet at the workstation. Further, libraries are not moving 
        above the 1.5 Mbps speed as had been anticipated during 2006-
        2007.

  <bullet> Public access Internet services (including homework 
        resources, e-books, audio and video) grew dramatically over the 
        past year. These resources provide far more options for library 
        patrons to use inside the library and remotely from home, work 
        and school, but also impact the library's public services and 
        technology infrastructure.

  <bullet> Many library buildings, inadequate in terms of space and 
        infrastructure (e.g., wiring and cabling), cannot support 
        additional public access computers and technology 
        infrastructure.

    The interconnectedness of funding, staffing, buildings and 
maintenance cannot be underestimated, as all have a direct impact on 
the amount and quality of public access technology services that public 
libraries can provide to their patrons.
Key Findings
    For some library users and supporters, library technology is 
defined simply as a working computer on a desk with Internet access and 
a printer. Anyone working in a public library, however, knows that 
simple definition inadequately describes the range of technology 
infrastructure support needed to provide current public access 
computing. A range of issues detailed in this report require attention 
to maintain and improve technology access, and can be dangerous if 
ignored.
    The last decade has seen steady growth in the integration of public 
access computing services within libraries. Public libraries provide an 
impressive array of services that are critical to the communities they 
serve, but the underlying support needed to maintain and improve these 
services has been lagging for many U.S. public libraries. As libraries 
introduce more computers and more robust technology-based services, 
keeping up with patron demand is an ongoing challenge.
Funding Remains Flat for Many Public Libraries
        ``Money is going to be tight. There'll be more pressure to do 
        more with less as we've been doing.''

    Between 2006-2007 and 2007-2008, overall budgets have remained 
level for most libraries. Although libraries experienced an average 
annual increase of 4 percent in operating funds from 1996-2005,\3\ 
preliminary national data suggest decreases during Fiscal Year 2006 in 
both library expenditures and their distribution. Indications are that 
individual libraries have experienced a shifting of expenditures away 
from collections to other line items (e.g., technology, utilities, 
building maintenance).\4\ Redistributing existing resources to other 
types of expenditures is not uncommon, especially with staffing 
expenses being the most inflexible of library expenditures. In a 2006 
ALA study on funding,\5\ libraries reported that when operating budgets 
decline, reductions in staff, services and collections follow this 
pattern, in priority of order of cuts:
---------------------------------------------------------------------------
    \3\ National Center for Education Statistics. Public Libraries in 
the United States (FY1996-2005). http://www.nces.ed.gov/pubsearch/
getpubcats.asp?sid=041#. Note: Beginning in fall 2007, the Institute of 
Museum and Library Services (IMLS) began publishing the Public 
Libraries in the United States reports. Individual reports are now 
online at http://harvester
.census.gov/imls/pubs/pls/index.asp.
    \4\ Institute of Museum and Library Services. Compare Public 
Libraries, Fiscal Year 2006 [online search tool of public library 
data]. http://harvester.census.gov/imls/compare/index.asp.
    \5\ American Library Association. Office for Research & Statistics. 
Funding Issues in U.S. Public Libraries, Fiscal Years 2003-2006. 
(2006). http://www.ala.org/ala/ors/reports/funding
issuesinuspls.pdf.

---------------------------------------------------------------------------
        1. Materials (average of 68.3 percent of libraries responding).

        2. Staffing (average of 41.6 percent of libraries responding).

        3. Hours open (average of 24.6 percent of libraries 
        responding).

        4. Electronic access (12.6 percent of libraries responding).

    When scrutinized at a local level, expenditures varied much more 
than could be discerned at the national level. For instance, when 
comparing anticipated FY2007 operating expenditures reported in the 
2006-2007 Public Library Funding and Technology Access Study (PLFTAS) 
\6\ with actual expenditures in this year's study, it is apparent that 
projected expenditures were not realized. Overall operating 
expenditures fell short of anticipated levels by 15.5 percent, and 
varied by specific expenditure type from those anticipated by as much 
20 percent:
---------------------------------------------------------------------------
    \6\ Libraries Connect Communities: Public Library Funding and 
Technology Access Study 2006-2007. Chicago: American Library 
Association, 2007. http://www.ala.org/ala/ors/plftas/0607report.cfm.

---------------------------------------------------------------------------
  <bullet> 20 percent below anticipated expenditures for salaries.

  <bullet> 0.8 percent below anticipated expenditures for collections.

  <bullet> 12.5 percent above anticipated expenditures for other 
        expenditures.

    Libraries reported actual spending of about 58 percent of operating 
budgets on salaries in FY 2007 and about 26 percent of the operating 
budget on ``other'' expenditures--building maintenance, technology, 
utilities, etc. In addition to the steady shift of expenditures away 
from collections to ``other,'' it appears we may be starting to see a 
shift away from salaries to ``other'' expenditures, as well.
    In this year's questionnaire to COSLA, a majority of state 
libraries reported level or modest increases in state funding for 
public libraries in FY 2007, similar to previous years. Coupled with 
the 2006 ALA study on funding, such spending suggests that public 
libraries have been grappling with declining purchasing power since as 
early as 2003. State funding makes up about 10 percent of public 
library operating revenue. Half of state libraries estimated flat or 1-
2 percent increases in overall funding for public libraries, and 28.6 
percent estimated overall funding growth at 5-10 percent. The extent to 
which these gains can be sustained given the recent economic downturn 
remains unclear.
    While the detailed financial data section of this study provides 
more in-depth information, it is important to note that a greater 
reliance on non-tax sources of funding and a larger proportion of 
expenditures shifting toward ``other'' line items and away from staff 
and collections expenditures are important trends to watch. These are 
key questions to track when the national public library data (Institute 
of Museum and Library Services) are reported for FY2007.
Staffing at a Standstill
        ``The technology was brought in, and a whole new service 
        created, without additional staff. It was just double the work 
        for no more money, you know.''

    Library staff members at all levels play vital intermediary roles 
in supporting, managing and maintaining public access to computers and 
the Internet. For first-time users, a computer is only as good as the 
library staff available to orient them--including how to use a mouse, 
how to open an e-mail account and how to search the Internet 
effectively. In addition to the one-on-one assistance offered in all 
libraries, almost three-quarters of libraries (73.4 percent) offer 
information technology training for library patrons. More library staff 
report they are scheduling one-hour sessions with patrons to orient 
them to the broad range of skills necessary to do research, find jobs 
or apply for government assistance. Many librarians report that 
applying for jobs and government services are among the most staff-
intensive patron Internet needs.
    Another impact on front-line staff is evident in the high 
percentage of libraries reporting that managing time limits imposed on 
patron use of workstations has to be done manually. Close to half (45.9 
percent) of all public libraries and 63.6 percent of rural libraries 
manage computer time limits with paper lists and taps on the shoulder. 
Not only is this labor intensive, but many library staff reported that 
it is the most stressful task that they perform. Libraries increasingly 
are turning to software solutions that allow users to reserve access to 
a computer and/or automatically cutoff Internet sessions without staff 
intervention. While all library staff interviewed prefer this time 
management method, they agree that it adds a level of complexity to the 
computing environment, and implementation snags are common.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: National Center for Education Statistics. Public Libraries 
in the United States (Fiscal Years 2000-2005). http://nces.ed.gov/
pubsearch/getpubcats.asp?sid=041#

    While the reported average is about 50 percent, some library staff, 
particularly those on library reference desks and in libraries that 
manually manage computer time limits, estimate that as much as 80 
percent of their time is spent in any given day on technology-related 
tasks.
    Beyond direct patron assistance and training, library technical 
staff develop technology plans and hardware replacement schedules; 
build and support integrated library systems for circulation, 
cataloging, online public access catalog, acquisitions and computer 
management; troubleshoot hardware, software and telecommunications 
networks; select, purchase and organize data bases and other electronic 
resources for patron use; plan for and negotiate telecommunications 
networks; build and update library Web pages; raise awareness of new 
Internet services . . . and more.
    Like additional cars on the interstate, additional computers and 
Internet services in libraries contribute to the ``traffic'' and create 
additional demands for staff to orient patrons and mediate public 
access to these resources. Along with an 86 percent increase in the 
number of computers in U.S. public libraries, there was an 18.6 percent 
increase in library visits from 1.15 billion in 2000 to 1.36 billion in 
2005. The number of full-time equivalent (FTE) staff grew only 6 
percent over the same time period.\7\
---------------------------------------------------------------------------
    \7\ National Center for Education Statistics. Public Libraries in 
the United States (FY 2000-2005). http://www.nces.ed.gov/pubsearch/
getpubcats.asp?sid=041#.
---------------------------------------------------------------------------
    When examined by population service size, the impact on the 
smallest public libraries (serving fewer than 10,000 residents) is even 
stronger. Libraries serving fewer than 1,000 residents saw the greatest 
percentage increase in the number of public computers (up 98 percent), 
along with a decline in the number of FTETE staff (-3 percent).
    Responding to an open-ended question about the three most 
significant challenges libraries face in maintaining their public 
access computers and Internet access, adequate staffing topped the 
list, closely followed by financial concerns and computer maintenance 
and management. These challenges included staff skill levels and 
training needs, availability of IT staff support and overall inadequate 
staff levels. Rural libraries (65.2 percent) were more likely to name 
the need for more staff as their top challenge, when compared with 
their suburban (60.5 percent) and urban (44.4 percent) counterparts.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Staff Training Needs Outpace Supply
        ``I really wish there was an easier way to get the technology 
        and training. We teach ourselves, and we try to help each 
        other. It should be easier.''

    The impact on staff to support the increasing services is often 
expressed with frustration. There is a limited amount of time for staff 
to train themselves on the new technology-based services offered to the 
public, as well as the time to adequately support their patrons' needs 
for training and instruction.
    With almost 60 percent of libraries staffed by fewer than five 
full-time staff members,\8\ the difficulty of providing coverage for 
staff to receive training elsewhere is a challenge often compounded by 
long travel times for rural library staff. Scheduling time for in-
library training is also complicated, especially when there is little 
overlap time in schedules for part-time and full-time staff.
---------------------------------------------------------------------------
    \8\ National Center for Education Statistics. Public Libraries in 
the United States: Fiscal Year 2005. (NCESES 2008-301). Washington, 
D.C.: NCESES, 2007. http://nces.ed.gov/pubs2008/2008301.pdf.
---------------------------------------------------------------------------
    In the questionnaire to COSLA, about 90 percent reported offering 
some formal training to public library staff in six categories that 
build skills in funding, public awareness and/or management of 
technology in libraries. Technology planning (34 percent) was most 
likely to be offered at least once a year, followed by advocacy/
marketing (22 percent) and technology evaluation (19 percent).
IT Support Lags
        ``It comes down to me. I'm learning as I go. I've waited up to 
        a week to get a computer hard drive fixed by county IT staff.''

    The need for dedicated technology support staff was identified as 
one of three main themes that emerged from the 2006-2007 study, and 
this need continues unresolved, as evidenced by data collected during 
the current study. In fact, for the first time, the 2007-2008 survey 
asked who provides information technology (IT) support (e.g., 
troubleshooting desktop issues, Internet connectivity, the library Web 
page) for the library. The three most common types of support reported 
were:

  <bullet> Building-based staff, not trained as an IT specialist (39.6 
        percent)

  <bullet> System-level IT staff (38.5 percent)

  <bullet> Outside vendor or contractor (30 percent)

    The disparities are once again pronounced between urban and rural 
libraries, however. Rural libraries are far more likely than urban 
libraries to depend on librarians or other library staff who are not 
trained in IT (44.1 percent) and on outside vendors (36.3 percent)--or 
even volunteers (14.4 percent)--to support their technology. Urban 
libraries are most likely to have system-level IT staff (76 percent).
    One source of IT support for about 21 percent of urban libraries 
and 16 percent of suburban libraries--county/city IT staff--can be both 
a benefit and a challenge. Several library directors reported a clash 
between the library's mission of providing open access to computer and 
Internet resources for a wide range of users and user abilities, and 
the typical county/city IT approach that protects data and limits 
access, as would be more common in an office environment. One director 
reported this is an issue for ongoing education and discussion--
including the decisions about when to schedule live updates on the 
city/county network, and what may be uploaded or downloaded via library 
computers. Additionally, many city/county IT departments are 
understaffed, and libraries are one of many agencies in need of 
technology support.
    Another complicating factor for libraries working to hire and 
retain IT staff is the salary available to compensate these high-demand 
staff. In the general population, computer and information systems 
managers are compensated at an average of $101,580,\9\ compared with 
$59,974 in a public library setting.\10\ The 2007 average public 
library director salary is $77,200.\11\
---------------------------------------------------------------------------
    \9\ U.S. Bureau of Labor Statistics. Occupational Outlook Handbook. 
2008-09 edition.
    \10\ American Library Association-Allied Professional Association. 
ALA-APA Salary Survey 2007: A Survey of Public and Academic Library 
Positions Requiring an ALA-Accredited Master's Degree. Chicago: 
American Library Association, 2007.
    \11\ Ibid.
---------------------------------------------------------------------------
Internet Access Speeds Bump Up, Fall Short
        ``Our IT department looked at our bandwidth (1.5 Mbps) and 
        found that at 2 p.m. in the afternoon, it was slower than dial-
        up, we had so many people using it.''

    A positive development is that the number of libraries reporting 
connection speeds of 769 kbps or faster increased 11 percent since last 
year. More than half of urban libraries (51.6 percent), 42.1 percent of 
suburban and 32.1 percent of rural libraries now report offering a T1 
connection. In the COSLA questionnaire, several state librarians 
suggested T1 should be the minimum level of connectivity for all 
libraries in their states. Although many libraries improved access by 
moving to T1 from lower speeds, there was a slight decline (about 3 
percent) in the number of libraries reporting access speeds above 1.5 
Mbps.
    There also is evidence in the 2007-2008 study that more libraries 
have reached capacity in their technology infrastructure. Even with 
more libraries at T1 speeds, the percentage of libraries that report 
their connection speed is insufficient to meet patron demand some or 
all of the time is up about 5 percent over the 2006-2007 study. This 
may be attributed to shared connections between wireless and desktop 
computers (up 25 percent from last year), the broadband demands of 
online services and resources, and the continual use of library public 
access computers.
    About 17 percent of libraries reporting in 2007-2008 had plans to 
increase access speeds in the coming year, up about 3 percent from the 
2006-2007 study. Slightly more libraries reported that they were at 
their maximum connection speed available (17.1 percent compared with 
16.6 percent last year), or were unable to afford additional bandwidth 
(21.2 percent compared with 18.1 percent last year). Proportionally, 
all libraries (rural, suburban and urban) considered the cost of 
increasing access speeds to be a barrier hindering upgrades, but rural 
libraries (24.8 percent) disproportionately reported that they are at 
the maximum level of connectivity.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Although funding is a strong indicator of growth and sustainability 
when providing computer-based services for the public, the overall 
quality of these services depends heavily both on access speeds and on 
the adequacy of hardware--having enough computers as well as the age of 
those computers.
    This year's study revealed that the age range for library computers 
in use is quite broad; libraries in all types of communities are 
keeping computers older than 4 years in use to support patron demand. 
When asked about key factors affecting the replacement of public access 
computers, 89.6 percent of libraries reported cost and 33.1 percent 
reported maintenance and general upkeep issues as factors. Clearly, the 
impact of reliance on soft funding and insufficient IT staff are 
recognized as growing barriers to supporting ongoing public technology 
access.
Internet Services Show Double-Digit Growth
        ``We're not being used less; we're being used differently.''

    In addition to the hardware and software offered in every U.S. 
public library building, most libraries have created increasingly 
robust virtual collections of online resources via their websites and 
online catalogs. This year's survey found that nearly every category of 
public Internet service offered in U.S. public libraries increased--
sometimes dramatically--from the 2006-2007 study.
    The survey indicated double-digit growth in the availability of a 
range of resources in five key online services:

  <bullet> Audio content increased 33 percent (from 38 to 71 percent).

  <bullet> Video content is up 32 percent (from 16.6 to 48.9 percent).

  <bullet> Homework resources grew 15 percent (from 68.1 to 83.4 
        percent).

  <bullet> E-book availability increased 13.5 percent (from 38.3 to 
        51.8 percent).

  <bullet> Digitized special collections increased by almost 13 percent 
        (from 21.1 to 33.8 percent).

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Licensed data bases to support education (like World Book and test 
preparation materials), business (like Standard and Poor's) and life 
interests (such as genealogy) are still the most commonly provided 
Internet-based services--available in 98 percent of urban libraries, 93 
percent of suburban libraries and 80 percent of rural libraries.
    Also of interest is that these online services grew in libraries of 
all sizes. Urban libraries--which generally benefit from greater 
Internet access speeds, dedicated technology budgets and dedicated IT 
staff--lead in every category of online services. But their rural 
counterparts reported the greatest percentage growth in offering 
homework resources (up 15 percent) and audio content (up 34 percent). 
Suburban libraries, too, increased all online services and led their 
counterparts in the percentage growth of online instructional courses/
tutorials provision (up 13 percent).
    Library staff rank the top two uses of public Internet service that 
are as critical to their community: education for K-12 students (78.7 
percent); and job-seeking services (62.2 percent). In fact, these 
responses increased significantly in both categories since last year. 
The third most critical use is providing access to government 
information (55.6 percent), which has now grown larger than the service 
categories for providing education resources and data bases for adults/
continuing education services (46.9 percent) or computer and Internet 
skills training (37.6 percent).
    In addition to providing these informational and lifelong learning 
resources, libraries also provide peripheral device support to library 
patrons. The 2007-2008 study asked about these devices for the first 
time and found that public libraries allow users to access and store 
content on USB storage devices (e.g., flash drives, portable drives) or 
other devices (72 percent), make use of digital camera connection and 
manipulation (37.4 percent) and burn CDs/DVDs (34.7 percent).
    The results and effects of these increases in online public library 
services are manifold. The good news is that library users who visit 
the library in person or virtually via its website have more access to 
more resources--many of which are unavailable or too expensive to 
purchase at the individual consumer level. The tradeoff is that these 
services often come at the expense of reduced Internet speeds, funding 
for other library resources and higher expectations by patrons for 
library staff assistance in using these resources.
Buildings and Infrastructure Further Stretched
        ``Our headquarters library is twenty years old this year, and 
        it was built with no provision for Internet access.''

    This year also marked the first increase in the number of new 
computers in libraries since 2002.\12\ The average number of public 
access computers increased by 1.3 per library in 2007-2008. Urban 
libraries gained the most--2.7 more, now averaging 21 per library. 
Suburban libraries reported modest gains, adding about one computer per 
library and now averaging nearly 14 computers per library outlet. Rural 
libraries gained the least, adding only about 0.4 computers, averaging 
about 7.5 computers per library in 2007-2008.
---------------------------------------------------------------------------
    \12\ Bertot, J.C. and C.R. McClure. Information Use Management and 
Policy Institute, Florida State University. Public Libraries and the 
Internet 2002: Internet Connectivity and Networked Services. (2002). 
http://www.ii.fsu.edu/plinternet_reports.cfm.
---------------------------------------------------------------------------
    For the second year, libraries reported space issues and challenges 
in maintaining an adequate supply of building-based electrical and IT 
wiring to support technology-based services. More than three-quarters 
of libraries (77.7 percent) reported that space limitations are a key 
factor when considering adding public access computers. Another 36.4 
percent reported the lack of availability of electrical outlets, 
cabling or other infrastructure as a barrier--up from 31.2 percent in 
2006-2007.
    Although purchasing equipment and basic building maintenance may be 
paid from annual operating sources, significant building improvements 
are typically made from capital revenue sources. Fewer than 50 percent 
of public libraries benefit from capital revenue sources and most 
receive less than $10,000--an inadequate amount when rewiring or 
significant cabling is required to increase technology-based 
services.\13\ A majority of library buildings are 25 to 50 years old, 
and 40 percent of library buildings are estimated to be in fair or poor 
condition.\14\
---------------------------------------------------------------------------
    \13\ National Center for Education Statistics. Public Libraries in 
the United States: Fiscal Year 2005. (NCESES 2008-301). Washington, 
D.C.: NCESES, 2007. http://nces.ed.gov/pubs2008/2008301.pdf.
    \14\ Chief Officers of State Libraries Agencies (COSLA), 
Legislative Committee, National Construction Survey, 2007. Prepared by 
the New Jersey State Library for COSLA.
---------------------------------------------------------------------------
    To respond to these challenges, many libraries have added wireless 
to support patrons bringing their own computers to the library or to 
support laptop check-out for in-library users. Libraries also reported 
the growing need for staff training in implementing wireless, as they 
continue to dedicate desktop computers to patron use, and rely on 
wireless laptops for training or the demonstration of new Internet 
services.
    During site visits, a number of library directors indicated there 
was high demand for more workstations and wireless connectivity at 
their libraries. But, for the reasons noted above, such was unlikely to 
occur. Moreover, obtaining more workstations or wireless connectivity 
might only exacerbate the strain of providing technology training to 
users and staff, and could put even more pressure on the library's 
budget to purchase additional software and other resources for the 
workstations, as well as require additional funds to address 
workstation maintenance issues.
    Fifty-six percent of libraries have no plans to add computers in 
the coming year. This, together with the issues of insufficiency of 
bandwidth access, ongoing challenges to fund staff support for IT and 
the inadequacy of building capacity and technology infrastructure, 
suggest the growing strain that libraries face to keep up with user 
demand for public access computing.
Call to Action
    There must be a greater awareness of the challenging issues facing 
public libraries and a renewed focus on sustainable solutions that 
improve the quality--as well as the quantity--of public technology 
access in U.S. public libraries.
    Millions of people throughout the United States depend upon 
libraries for their access to online educational opportunities, job-
seeking assistance, e-government interactions, and help in using 
information resources. Almost 73 percent of libraries report they are 
the only source of free access to computers and the Internet in their 
communities.
    This study also revealed that public libraries indicate that their 
workstations are in near constant use. Although wireless access is 
available in almost two-thirds of libraries, there are also increased 
levels of service and resource demands for e-government, digital 
content and a range of other patron services that impose a greater load 
and impact on available bandwidth.
    Public library advocates must focus on specific areas needing 
urgent attention:

  <bullet> Public libraries need stable and sustainable funding for 
        technology services. Libraries currently are shifting 
        expenditures to cover technology costs and/or relying on 
        ``soft'' (non-tax) support to fund technology. In doing so, 
        libraries mask the impacts of funding cuts and increased 
        operating costs--sometimes until they are literally forced to 
        close their doors.

  <bullet> Librarians and policymakers must re-think Federal and state 
        support to public libraries. Only a small portion of public 
        library funding (0.5 percent) comes from the Federal 
        Government, yet public libraries have important social roles 
        and responsibilities to American society and overall quality of 
        life. New strategies for national support to public libraries 
        should be developed.

  <bullet> The public library community needs to develop new models for 
        deploying and managing technology. In addition to participating 
        in library networks, cooperatives and consortia that leverage 
        shared resources, libraries need to develop strategies to work 
        with other community organizations to promote additional public 
        access technologies. Collaboration with educational 
        organizations, such as public schools and community colleges, 
        other local community groups and private sector firms may 
        produce ideas and strategies that can integrate with, extend 
        and/or enhance public library networked services. Such 
        collaborations can be an important component of the library's 
        advocacy strategy, alleviate pressure on the public library as 
        the sole provider of public access and create a more robust 
        community-wide public access infrastructure.

  <bullet> Investing in additional public library staff and staff 
        training activities are investments in technology. The one-on-
        one and formal trainings offered in libraries are essential for 
        many patrons, and for many, this is the only avenue for them to 
        learn how to successfully use Internet-based resources for 
        work, school and life interests. Increasingly complex networked 
        environments also demand dedicated IT staffing.

    These are only some of the most important areas where public 
library advocates should focus their attention. Additional suggestions 
and possible strategies are discussed elsewhere in this report.

    The Chairman. Thank you very much, Ms. Conroy.
    May I now call upon Senator Stevens to introduce our final 
witness?
    Senator Stevens. Mr. Chairman, I think we should thank Mr. 
Peltola for being where he is because he came to his office at 
6 a.m. this morning because of the 4 hour time zone difference.
    I want to show you first--this is a chart that shows the 
road map of the United States, the roads in the South 48 and 
the roads in Alaska. Now, in Alaska, without roads, we 
proceeded to adopt the whole concept of telemedicine, and the 
YKHC, headed by Gene Peltola, has led in this effort.
    The Chairman actually was with us as we went up to visit 
Gene in Bethel, Alaska right there. This is a map that shows 
our transportation system. We basically have no transportation 
system. We have gone to telemedicine and tele-education in 
Alaska far ahead of the rest of the country. And the leader in 
this now is Gene Peltola, who heads the Yukon Delta area. 
Really it is the Yukon-Kuskokwim Health Corporation now.
    And Gene I thank you very much for coming. It is your turn 
to make your comments. Thank you for agreeing to do this.

              STATEMENT OF GENE PELTOLA, PRESIDENT

                  AND CHIEF EXECUTIVE OFFICER

               YUKON-KUSKOKWIM HEALTH CORPORATION

    Mr. Peltola. Thank you. Good morning, Chairman Inouye, 
Senator Stevens, Senator Hutchison. I am Gene Peltola, 
President and CEO of the Yukon-Kuskokwim Health Corporation. I 
thank you for giving me the opportunity to address you today by 
video teleconferencing about the hugely positive impact that 
broadband deployment has had on the delivery of health care 
services to some of the most isolated and economically 
challenged citizens in the United States.
    As I said, I am the President and CEO of the Yukon-
Kuskokwim Health Corporation, also known as YKHC, a consortium 
established by 58 federally recognized Native American tribes. 
We provide comprehensive health care to approximately 28,000 
largely Yup'ik Eskimo people living in 50 communities spread 
across the Yukon-Kuskokwim Delta, a roadless region 
approximately the size of the state of Oregon.
    The Yukon-Kuskokwim Delta, which is depicted on the map 
attached to my testimony, is located on the Bering Sea on the 
western coast of Alaska, nearly 4,000 miles away from 
Washington, D.C. The average per capita income of our patients 
is approximately $15,000 a year.
    Providing health care for YKHC's patients is a profoundly 
difficult challenge.
    First, transportation costs in the Y-K Delta, where 
villages are reachable only by plane, boat, or in the winter by 
snow machine, have always been high. Now that the cost of 
gasoline is approaching $8 a gallon in our villages, the cost 
of transporting a patient from a village to a subregional 
clinic or to our regional hospital in Bethel for anything but 
the most essential services or the most serious illnesses or 
injury has become cost prohibitive.
    Second, during our long, dark winter, the Bering Sea 
generates some of the most violent weather in the world. This 
can isolate our villages for days or even weeks.
    Broadband deployment has transformed the delivery of health 
care services in the Y-K Delta. Broadband plays a critical role 
in YKHC's efforts to manage the challenges I have just 
described.
    Five years ago, YKHC challenged the telecommunications 
providers in the Y-K Delta to improve their satellite-based 
broadband services. In response to YKHC's challenge and in 
reliance on the Universal Service Fund's rural health care 
program and other Federal broadband programs, private industry 
made a $50 million-plus investment in a terrestrial microwave 
network, which we call DeltaNet, which links substantially our 
villages. The high speed and low latency of this new network 
are ideal for medical applications.
    We are proud that YKHC now leads Alaska in the delivery of 
broadband medical services. This year, YKHC decided to increase 
bandwidth to 3 megabits per second for all of our clinics, 5 
megabits per second for our subregional clinics, and a 7.5 
megabits link to the Internet in Anchorage. Key benefits of 
this higher-speed network are found in the areas of 
telepsychiatry and teleradiology.
    The need for behavioral health services in rural Alaska is 
growing disproportionately to the size of the population. Rural 
Alaska has high rates of alcoholism, drug abuse, fetal alcohol 
syndrome, and suicide. In 2004, Alaska's National Guard was 
called upon for combat operations in Iraq and Afghanistan. Many 
of these guardsmen have completed at least one tour and have 
returned to their villages, bringing with them the same mental 
health issues affecting combat veterans across our country. 
Rural Alaska veterans, however, are a long way from the nearest 
Veterans Affairs facilities in Anchorage, Alaska.
    In conjunction with bandwidth increases, YKHC has deployed 
53 high definition video teleconferencing units throughout our 
service area. Using high definition video, YKHC has begun 
delivering behavioral health evaluation, treatment, and 
consultation for veterans and other patients at its residential 
facilities in Bethel and at clinics in our Y-K Delta villages 
through health professionals working from Bethel and the Alaska 
Psychiatric Institute in Anchorage and soon with a psychiatric 
group out of the State of Minnesota.
    Because of our terrestrial broadband network, YKHC is now 
able to offer full remote diagnostic imaging services to its 
patients not only in Bethel, but also in our four subregional 
clinics. Those are located in Aniak, St. Mary's, Toksook Bay, 
and Emmonak. Because of our inability to recruit a full-time 
radiologist to Bethel, we must rely on teleradiology to meet 
our needs. We have two full-time radiologists reading all 
images 24 hours a day, 7 days a week from Dayton, Ohio. Using 
our broadband network, we are able to send patient images 
directly to the radiologists in Dayton. There they read the 
exams in real time. There is no delay. They are waiting at 
their computers for the exams to cover over the Internet and 
send us their initial evaluation within 15 minutes from the 
time the patient was imaged or X-rayed within our organization.
    Teleradiology has substantially increased patient access 
and operational efficiency in diagnosing a multitude of 
diseases such as pneumonia, fractures, head injuries, 
appendicitis, and cancers, just to name a few. It has also 
decreased the long wait times previously associated with 
patient treatment.
    For example, fractures or small changes in a chest X-ray 
can sometimes be missed by health care providers. This 
situation usually requires calling the patients back into the 
health care facility. With the use of teleradiology, we have 
the ability to communicate and consult with our radiologists on 
every case to ensure that we have the right diagnosis so that 
we can start appropriate treatment before our patient leaves 
the hospital or subregional clinic.
    We recently had a patient involved in an ATV accident in 
the small village of Lower Kalskag. We were able to send the 
patient to the Aniak subregional clinic, which is only 15 
minutes away via plane, to have the patient's lower leg X-
rayed. Using teleradiology, it was determined that the patient 
fractured his fibula. The films were then sent over the network 
to the orthopedic surgeon in ANMC hospital in Anchorage, Alaska 
who made the call that the patient did not require surgery, 
only a cast. This not only saved the patient from coming to 
Bethel, 120 miles away, and an hour-long plane ride, but also 
saved him a very expensive trip to Anchorage to see a 
specialist.
    All of this broadband-related progress would not be 
possible without the Universal Service Fund's rural health care 
program which the chairman, Senator Stevens, and other members 
of the Committee and the Congress have supported for many 
years. On behalf of the Alaska rural health care provider 
community, I want to thank you all for that support, which has 
saved countless individual lives in Alaska and dramatically has 
improved the quality of life of all rural Alaskans.
    In closing, I would like to make five recommendations to 
the Committee.
    One, expand Medicaid reimbursement to cover telepsychiatry 
treatment, including patient-site presentation services for 
behavioral health clinicians and case managers.
    Two, address licensing and reimbursement issues for medical 
professionals participating in distance health care delivery 
across State lines.
    Three, encourage the Veterans Administration to use the 
Indian Health Service and IHS-contracted medical facilities to 
provide medical and behavioral health care to rural Alaska 
veterans.
    Four, increase the RHC support mechanism percentage for 
Internet access from the current 25 percent and add support for 
advanced services such as managed videoconferencing and network 
management, which would allow YKHC to focus on the delivery of 
health care rather than managing core telecom infrastructure.
    Finally, five, expand eligibility of USF subsidies to cover 
the infrastructure that the remote providers need for distance-
delivered medical services. This might include bandwidth and 
videoconferencing hardware.
    Once again, I thank you for the opportunity and honor to 
address your Committee today. Thank you.
    [The prepared statement of Mr. Peltola follows:]

   Prepared Statement of Gene Peltola, President and Chief Executive 
              Officer, Yukon-Kuskokwim Health Corporation

    Good morning, Mr. Chairman, Senator Hutchison, Senator Stevens, and 
other Members of the Committee. Thank you for giving me the opportunity 
to talk to you today by video teleconferencing about the hugely 
positive impact that broadband deployment has had on the delivery of 
healthcare services to some of the most isolated and economically 
challenged citizens of the United States.
    I am the President and Chief Executive Officer of the Yukon-
Kuskokwim Health Corporation, also known as YKHC, a consortium 
established by 58 federally recognized Native American tribes. We 
provide comprehensive healthcare to 28,000 largely Yup'ik Eskimo people 
living in 50 communities spread across the Yukon-Kuskokwim Delta, a 
roadless region the size of Oregon. The Y-K Delta, which is depicted in 
the map attached to my testimony, is located on the Bering Sea on the 
western coast of Alaska, nearly 4,000 miles away from Washington, D.C. 
The average per capita income of our patients is $15,000 a year.
    Providing healthcare for YKHC's patients is a profoundly difficult 
challenge.

  <bullet> First, transportation costs in the Y-K Delta, where villages 
        are reachable only by plane, boat, or the in the winter, snow 
        machine, have always been high. Now that the cost of a gallon 
        of unleaded gasoline is approaching $8 in these villages, the 
        cost of transporting a patient from a village to a subregional 
        clinic or to our hospital in Bethel for anything but the most 
        essential service or the most serious illness or injury has 
        become nearly prohibitive.

  <bullet> Second, during our long, dark winter, the Bering Sea 
        generates some of the most violent weather in the world; this 
        can isolate our villages for days or weeks at a time.

    Broadband deployment has transformed the delivery of healthcare 
services in the Y-K Delta. Broadband plays a critical role in YKHC's 
efforts to manage the challenges I've just described.
    Five years ago YKHC challenged the telecommunications providers in 
the Y-K Delta to improve their satellite-based broadband services. In 
response to YKHC's challenge, and in reliance on the Universal Service 
Fund's Rural Health Care program and other Federal broadband programs, 
private industry made a $50 million-plus investment in a terrestrial 
microwave network, DeltaNet, which links the substantial majority of 
YKHC's villages. The high speed and low latency of this new network are 
ideal for medical applications.
    We are proud that YKHC now leads Alaska in the delivery of 
broadband-based medical services. This year, YKHC decided to increase 
bandwidth to 3 Mbps (megabits-persecond) for all of our clinics, 5 Mbps 
for our sub-regional clinics, and a 7.5 Mbps link to the Internet in 
Anchorage. Key benefits of this higher-speed network are found in the 
areas of telepsychiatry and teleradiology.
    The need for behavioral health services in rural Alaska is growing 
disproportionately to the size of the population. Rural Alaska has high 
rates of alcoholism, drug abuse, fetal alcohol syndrome, and suicide. 
In 2004, Alaska's National Guard was called out for combat operations 
in Iraq and Afghanistan. Many of these guardsmen have completed at 
least one tour and have returned to their villages, bringing with them 
the same mental health issues afflicting combat veterans across the 
country. Rural Alaska veterans, however, are a long way from the 
nearest Veterans Affairs facilities in Anchorage.
    In conjunction with bandwidth increases, YKHC has deployed 53 HD 
(high definition) video teleconference units through its service area. 
Using HD video, YKHC has begun delivering behavioral health evaluation, 
treatment, and consultation for veterans and other patients at its 
residential facilities in Bethel and at clinics in Y-K Delta villages, 
through health professionals working from Bethel and the Alaska 
Psychiatric Institute in Anchorage, and soon with a psychiatric group 
in Minnesota.
    Using its terrestrial broadband network, YKHC is now able to offer 
full remote diagnostic imaging services to its patients, not only in 
Bethel but also in our four subregional clinics, Aniak, St. Mary's, 
Toksook Bay, and Emmonak. Because of our inability to recruit a full-
time radiologist to Bethel, we must rely on teleradiology to meet our 
needs. We have two full-time radiologists, reading all images 24 hours 
a day 7 days a week from Dayton Ohio. Using our broadband network, we 
are able to send patient images directly to the radiologists' homes in 
Ohio. There, they read the exams in real time (there is no delay; they 
are waiting at their computers for the exams to come over the Internet) 
and send us their initial evaluation within 15 minutes from the time 
the patient was imaged in our x-ray departments.
    Tele-radiology has substantially increased patient access and 
operational efficiency in diagnosing a multitude of diseases such as 
pneumonia, fractures, head injuries, appendicitis and cancers, just to 
name a few. It has also decreased the long wait times previously 
associated with patient treatment.
    For example, subtle fractures, or small changes in a chest x-ray, 
can sometimes be missed by health care providers. This situation 
usually requires calling the patients back into the healthcare 
facility. With the use of tele-radiology, we have the ability to 
communicate and consult with our radiologists on every case to ensure 
that we have the right diagnosis so that we can start appropriate 
treatment before our patient leaves the hospital or subregional clinic.
    We recently had a patient involved in an ATV accident in the small 
village of Lower Kalskag. We were able to send the patient to the Aniak 
subregional clinic which is only 15 minutes away via plane to have the 
patient's lower leg X-rayed. Using teleradiology, it was determined 
that the patient fractured his fibula. The films were then sent over 
the network to the orthopedic surgeon at ANMC hospital in Anchorage who 
made the call that the patient did not need surgery, only a cast. This 
not only saved the patient from coming into Bethel, 120 miles away and 
an hour-long plane ride, but also saved him a very expensive trip into 
Anchorage to see a specialist.
    All of this broadband-related progress would not be possible 
without the Universal Service Fund's Rural Health Care (RHC) program 
which the Chairman, Senator Stevens, and the other Members of this 
Committee and Congress have supported for many years. On behalf of the 
Alaska rural healthcare provider community, I want to thank all of you 
for that support, which has saved countless individual lives in Alaska 
and dramatically improved the quality of life of all rural Alaskans.
    In closing, I would like to make five recommendations to the 
Committee.

        1. Expand Medicaid reimbursement to cover telepsychiatry 
        treatment, including patient-site presentation services for 
        behavioral health clinicians and case managers.

        2. Address licensing and reimbursement issues for medical 
        professionals participating in distance healthcare delivery 
        across state lines.

        3. Encourage the Department of Veterans Affairs to use IHS and 
        HIS-contracted medical facilities to provide medical and 
        behavioral health care to rural Alaska veterans.

        4. Increase the RHC support mechanism percentage for Internet 
        access from the current 25 percent, and add support for 
        advanced services such as managed video conferencing and 
        network management, which would allow YKHC to focus on the 
        delivery of healthcare, rather than managing core telecom 
        infrastructure.
    5. Expand eligibility of USF subsidies to cover the infrastructure 
that the remote providers need for distance-delivered medical service. 
This might include bandwidth and video conference hardware.
    Thank you for the opportunity and honor to address your Committee 
today.
The region served by the Yukon Kuskokwim Health Corporation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

DeltaNet--Broadband Microwave Network in the YKHC Region

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Some of the Village DeltaNet Towers

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Stevens. Mr. Chairman, he is light years ahead of 
the rest of the State. That is the main point I want to make to 
the Committee. We have not been able to do this all over 
Alaska. We have been able to do it because of Gene Peltola's 
initiative in his area. I urge that the rest of the members 
study this as far as their rural areas and the application, 
particularly the psychiatric application, is going to be very 
interesting for veterans throughout the country. Thank you.
    The Chairman. I would like to thank all the witnesses for 
their testimony this morning.
    If we may, we would like to question our witnesses. Senator 
Stevens?
    Senator Stevens. I have no questions.
    I must say, I think it has been a very good panel and I 
support wholeheartedly the total recommendation that we find 
some way to expand this concept so that we are covering the 
areas that are in great need, particularly our veterans 
services in rural America. When we consider the fact that some 
of our veterans, as Gene has said, are literally 1,000 miles 
from the nearest real veterans service, it is going to be very 
difficult to keep up with some of these people unless we do, in 
fact, adopt his recommendation that we use the Indian Health 
Service and other telecommunications services to keep track of 
these veterans. Under the law, the Veterans Administration is 
now required to keep track of our veterans for 5 years after 
their separation. They can only do that through 
telecommunications.
    Thank you.
    The Chairman. Thank you.
    Senator McCaskill?

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you, Mr. Chairman.
    First, I want to say how proud I am of Ms. Conroy for being 
here today. She is a terrific librarian, and I sincerely hope 
that not only do we continue to enhance the availability of the 
Internet through libraries, that we never lose sight of that 
unique experience of walking into a library and seeing those 
grand and glorious books everywhere. And the ability to open a 
book and crack that cover and be able to turn those pages is 
something that was an incredibly important part of my childhood 
and I hope that we maintain that for children for many 
generations to come.
    Let me ask you, Ms. Conroy. Has the Library Association--or 
maybe some of the other witnesses might know. Has anyone 
tracked how much online higher education has gone up in the 
last 5 to 10 years? I noticed there was a consistency in the 
testimony about online higher education and particularly in 
these rural areas, particularly because of the costs of 
commuting for our college education and the impracticability of 
us moving campuses to many of these locations. Do you know 
whether there has been any analysis of how much of this is 
going on and how much of it is, in fact, taking over in terms 
of classroom education?
    Ms. Conroy. Yes, I do, at least for the state of Missouri. 
I mentioned MOREnet which provides Internet connectivity to 
higher education in Missouri. The demands of higher education 
institutions for bandwidth has grown exponentially in that 
sector, and I can provide you with those statistics when I get 
back home.
    I do know that local individuals are now able to go to 
school from their rural communities where before, they would 
not have left their communities. And they are doing that all 
online. So I could also provide you some statistics for those 
usages in the local public libraries. I am going to assume that 
this is true for the rest of the United States. I know it is 
true for Missouri.
    Senator McCaskill. I think we need to really look at that 
because I think we may need a marketing campaign to encourage 
more young people to use online education, particularly if we 
can get some follow-up studies as to how marketable those 
degrees are as compared to the traditional degree that occurs 
from someone sitting in a classroom on a campus somewhere.
    How much money is the state of Missouri providing in 
Missouri, Ms. Conroy, in this whole area of connectivity in 
terms of telecommunication, online education, and telehealth?
    Ms. Conroy. What I can answer is the MOREnet budget which 
is about $22 million, and that covers all those sectors, 
public, K-12 education, higher ed, libraries, telehealth, State 
government services, and also some electronic data bases that 
the State library is able to purchase with that State money.
    Senator McCaskill. And Mr. Peltola--is that how you say 
your name?
    Senator Stevens. Gene Peltola.
    Senator McCaskill. Gene Peltola? Thank you for being with 
us. Many of us have learned more about Alaska in the last few 
weeks.
    And I wanted to ask you. Missouri has a paltry $22 million 
that is going to this. What is the total in Alaska that is 
being set aside not from the Federal Government, but rather 
from Alaska which we now all know has surpluses? What kind of 
money is being spent in Alaska by the State government?
    Mr. Peltola. I am not aware of that, ma'am. The 
infrastructure that we have developed out here in the Y-K Delta 
has basically come from the private sector.
    Senator McCaskill. OK. And some help from, I assume, the 
Universal Service Fund?
    Mr. Peltola. The Universal Service Fund pays the majority 
of the service costs for utilization of our DeltaNet.
    Senator McCaskill. OK, great.
    Mr. Ramsey, from where you sit, do you see the conflict 
between the FCC and the USDA as it relates to the universal 
service provider and the funds that are supposed to be 
available from USDA for connectivity in rural areas?
    Mr. Ramsey. Yes. Senator McCaskill, I think it is a great 
question. I would answer it in this way. I really concur with 
what Mr. Cohen was saying earlier about the reform that is 
needed in the Universal Service Fund, how it is being used, how 
the money is being allocated. I think we need to do many more 
things that direct the money in a digital way and not looking 
at just sort of the dial-up phone system. We have got to 
modernize the Universal Service Fund to do more of these types 
of applications. It is really the only source that is 
available.
    But I would also say one of the successes, of course, has 
been E-rate, but I also think we need to look at creating a way 
to get to both rural individuals and more low-income 
individuals. And I think one of the innovative ways of thinking 
about the low-income population is looking at where they live, 
and I think we have missed something in not looking at 
affordable housing. We have launched initiatives around saying 
we have got over 3,000 public housing authorities in the United 
States, and yet we are not doing enough to say are we 
networking those buildings. Are we making sure broadband is 
there? And I think there is an opportunity to look at universal 
service and also look at the E-rate to say let us go for the 
poorest of the poor who are living in public housing in both 
rural and urban areas. And I would urge that that be something 
that we spend more time looking at.
    Senator McCaskill. I think that is a great idea. I do not 
think people realize how much low-income housing there is in 
rural America. I am certainly aware of that.
    Let me correct the record. I do not think $22 million is a 
paltry amount of money. It is compared to the Missouri budget 
of $20 billion. So $22 million is not enough out of a budget of 
$20 billion to go toward this from the State level.
    So thank you.
    Senator Stevens. Will the Senator yield there, though?
    Senator McCaskill. Yes.
    Senator Stevens. Maybe we should ask witnesses about the 
contributions to this fund. You know, the fund really started 
on assessments to long distance, and the balance is still 
coming from long distance which is a declining income.
    Senator McCaskill. Right.
    Senator Stevens. I wonder where do they suggest we should 
get the income for this fund if we are going to expand the 
demands on it.
    Mr. Cohen. Yes. I mean, we think the whole Universal 
Service Fund needs an overhaul, exactly the way you are 
describing it. We need to look at how it is funded and then, as 
we just said, how it is distributed. And we would say there 
needs to be uniformity in terms of how it is collected across 
communications services rather than just essentially a tax on 
consumers of old services, as you have just said. I mean, we 
should relook at how we collect it, but particularly then how 
it is used.
    Senator Stevens. Thank you very much. I think as we go 
forward--and that is one of the things I think the Florida 
Senator and I are talking about. How do we find some way to 
sustain this fund if the assessment against long distance 
continues to decline? And I do think we have to do just what 
you have said, Mr. Cohen. I think we have to find some way to 
say that telecommunications services per se--find some way to 
support universal service.
    The Chairman. Senator McCaskill, are you finished?
    Senator McCaskill. I am. Thank you, Mr. Chairman.
    The Chairman. Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    Mr. Ramsey, let me start with you, if I may. There was an 
editorial that was written in Arkansas last year that basically 
makes the comparison between the rural electrification program 
in the 1930s to deploying broadband today. And not to go too 
much into this, but one quote is: ``According to one historical 
account, although nearly 90 percent of urban dwellers had 
electricity by the 1930s, only 10 percent of rural dwellers 
did. Private utility companies who supplied electric power to 
most of the Nation's consumers argued that it was too expensive 
to string electric lines to isolated rural farmsteads.'' 
Anyway, they say most farmers were too poor to be able to 
afford electricity.
    To me, that sounds like a familiar argument that we hear 
today when it comes to broadband deployment, and there is an 
inequality about how broadband is being deployed today.
    So I just wanted to ask you. We talked a little bit about 
universal service. Do you think that that is the best way we 
can get broadband deployed? Shall we do something like what the 
REA set up, which is a very different model? But what do you 
think we need to do in order to get broadband out to rural 
America?
    Mr. Ramsey. I think, Senator, it is a great analogy that 
you are looking at, and I think the important part of the 
analogy is that there was a goal that was set, that the Federal 
Government played an important role and created a mechanism.
    It is not only the funding mechanism. Again, I go back to 
my earlier remarks. It is an issue of looking at this from a 
standpoint of judging and saying is it affordable, is it 
available, and if it is not available, how do you we make sure 
that we create incentives or the right kind of investments 
around availability. And then third, it is the issue of the 
applications because in some cases, if we could create the 
right kind of applications, whether it is telemedicine, whether 
it is online education supporting our high schools, then you 
would get more private involvement along with government. There 
is a role for the private sector, a very important role for the 
private sector.
    And I think if we are working together--you know, when we 
started One Economy 8 years ago and we called it One Economy, 
our goal has always been to say how do you we get the private 
sector, the NGO's, and government working together on this 
issue. So in that analogy that you give, that was an important 
investment that the Federal Government said had to occur, and I 
think that is very important.
    And I think when you look at how the United States has 
fallen behind, particularly on issues of speed, I do not want 
that issue to get lost either because I wholeheartedly endorse 
what Mr. Cohen was saying earlier about speed. And I think we 
have got to relook at all of that because we are falling 
behind. We are not doing enough in applications and the supply 
and demand side.
    Senator Pryor. Mr. Cohen, did you have any comments on 
that?
    Mr. Cohen. Yes. I think it is three things. First is to 
stimulate demand. A lot of good examples here about how you do 
that.
    Second, it is to do demonstrations, and I think there are 
good examples for granting to nonprofits, again, lots of the 
groups that spoke here today. They then demonstrate what is 
possible, whether it is telemedicine or education, and then 
that helps stimulate demand.
    And finally, we have to look at the build-out of the 
networks themselves in terms of our tax policy and what 
incentives we give, not only tax policy but in terms of 
regulation, that encourage high-speed Internet build-out by the 
industry that is going to build it. I mean, it has to come from 
somewhere, and we have to continue to look at how we work with 
the industry, as Mr. Ramsey said initially, to stimulate them 
to make that investment. They have choices and we have to make 
this a key policy so that when they make a choice about cap ex, 
it goes to high-speed Internet.
    Senator Pryor. Mr. Linkous, I appreciated what you had to 
say about telemedicine because especially in a rural state like 
Alaska or Arkansas or many of the other states represented 
around the table today, I think telemedicine is a real solution 
for some of our health care needs. And it seems to me if you do 
not have broadband out in rural America, it is very hard to 
provide telemedicine services out in rural America.
    Did you have any more thoughts along those lines about what 
we need to do to make sure that rural America has access to 
telemedicine?
    Mr. Linkous. Thank you, Senator. Yes. I think there was a 
great intent when the 1996 Telecommunications Reform Act was 
passed to put in some funds to support rural health care. The 
utilization of that fund, particularly for health care, has 
been extremely disappointing. It was originally envisioned that 
it might be several hundred million dollars. I believe 
somewhere where around $20 million a year is being sent in that 
area. So I think it is really important for this Committee to 
revisit the Congressional intent and what has actually been 
done by the Administration in implementing that program. I 
think we have great opportunities that are being lost.
    And second, the provision of health care, not only in rural 
areas but in urban areas, is very different than it was in 
1996. As I had mentioned in my testimony, health care is now 
going to the individual. The original intent of the Health Care 
Reform Act was to link hospitals with major medical centers in 
rural areas, but it is now actually into the homes. It is in 
the individuals. So to really have people get access to health 
care in rural areas like they do in urban, you have got to make 
sure we have high-speed broadband to the individual as well.
    Senator Pryor. Thank you.
    Mr. Peltola, let me ask you. You mentioned in your 
testimony a few moments ago--and I may have misunderstood what 
you said, but I think what you were talking about is the 
professional licensure of doctors, et cetera that allows them 
to practice telemedicine. And from that, I assume that what you 
mean is that in some circumstances, you may actually want to 
cross State lines in order to get the medical help people need 
using telemedicine. Is that what you were talking about?
    Mr. Peltola. Yes, I was.
    Senator Pryor. But usually the licensure--that is a state 
issue. Are the states not equipped to handle that? So, for 
example, just hypothetically if Alaska wanted to do some sort 
of consortium or some sort of agreement with, say, the state of 
Washington or Oregon or California or something along those 
lines, I would think that the states could work that out and 
you probably do not need Federal assistance to do that. Am I 
wrong on that?
    Mr. Peltola. You are correct on that, yes.
    Senator Pryor. Well, I do want to thank you for Alaska's 
example and what you are doing there in your area because I 
think there are a lot of lessons there for the rest of us in 
how this can work and how important this can be.
    So, Mr. Chairman, thank you for doing this hearing today.
    The Chairman. Thank you.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Go ahead, Mr. Chairman.
    The Chairman. Mr. Linkous, did you want to say something?
    Mr. Linkous. Yes, if I could just add a comment. You had 
talked about medical licensure. In the early days of 
telemedicine, it was an issue. It is a state issue and most 
medical networks are within the state. But it is now a national 
issue. And let me give you one example.
    In the field of pathology, there are 60 subspecialties in 
pathology. I know that Alaska does not have 60 subspecialists 
in pathology. We need to have a national information network 
for health care just like we do for other things, and we need 
to have the ability for a physician who is a subspecialist in 
California to be able to provide those services to the citizens 
of Alaska. For people who are working in the Angels Network in 
Arkansas, they can provide those services to the people in 
Louisiana. So we do need a mechanism through which we can 
provide these medical services across state boundaries. We are 
not saying usurp the State authority, which is very important, 
but the Federal Government to step in and encourage some kind 
of a sharing relationship among the states.
    Senator Pryor. But can the states not do that by some sort 
of compact or some sort of agreement between the states?
    Mr. Linkous. With very strong Federal encouragement, that 
could happen.
    Senator Pryor. Thank you.
    The Chairman. Senator Klobuchar?
    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you for holding this hearing, and thank you to our witnesses.
    I have really two interests in this. The first is as a 
mother of a tech-savvy 13-year-old, I see the future all too 
closely. Her hardest moment in the last few years was when I 
was asked on a college TV show what LOL meant, and I was 
stumped that it is laugh out loud. And I came home and she said 
that was the most embarrassing moment of the campaign.
    [Laughter.]
    Senator Klobuchar. The second interest I have is, of 
course, something Mr. Cohen well knows, the jobs in rural 
America, and I just see that some of these jobs that are going 
to places like India and Pakistan could be going to 
Worthington, Minnesota or Thief River Falls.
    So I guess I would start with you, Mr. Cohen, and I am very 
interested in the speed issues. From what I have heard, places 
like Japan or Korea have speeds at rates that are sometimes 20 
times as fast, and at one-half the price as what we get here.
    And also we have the issue that even our neighbor to the 
north, Canada, neighbor to Minnesota to the north, seems to 
have done smart things. Could you talk a little bit about what 
Canada has done and if we can learn any lessons?
    Mr. Cohen. Sure. I think, first of all, the bill that this 
Committee is supporting for the most part, S. 1492--I mean, we 
do not even map out in our country where we stand on broadband. 
In our Speed Matters campaign, there is a page on every State, 
including the rural States. Here you see huge white spaces 
where there is no broadband at all. Step one is we need to know 
where we stand. In Canada, they have done that kind of mapping. 
The equivalent there of the FCC is ahead of us in that regard. 
So I think that is one.
    Two, we need to set goals like the kind of goals Senator 
Rockefeller has talked about in his resolution, very clear 
goals. And then we must figure out, well, if our goals are, for 
example, we would support 10 megabits a second by 2010, what 
will it take to close the gap between where we are now. Once we 
map out where we are, and how we get there and then how we fund 
it.
    So I think the key difference, you know, whether it is 
Canada or Japan, is really to look at the demand side and the 
supply side, meaning the network providers, and how government 
can play the role of bringing them together, bringing demand 
together with the network providers and obviously closing the 
rural and urban divide. Right here in Washington, D.C., we do 
not have high-speed Internet for most of the city. You do not 
have to go a mile from here and you are going to fall off the 
chart that is here, let alone go to rural Minnesota or Alaska.
    Senator Klobuchar. Mr. Cohen, how about public-private 
partnerships? We have had a few towns in Minnesota try to do 
this on their own with mixed results, and they realize the best 
way is public-private partnerships. Could you talk a little bit 
about that?
    Mr. Cohen. Yes, sure. I mean, the first thing is the level 
of capital expenditure. To do what is done in Japan, that is 
fiber to the premise, in our country in our dollar terms, we 
are talking about at least, just to pass each house, $1,000 a 
premise. And so a lot of the public-private partnerships that 
we talk about here use this very low definition of broadband, 
and so we get less than 1 megabit a second through a WiFi kind 
of technology--better than nothing, for sure--as an example 
that we talk about in many small towns in rural America. But it 
is not going to provide the kind of services, whether it is 
telemedicine, whether it is two-way video that we are talking 
about on a global basis.
    And so I think when we talk here about public-private 
partnerships, we are also talking about getting the network 
providers and saying to them, the market is not working, and 
creating the combination of--I guess incentives is a nicer 
word, but also regulation that pushes up what broadband means. 
We cannot have people paying for broadband, as you said, at 
very high rates and getting very low speeds. People do not even 
know what the speeds are.
    Senator Klobuchar. Mr. Peltola, I was interested in what 
you have done in Alaska. Can you hear me up there, Mr. Peltola?
    Mr. Peltola. Yes, ma'am. I can hear you real well.
    Senator Klobuchar. Excellent.
    You decided to increase the bandwidth to an impressive 
amount. How were you able to accomplish the increase?
    Mr. Peltola. We were able to accomplish the increase by 
working with our private sector provider.
    Senator Klobuchar. So that was a public-private partnership 
with your tribes? Was it a partnership with the tribes and the 
groups' clinics?
    Mr. Peltola. It is far from the 100 megabits per second 
that some other countries have in place right now.
    Senator Klobuchar. One last question here I wanted to ask 
of you, Mr. Ramsey, and that is about One Economy's public 
interest channel. Of course, Minnesota is the home of Lake 
Wobegon and a lot of work in the public radio and public TV. 
Could you talk a little bit more about the online channel, 
which is clearly the next step that should be taken with public 
TV and public radio?
    Mr. Ramsey. Thank you, Senator.
    The roots of this public Internet channel started about 7 
years ago when we launched the website called the Beehive, 
which was dedicated to basically bringing information around 
health, workforce development, education, and finance, helping 
people who had basic literacy issues be able to go online, be 
able to find information, and make it easy for them.
    Over time as we have developed more applications, we 
decided that we needed to cover more issues like emergency 
preparedness, more online education, community news, civic 
engagement. So on December 11 of this year, we will launch this 
network made up of ourselves and many other partners called the 
Public Internet Channel. And our goal is really to provide 
information, engage people, and make it easy to take action. We 
do not want it to just be static. Here is information. But we 
want you to be able to go to a toolbox online and be able to 
click a button and be able to get that children's health 
insurance very easily, know what your eligibility is. We say we 
want people to be online not in line.
    And so we are excited by that. We have even recruited 
people out of Hollywood to help us to make the content 
engaging. Barbara Townsend, who is a director/producer, is 
producing a program dedicated to single moms that will make it 
compelling and help them to be able to access information. So 
that network will start, Senator, late this year and then we 
will, in future years, go from there. We are collaborating with 
entities like PBS and other entities to bring that compelling 
content. So we do not produce it all. We are aggregating it and 
producing that content.
    Senator Klobuchar. Thank you.
    Mr. Ramsey. Thank you.
    The Chairman. Thank you.
    Senator Thune?

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, for holding the 
hearing on this very important subject and thanks to our 
panelists for sharing your thoughts about what we can be doing, 
steps we can be taking to increase the availability of 
broadband and penetrate areas of the country that have not so 
far had access to high-speed Internet.
    I just want to make a couple of quick observations and then 
ask really one question, which is a follow up to something that 
has already been asked.
    But I am really concerned about the deficiencies that we 
have in rural areas. We have only got 31 percent of rural 
Americans who have home broadband connections compared with 49 
percent of suburban residents, and 52 percent of urban 
Americans. And I really think this is a key when it comes to 
job creation and economic development in states like mine of 
South Dakota.
    I have talked to people who have to our state to escape 
some of the hassles of living in the big city, like the wide 
open space, would like to be able to continue to work out of 
their homes to telecommute, but this is a real impediment in 
many parts of South Dakota.
    I was talking to somebody who moved to our state from Texas 
just recently and located in the area of South Dakota that is 
very scenic and pretty but does not have high-speed Internet 
access. And it is a real problem if you are trying to continue 
to conduct business and commerce.
    So I guess that is an observation, and I think it is 
something that the statistics that were up previously point to 
the need for steps on our part to correct.
    I do want to home in on one point, though, that was made, 
and that is this whole issue of telehealth. You know, we fight 
every year for a few million dollars in appropriations for the 
Office for the Advancement of Telehealth and to try and get 
some demonstration programs funded actually that would yield 
results to the Government because the grants only go out to 
those entities that are then turning around and using those 
dollars to demonstrate that they are gaining efficiencies and 
actually making health care less expensive to the taxpayers 
through the Medicare program. But so far, we have not done a 
very good job.
    And I know that question was already asked. But I guess I 
am just curious maybe from any of you a comment about what are 
the impediments in your mind to further expansion of telehealth 
as a way of providing health care to people in rural areas of 
this country and what steps might we take that would remove 
some of those barriers.
    Mr. Linkous. If I could respond to that. First of all, 
Senator, thank you. You have been a tremendous champion for 
telehealth in the Senate, and I want to thank you for that 
publicly.
    But our goal is to take telehealth, telemedicine, whatever 
you want to call it out of just the demonstration stage of 
having grants, which have been very, very important, but moving 
into the mainstream of providing medical care. To do that, it 
has to be, number one, fully reimbursed by Medicare. That is a 
major barrier that we still have in the Federal Government 
today. Telemedicine is considered only a program for certain 
areas, for certain types of people, for certain types of 
services, and it is really a real limiting factor for the folks 
in your State as around the rest of the country.
    So the one recommendation, if I had to make one single 
recommendation, is to open up Medicare reimbursement for 
telemedicine no matter who you are, no matter where you are, no 
matter what services you receive. It should be just the same.
    Senator Thune. Does anybody else have any thoughts on that 
subject? Yes?
    Mr. Cohen. Yes. I would just say that, obviously, the speed 
issue matters in terms of telehealth, aside from the mapping in 
general for this country, which we do not even do. I think we 
could focus on bringing genuine high-speed Internet to clinics 
and health care facilities in rural America. I mean, if you do 
not have speed of at least 5 or 6 megabits a second, telehealth 
is going to be at a very low level. It has got to be two-way 
speed as well, not just downloading.
    Mr. Ramsey. And Senator, I would just like to add one other 
piece because, obviously, I concur with what was said. I think 
one of the things that we are seeing--and it was mentioned 
earlier that so much more is happening with disease management 
in the home. When we think of telemedicine, it is not only the 
important work that is done in clinics and facilities, but it 
is how do we facilitate and create a comfort level of people 
having these applications in the home. You look at diabetes. 
You look at some of these chronic illnesses. So much of the 
success of that patient is determined by what they do to manage 
their own disease, and much can be done if you have the 
technology in the home.
    Dr. Mayor. And just from an AARP perspective, we know that 
people want to age in their homes, and we recently did a 
survey. 96 percent, I think is the number in my head, of the 
respondents said that they would welcome the opportunity to 
have that telemedicine access in their homes. So it just 
reinforces the importance of having the broadband in the first 
place.
    Senator Thune. As Mr. Linkous mentioned, we have been 
trying, through these demonstration projects, to use remote 
monitoring technologies so that people can stay in their homes, 
and even that seems to be a battle every year to get recognized 
as an important thing to be funded and something that in the 
long run, like I said, I think has the possibility of actually 
saving tax dollars by making these programs more efficient and 
allowing people to stay in a home setting as opposed to having 
to go into an area where it would probably be much more 
expensive to the taxpayer.
    So I just think that there we have really sort of missed 
the boat on that, and there is so much more than we can and 
should be doing. And I think ultimately it does come back to 
reimbursement. And we know that. And I know that in the initial 
stages that probably tends to be--people look at it and say, 
well it is going to be expensive. But I think in the long run, 
it is going to save money.
    So I appreciate your testimony. I have some other questions 
I would like to ask, but I have got some places I need to get, 
Mr. Chairman. But I thank you all very much for your input.
    The Chairman. This discussion is an important one today, 
and yet we have just two Senators here. I can see in my 
lifetime a hearing of this nature held with no one here. I may 
be officiating in my office and all the other Senators could be 
in their offices and all the witnesses in their homes or their 
offices just like the witness from Alaska.
    However, there are two things that are in our way. One is a 
national broadband policy. We have not made it a policy to make 
this part of our communications system an important part. I 
look upon this development as just as important as the printing 
press, and it is a shame that we do not have this available to 
Americans. When you consider that only 25 percent of the low-
income Americans have access to broadband and just slightly 
over half of all Americans have access to broadband, something 
is wrong.
    So I would hope that with your organizations you can 
provide us with information as to what the costs would be 
because at this stage, we have no idea what the costs will be.
    We know what the potential is. I was at a viewing of 
surgery conducted in Bangkok and supervised in Tripler in 
Hawaii. And it was fascinating to have a doctor or surgeon in 
Hawaii tell the Army surgeon in Bangkok, go to the left or go 
to the right or what have you, and successful.
    But it is going to cost money and we have no idea how much 
it costs. And if there is no American government policy 
supporting this, then it becomes a political issue, an earmark. 
Well, I am willing to put in an earmark, but I would like to 
know how much we need and how can we justify that.
    When you consider that most of our homes in the United 
States have no computers, then something is wrong.
    So you would be doing us a great favor and yourselves and 
the people of the United States, if you would give us the 
facts.
    We have, for example, something that is going to happen in 
a few months, February 17, 2009. We will change from analog to 
high definition digital television. 21 million Americans rely 
upon over-the-air television with rabbit ears. They are going 
to be several thousand Americans waking up on the morning of 
February 17 next year and find that the TV does not work.
    I would hope that we can do better than that. After all, we 
are the pioneers that discovered the computer, that came up 
with broadband, and yet we find ourselves doing a little better 
than Third World countries. I think we should do better than 
that.
    So you would be doing us and the country a great favor if 
you could feed us--and I can assure you we are hungry for data. 
We are hungry for facts. If you have any right now as to what 
do you think it will cost and what sort of plan we should 
have--these things are not in place yet--that is what I want to 
know. Anything you can provide us at this moment? Mr. Cohen?
    Mr. Cohen. Yes. We can bring in better data than I can give 
you.
    But again, it is a question of the cost to pass the house 
and then creating the demand so people take it up. So you 
actually do not need huge public expenditures if we can 
stimulate demand and aggregate demand. So, again, to provide 
essentially what I guess now would be about 15 megabits per 
second, which still would leave us behind Korea and Canada--
that is probably on the average--again, it depends on where the 
house is, but on the average in the U.S., it would cost $300 a 
house to pass the house with that level of service. 100 megabit 
service is three times that because you have to actually bring 
fiber to the premise itself, whereas on the sort of 15 
megabits, you can bring it to the neighborhood within five-
eighths of a mile. Now, again in rural areas, whether it is 
Hawaii or Alaska, that is more of a challenge.
    Fourth generation wireless, which is just being built, can 
provide high-speed Internet as well, probably at least 5 or 6 
megabits a second, probably at a lower price. But that is just 
being built. So we are not sure sort of how that works. And 
that would be with a cell site two or three miles potentially 
from a house. So it could be very valuable.
    Again, Japan--my colleague here, Mr. Morishima, could tell 
you that in Japan the fourth generation wireless is already 
built.
    So I think a lot of the questions you raise are pretty deep 
questions about, A, we have no mapping; B, we have no goals; C, 
we do not have the right incentives to get ourselves the 
cutting edge technology at the same speed that countries like 
Korea and Japan do because the national broadband policy is 
there, as well as in countries in Europe.
    And we will bring you more information.
    The Chairman. Mr. Ramsey? Anyone else who would like to 
contribute something today?
    Mr. Linkous. Senator, although we do not have specific 
information on some of the costs of deployment, I think there 
are increasing numbers of studies and research that have shown 
some of the benefits in financial terms to the Federal 
Government of deployment of broadband applications, 
particularly in health care, and we will be glad to supply that 
information to the Committee.
    Mr. Ramsey. And Senator, we would do the same on the other 
applications, particularly around education and workforce 
development, the demand side applications that are important to 
go along with the other infrastructure applications.
    The Chairman. All of you have used the word ``demand.'' How 
do we develop this demand?
    Mr. Ramsey. I think, Senator, Mr. Chairman, the issue is to 
look at a variety of subject matter areas in terms of 
applications. So we spent a lot of time talking about a very 
important one in terms of health, whether it is disease 
management, telemedicine. That is an application sort of on the 
demand side. But so is education. So is workforce development, 
the kind of online content that needs to be available at an 
assessable literacy level and in multiple languages. And so 
when we talk about demand, it is when a person sees that 
application and says, boy, I want to go and spend some money to 
have broadband in my home because I want that application 
myself. And so when we talk about demand, that is what we are 
talking about.
    That is why we have been working on creating this channel 
online to bring together public purpose type information in 
these areas, and that is the kind of support that we are 
looking for and it is on the demand side.
    Dr. Mayor. I would just add to that that I think another 
thing that would help on the demand side is the easier systems 
are to use, the more intuitive they are. I think the world 
divides these days into two categories: people who think if 
they hit the wrong button on the computer, it will explode; and 
people who think that you just have to keep hitting until 
something good happens.
    [Laughter.]
    Dr. Mayor. Those strategies are fine, but we need to be 
sort of veering more to making it as easy as humanly possible, 
as intuitive as humanly possible, to take away that sort of 
technology phobia that at least some people still have. It is 
not a problem for the very young, but for the rest of us.
    Mr. Linkous. Mr. Chairman, I think the concept of needing 
to create demand is a somewhat fleeting issue because I think 
we are going to have tremendous demand very shortly. In the 
field of health care alone, we were worried in telemedicine 
that people would not accept it, but in fact, consumers not 
only are accepting it in every case that I am aware of--in 
every study that I have ever seen looking at demand, they have 
not only accepted it, but they want more. I think if we see the 
health care applications that are being built to the wireless 
devices into the home, into the new games that people are using 
throughout the country, that is only going to expand. So I 
think if we have broadband available, there is no doubt in my 
mind that the applications and the interest of Americans are 
going to just explode.
    The Chairman. I would like to thank all of you, especially 
our friend from Alaska in Bethel, Alaska, Mr. Peltola. You have 
just demonstrated that it works.
    [Laughter.]
    The Chairman. And I think to further demonstrate this one 
of these hearings--I think I will convene one without witnesses 
present here or Senators present in the room to demonstrate 
that it can work.
    I thank all of you, and if you can provide with us 
additional data, information, I would appreciate that very 
much.
    With that, adjourned.
    [Whereupon, at 12:11 p.m., the hearing was adjourned.]

                            A P P E N D I X

      Prepared Statement of Charles Townsend, President and CEO, 
                         Atlantic Wireless L.P.

    Mr. Chairman, I am Charles Townsend, and I am President and CEO of 
Atlantic Wireless Limited Partners. Atlantic Wireless has purchased 
over $100 million of Advanced Wireless Spectrum (AWS) licenses and is 
the 9th largest owner of AWS licenses in the U.S. From 2002-2008, I was 
the President and CEO of Aloha Partners. Aloha Partners was the largest 
owner of 700 MHz spectrum in the United States until the spring of 2008 
when it sold all its licenses to AT&T. Aloha covered over 200 million 
people with 12 MHz of spectrum on former UHF channels 54 and 59. I am 
submitting this written testimony to further the discussion on the 
importance of broadband to rural communities across America and the 
contribution that auctioning ``white space'' can make to ensuring that 
rural areas have access to high-speed connections.
United States Lagging
    The public's airwaves are a vital national resource, and their use 
should always be geared toward improving the broad public interest. 
Sen. Inouye has said that ``Broadband communications have become the 
great economic engine of our time'' and I do not believe that anyone 
would disagree with him. The U.S. faces difficult challenges because 
the rest of the world has embraced broadband as a crucial part of their 
economic future. Various well-known studies have shown that the United 
States trails Japan, South Korea, Canada, France, Finland, and a host 
of other countries in Internet connectivity. One of the main reasons 
that the U.S. is not at the top of this list is its abundance of rural 
areas. It is estimated that between 15-20 percent of U.S. households 
cannot receive broadband service. The majority of these households are 
located in rural areas where it is too expensive to provide traditional 
broadband service.
    A recent study by the Communications Workers of America concludes 
that ``all too many Americans encounter a significant digital divide. 
Families in rural areas are much less likely to subscribe to broadband. 
According to surveys, while 57 percent of urban households subscribe to 
broadband, only 38 percent of rural households do.
    The questions is then, how do we maximize broadband access and 
specifically in rural areas. We need high-speed Internet for our homes, 
schools, hospitals, and workplaces. Speed defines what is possible on 
the Internet. It determines whether we will have the infrastructure 
required to create the jobs of the future, develop our economy, and 
support innovations in telemedicine, education, public safety, and 
public services to improve our lives and communities. High-speed 
Internet is even more crucial to underserved rural areas because it is 
the best and most realistic solution to the rural/urban technology 
divide. High-speed Internet offers the chance to revitalize rural 
economies faced with the ever increasing shift to an urban, technology-
based economy. Wireless broadband offers a solution to the challenge 
facing us. Wireless broadband has the potential to cover large 
geographic areas at low cost.
``White Space'' Auction Offers Solution
    The auctioning of ``white space'' would foster the development of 
wireless broadband in rural areas because over 200 MHz of spectrum is 
available in those areas. To put this amount of spectrum in 
perspective, it is over 3 times the amount of spectrum as was auctioned 
in the recent 700 MHz auction. In addition, the licensed spectrum 
permits maximum power, and significantly reduces interference issues. 
The amount of spectrum and the power available make the ``white space'' 
extremely valuable in rural areas, as it would allow a licensed owner 
to provide service over a large geographic area at a low cost. Further, 
an auction of licensed spectrum could provide the collateral needed to 
finance wireless broadband build-outs in rural markets. Unlicensed 
spectrum will not. An additional benefit is the potential windfall for 
the Federal Government. A study done by the Brattle group states that 
that the government could receive $12-24 billion by auctioning ``white 
space.'' Certainly, given the current economic climate and the position 
the government finds itself in, any significant source of additional 
Federal revenue must be pursued.
    Currently, very few wireless broadband networks operate in rural 
America today. The type and amount of spectrum needed for these 
wireless networks has not previously been available to rural wireless 
carriers. Outside of a licensed ``white space'' auction rural areas are 
unlikely to get broadband service because it is too expensive to build 
fixed networks.
    Engineers have estimated that a licensed signal can travel up to 30 
miles in rural areas, while an unlicensed signal can travel only up to 
4 miles. (This calculation is based on a typical power of 1kW for the 
licensed spectrum compared to 1 W for the unlicensed spectrum.) This 
difference results in more than a 50-to-1 coverage advantage for the 
licensed spectrum. In other words, there would need to be roughly 50 
unlicensed cell sites for every licensed cell site. The only way to 
succeed in providing broadband to rural areas is on a licensed basis so 
that power levels can be maximized and interference can be reduced.
    The National Telecommunications Cooperative Association (NTCA) 
recently conducted a survey of its membership about wireless broadband 
issues in rural areas. NTCA represents over 580 small and rural 
telephone companies throughout the U.S. Seventy-three percent of NTCA's 
members indicated that they would prefer access to additional licensed 
spectrum over additional unlicensed spectrum.
Unlicensed Spectrum Wasteful
    On the other side, opponents of licensing ``white space'' promote 
in-home networking and improved WiFi as likely uses of the spectrum, 
but using the spectrum for low-power, short-range services like these 
fails to take full advantage the ``white space.'' The widely cited 
Brattle group reply comments before the FCC state that the ``white 
space'' is ``overqualified'' for such low-power, short-range services. 
Using ``white space'' for this purpose would ``amount to using land in 
downtown Tokyo to grow rice.''
    Some spectrum utilization studies, including the NSF Spectrum 
Occupancy Measurements Project Summary, suggest that there are many 
licensed frequency bands that are underutilized. However, this initial 
conclusion is deceptive. Most of these are frequencies in the 1240-1710 
MHz bands. Much of the spectrum in the 1240-1710 MHz bands is licensed 
to non-commercial operations. If you compare the unlicensed PCS band 
(2390-2500 MHz) to the licensed PCS band (1850-1990 MHz), the studies 
consistently come to the opposite conclusion. Licensed PCS frequencies 
are utilized significantly more than the unlicensed frequencies. In 
2004 and 2005 the National Science Foundation studied spectrum 
utilization in seven different locations throughout the United States. 
In six of those seven locations, licensed PCS spectrum is utilized 
significantly more than unlicensed PCS spectrum.
Unlicensed Spectrum Finds Few Customers
    A significant number of experiments with unlicensed WiFi in major 
Metropolitan areas have not worked. In every instance, including in San 
Francisco, Philadelphia, and New Orleans, these experiments have 
failed. A lack of funding was not the problem: EarthLink spent more 
than $50 million building unlicensed WiFi operations in these cities. 
These experiments failed due to lack of demand. EarthLink expected over 
100,000 customers in Philadelphia in the first year. In spite of 
extensive marketing, EarthLink attracted only 5,942 subscribers.
    The reason for these consistent failures was simple . . . no 
customers. Even in Google's own backyard, no one has attracted enough 
customers to make unlicensed WiFi viable. Since the unlicensed system 
has failed in these urban centers, claims that unlicensed usage of 
``white space'' will lead to greater rural broadband access must be 
viewed with great skepticism.
    In conclusion, it is imperative that we bring broadband to rural 
America, and the only practical way to do that is through licensure of 
``white space.''
                                 ______
                                 
   Prepared Statement of the American Homeowners Grassroots Alliance

    The American Homeowners Grassroots Alliance (AHGA) commends the 
Senate Commerce Committee for holding this hearing on Why Broadband 
Matters. AHGA is an independent national consumer advocacy organization 
which focuses on policy issues that have a significant economic impact 
on the nation's 75 million homeowners.
    Broadband is having a dramatic and positive impact on the Nation's 
75 million homeowners as well as other consumers. It is silently 
helping to address some of the most serious immediate challenges facing 
the U.S. For example, the recent drop in gasoline prices has been 
attributed in large part to reduced gasoline demand as consumers made 
conscious efforts to drive less. While some of that reduction is the 
result of consumer decisions to forgo vacations, much of it is 
undoubtedly a result of the increased use of Internet commerce and 
teleworking. Broadband is essential, in many cases, for both. During 
this crisis more consumers have been buying products and services 
online rather than driving to the mall, and more employers are letting 
their workers telecommute on a temporary basis to help them cope with 
the high prices of gasoline. By providing an increasingly viable option 
to hydrocarbon energy consumption in many endeavors, broadband has 
revealed its ability to help the environment and stabilize energy costs 
that will be enhanced as broadband penetration increases.
    The impact of broadband will continue to grow as the variety and 
sophistication of broadband applications expands, and as the number of 
homes with broadband access, now over 50 percent, continues to 
increase. The scope of broadband's impact on society is already 
breathtaking:
    For families. Broadband is changing the way families learn, 
communicate, play and prepare for their future. Critically important 
information about health care, scholarships, colleges, jobs, and 
community life such as e-government or registering to vote is 
increasingly on the Internet, and sometimes only on the Internet.
    For consumers. Broadband has transformed commerce. Just about every 
product or service can be purchased on the Internet, and consumers can 
find products and services they would never have found in an offline 
world. E-commerce growth rates continue to outstrip offline retail 
sales. E-government is increasingly important to consumers and 
businesses, saving both time and money. Already more than 14 million 
Americans have placed a telephone call over the Internet.
    For workers. The number of teleworkers is increasing rapidly. More 
than 12.4 million Americans telecommute full-time. Thanks to incentives 
created for Federal agencies, 7 percent of the Federal workforce now 
telecommutes. Since they do not drive to work, home-based small 
business owners and teleworkers are helping to reduce rush hour traffic 
jams for other workers as well. A recent survey of members of the 
American Institute of Architects revealed that home offices are the 
most popular special function room of new home buyers for the third 
year in a row.
    For rural Americans. Nowhere is broadband opportunity as profound 
as it is in rural America. In too many rural communities, because jobs 
have migrated to urban areas, high school graduates often feel they 
have only two choices--go away, or go nowhere. Broadband is the 
connection to new markets, new jobs, and to distant family and friends.
    For healthcare. Health IT technologies are dependant on the 
proliferation of broadband. Those technologies will improve the 
efficiency of healthcare and significantly reduce its costs. Health IT 
legislation will enable privacy-protected complete personal medical 
records to help doctors greatly improve diagnoses and treatments. 
Broadband will enable effective remote face-to-face consultations 
between healthcare providers and patients. A new generation of wearable 
medical monitoring devices now under development will enable millions 
of chronically ill to remain in their homes while their conditions are 
remotely monitored 24/7. They will also help many of the 54 million 
Americans with disabilities to remain in their homes and/or lead more 
productive lives. Collectively, these technologies will save seniors 
alone more than $800 billion by reducing health care costs.
    For seniors. Our society continues to shift from the geocentric 
extended families of our nation's early history. Older Americans today 
are far more likely to live an extended physical distance from their 
children, siblings, other family members, and the friends of their 
youth. As AARP pointed out in its testimony to the Committee, ``High-
quality broadband networks have the potential to make the world more 
accessible to persons over age 50, providing convenient pathways to the 
economic and social activities that are not only vital for leading 
comfortable and meaningful lives, but also for fostering and sustaining 
livable communities. Creating livable communities is an important 
policy goal for AARP. More than just a concept, livable communities 
seek to combine diverse and affordable housing, adequate mobility 
options, employment opportunities, entertainment and supportive 
community services to allow persons of all ages to remain independent, 
active and engaged.''
    For homeowners. Today over 80 percent of home buyers use the 
Internet in their search for new homes as well as home financing. This 
saves them tremendous amounts of time. Home sellers can list their 
homes in multiple listing services (MLS's), which will distribute the 
listings to hundreds of real estate broker websites for as little as a 
few hundred dollars. Websites like Craigslist are becoming more 
important factors in real estate transactions, and home sellers or 
agents can put listings there for free. Because sellers and buyers in 
the broadband era need less support from real estate agents, broadband 
is also helping to reduce real estate sales commission rates. According 
to U.S. Census figures and IDC, a national research firm, at least 18 
million of the approximately 36 million home office households in the 
United States are home-based businesses. Many of them are Internet-
centric businesses which are heavily dependant on broadband, such as 
the millions of eBay Power Sellers who derive all or much of their 
income from Internet commerce, service businesses such as website 
designers, real estate agents, mortgage brokers, and millions of other 
home-based businesses.
    For the environment. The shift to home-based teleworking is helping 
reduce environmental pollution and global warming. By transforming 
existing rooms in their homes into offices, telecommuters and home 
based businesses reduce the need for the construction of new commercial 
office space, which helps the environment. A study by TIAX LLC 
determined that a full time telecommuter who lives 22 miles from his or 
her workplace would save 320 gallons of gasoline and reduce 
CO<INF>2</INF> emissions by 4.5 to 6 tons per year. At $3.00+ per 
gallon gasoline prices, they would also save teleworkers about $1,000 
in cash annually, not including savings in automobile insurance, 
maintenance costs and depreciation resulting from those trips. Home 
based business owners avoiding commutes to a separate office the same 
distance away would save the same amount.
    For the economy. Ubiquitously available broadband could:

  <bullet> reduce the costs of Federal, state, and local physical 
        transportation infrastructure investments, both for expansion 
        and maintenance.

  <bullet> create an estimated $500 billion in economic growth.

  <bullet> create more than 1.2 million high-wage jobs.

  <bullet> strengthen America's global competitiveness.

  <bullet> boost business productivity--which is essential to raising 
        standards of living for all families in America.

  <bullet> allow small businesses to reach global markets.

    For Homeland Security. In a study of the communications failures on 
September 11, 2001, the National Academies of Science found that the 
Internet held up better than other communications technologies. On 9/
11, 95 percent of cell phone calls at 11 a.m. failed to get through, 
the central office for the phone system cutoff 300,000 landline phones, 
television stations were knocked off the air, and police and fire 
department radios failed. By contrast, only 2 percent of Internet 
addresses remained off-line for an extended period. 9/11 demonstrated 
the Internet's overall resilience to attacks through its flexibility, 
and adaptability. But 7 years after 9/11, America has not done enough 
to advance the broadband Internet technologies that can help avoid 
future communications failures.
    For public safety. Hurricane Katrina highlighted the fragility of 
the emergency communications system in this country. During Katrina, 38 
Public Safety Answering Points (PSAPS) failed, preventing 911 calls 
from being answered. Connecting public safety answering points to 
broadband, like we've connected schools and libraries, will strengthen 
the emergency responder communications network.
    For government. Universal broadband could also have important 
advantages for the government itself, allowing government workers to 
communicate in more geographically-dispersed locations in an emergency. 
In the event of a major 9/11-type attack on Washington, offices could 
be inaccessible but employees will still need to communicate. Federal 
workers using broadband enabled phones could immediately work from home 
or other broadband enabled location--improving continuity of 
government. Many government agencies are already making the switch to 
broadband enabled voice services, but without broadband at home, 
workers can't connect.
    For business. Broadband has greatly enhanced business productivity 
and enabled small businesses, including home-based microbusinesses, 
play on a much more level playing fields against larger competitors. A 
small business today can create a website using user-friendly templates 
and maintain their website for $20 a month or less. For products that 
can be shipped electronically (movies, software, etc.), transportation 
costs associated with physical products are eliminated, because the 
customers' Internet service provides the transportation.
    To help make the aforementioned benefits available to all in 
society we must make broadband accessible to all. To achieve that 
objective, AHGA recommends that Congress undertake the following 
specific actions:

  <bullet> Promote a non-partisan broadband debate. The current 
        broadband debate has become very partisan, ideological, and 
        acrimonious. Yet the benefits of expanded broadband access are 
        not a matter of partisan differences. Legislators can 
        demonstrate their leadership and maturity by helping to bring a 
        more thoughtful tone to the debate in the future. Members of 
        Congress, and leaders of consumer and business organizations, 
        need to recognize that our progress is dependant on reaching 
        consensus among most or all of the key players. No segment of 
        the consumer, business, or political community can expect to 
        achieve all of their goals. Progress will have to come in 
        incremental steps, and compromises will be necessary even as we 
        move forward incrementally. It is far better to devote our 
        energies to finding areas of common ground that will move us 
        toward the ultimate goal than to expend energies trying to deny 
        any success to those who disagree with us.

  <bullet> Pass broadband mapping legislation. Broadband mapping will 
        collect accurate data that will reveal the extent and 
        distribution of current broadband deployment, enable us to 
        forecast trends, and identify areas where additional measures 
        are required. It will also help defuse differences of opinion 
        regarding the types and seriousness of the challenges to 
        further broadband deployment. The information that S. 1492, the 
        Broadband Data Improvement Act passed by this Committee, and 
        House-passed legislation H.R. 3919, the Broadband Census of 
        America of 2007, will help both the Federal Government and 
        local communities and states assess their broadband inventory. 
        That information is critical to intelligent planning and 
        resource allocation going forward.

  <bullet> Make smart government investments in this critical 
        infrastructure. The nation's resources are limited, and both 
        existing programs and any new resources brought to bear on the 
        challenge must be made to work with maximum efficiency. 
        Existing programs such as the universal service system are 
        still oriented to outdated consumer communications needs and 
        old communications technologies. The universal service system 
        needs to be modified to better support the goal of deployment 
        of high speed Internet for all. We also need to invest more 
        public funds in efforts to improve digital literacy, provide 
        broadband access and needed hardware are to low income 
        households, support public/private partnerships, and make low 
        interest business loans available to spur deployment of faster, 
        second-generation networks.

  <bullet> Create new economic incentives to spur the demand for 
        broadband services and/or reduce the cost of deploying 
        broadband services. Laws that have effectively expanded 
        telecommuting by Federal workers need to be complimented with 
        similar incentives in the private sector. A $2,000 tax credit 
        for technology equipment and broadband service expenses 
        required to establish home offices for workers and home-based 
        business owners would encourage more employers and workers to 
        shift to teleworking, just as the $2,000 hybrid vehicle tax 
        credit has encouraged more commuters to choose more fuel 
        efficient cars. Congress should enact a permanent, nationwide, 
        state and local sales tax holiday on goods and services that 
        are sold over the Internet. Exempting Internet sales from state 
        and local sales taxes was supported by 85 percent of the 3,125 
        survey respondents in a 2008 Parade Magazine readers survey. 
        Such an exemption would spur Internet commerce and the demand 
        for broadband services. State and local governments would 
        benefit from a reduced need for new transportation investments 
        and maintenance, and society would benefit from the many other 
        economic and environmental benefits of e-commerce. Tax credits 
        or other incentives tied to accelerating the build out of 
        networks and upgrading them to second-generation capability 
        should be provided to broadband and cellular service providers.

  <bullet> Support niche opportunities to take advantage of new 
        broadband applications. Much progress has been made in 
        narrowing differences in health IT legislation in this 
        Congress. It would be a great step forward if Congress could 
        pass health IT legislation this year. If time does not permit 
        action in this Congress, passage of health IT legislation 
        should be moved to the top of the priority list next year. 
        Congress should continue to seek similar niche opportunities to 
        take advantage of broadband technology in other areas in the 
        future.

  <bullet> Remove major barriers to broadband adoption. Privacy issues 
        are a serious threat to consumers. They slow both Internet use 
        and broadband adoption. Congress must take steps to address 
        threats to privacy, security and safety.

    The most serious is identity theft, which has a very adverse effect 
on consumers when it occurs, and is also discouraging many other 
consumers from taking advantage of the benefits of Internet Commerce. A 
recent University of Michigan study determined that up to 75 percent of 
all bank websites have security flaws resulting from poor website 
design that make them susceptible to hacking. Federal privacy 
legislation should establish reasonable basic minimum security and 
privacy for online activity. These standards should not be so rigorous 
that they would impose undue burdens on home-based and other small 
businesses which incorporate Internet commerce in their business 
models.
    A new and growing threat to consumer privacy, security and safety 
are new technology applications that provide high quality, ground level 
pictures of residential neighborhoods, which have been made available 
on the Internet without the consumer's advance knowledge or permission 
by companies such as Google (Street View), Mapjack, EveryScape Inc. and 
Povo Inc. Ground level view technologies enable anyone with Internet 
access to drive virtually, undetected, and very efficiently through 
residential neighborhoods and peer into the windows of peoples' homes, 
and view what they were doing inside their home or elsewhere on their 
property. Personally embarrassing photographs from these services have 
been widely republished on the Internet. The degree of invasion of 
someone's privacy and potential risk of damage to someone's career 
posed by these tools is many times greater than that posed by a 
neighborhood busybody, and these tools create security threats to 
consumers as well. The Pentagon has prohibited Google from publishing 
its ``Street View'' content of U.S. military bases and the Department 
of Homeland Security has reportedly asked Google not to release its 
street views of the Washington, D.C. area out of concern that the 
pictures may be used by international terrorists to plan attacks. These 
new tools can just as easily be used by domestic criminals as they can 
by international terrorists. They make it far easier and more efficient 
for potentially violent burglars, car thieves, and other criminals to 
plan their crimes. These companies should be required to get advance 
opt-in permission from consumers before posting pictures of consumers' 
homes on the Internet.
    Another privacy issue involves tools companies use to track 
consumers' online activities across the entire Internet in great 
detail. The tracking done thus far using tools such as ``deep-packet 
inspection'', and other advance technologies used by companies such as 
Google and others to track consumers' activities across the Internet 
has been done without consumers' advance knowledge or consent, and 
outside the bounds of consumer expectation.
    Companies that track consumer Internet activity in great detail 
beyond their own company's website should be required to get advance 
opt-in permission from consumers before tracking types of online 
behavior that consumers have a reasonable expectation of privacy.
    We thank the Senate Commerce Committee for this effort to help 
understand the many benefits that broadband is delivering to society. 
The Alliance also appreciates the opportunity to provide these 
suggestions to help speed broadband adoption in the U.S. We look 
forward to supporting this Committee's efforts to make broadband as 
universal as telephone service is today and bring its benefits to all 
Americans as soon as possible.
                                 ______
                                 
   Prepared Statement of the Institute of Electrical and Electronics 
             Engineers-United States of America (IEEE-USA)

    IEEE-USA is delighted to submit this statement to the U.S. Senate 
Commerce, Science and Transportation Committee. IEEE-USA advances the 
public good and promotes the careers and public policy interests of the 
215,000 engineers, scientists and allied professionals who are U.S. 
members of the IEEE.
    IEEE-USA congratulates Chairman Daniel Inouye and the Senate 
Commerce Committee for supporting S. 1492, the ``Broadband Data 
Improvement Act,'' and supports passage of this important legislation.
    Universal access to high-speed broadband data services is as 
imperative to our nation's economic prosperity in the 21st century as 
universal access to electric power and telephone services was in the 
20th century. Broadband services enable telecommuting, distance 
learning, improved medical care, gateways to vast sources of 
information, and a host of other economic and quality-of-life 
opportunities. As with electricity and telephone service before it, new 
Internet applications generate economic and social gains that far 
exceed the investment in the enabling infrastructure.
    The various members of U.S. consumer households of the near future 
will be needing access to many broadband applications all at the same 
time. The children do their homework, the breadwinner works part time 
or full from home, the grandparents keep in touch with their doctors, 
and some of them seek help from their governments on taxes, social 
security, Medicare, business, energy, housing, and public safety. The 
aggregation of these simultaneous applications in the home, together 
with entertainment, will drive the future demand for broadband.
    Although the United States can legitimately take credit for 
development of the Internet, we cannot claim that our nation leads in 
providing access to it. Many countries have recognized the benefits of 
high-speed broadband data services and have dramatically expanded both 
the availability and speed of their national networks. Such investments 
provide competitive advantages that must not be ignored.
    We must meet these challenges with new cooperative initiatives 
between the U.S. Government and the U.S. communications industry. These 
efforts will require strong national leadership focused on development 
of new policy and regulatory frameworks to stimulate investment in the 
enabling infrastructure for extending national access to the Internet; 
its widespread use; and competition in its facilities, service 
provision, and content.
    IEEE-USA urges the U.S. Congress to create incentives for the 
provision of universal and affordable high-speed broadband access to 
new and demanding Internet applications. Such access will bring 
consumer benefits to education, job opportunities, telemedicine, and 
access to government resources. Beyond these benefits, such access will 
stimulate innovation, spur economic activity, and contribute to 
increased productivity for the Nation.
    To achieve these benefits IEEE-USA recommends the following actions 
covered at greater length below:

  <bullet> Designate universal and affordable access to high-speed 
        broadband networks as a national priority and establish a 
        series of bandwidth goals and target dates for deployment.

  <bullet> Provide economic incentives for broadband investments and 
        uses that qualify as furthering our national objectives.

  <bullet> Foster further competition in facilities, service provision, 
        and content through legislation and regulation.
The United States Faces Challenges for its Broadband Infrastructure.
    Current levels of speed and access fall short of evolving demand. 
The Federal Communications Commission's (FCC) prior definition of 
broadband speed was 200 kilobits per second (kb/s). Recently the FCC 
replaced this definition with seven broadband tiers starting at 768 kb/
s and extending to speeds greater than 100 megabits per second (Mb/s). 
Five principal technologies currently deliver broadband within these 
tiers:

  <bullet> Cellular telephony

  <bullet> Digital Subscriber Line, offered by telephone companies

  <bullet> Cable modem, provided by cable companies

  <bullet> Wireless Fidelity (Wi-Fi) networks

  <bullet> Optical fiber to the home or the neighborhood

  <bullet> Satellite.

    Availability and data rates vary widely within each of these 
technologies, so that tabulation of their capabilities here would 
necessarily be incomplete and subject to change. However, typical data 
rates currently increase from about 0.5 Mb/s for the newer cellular 
telephony systems progressing to 20 Mb/s for optical fiber to the home. 
Optical fiber so far is available only in limited service areas 
compared with Japan, South Korea, and France.
    As microprocessor and broadband capabilities expand, new computing 
applications emerge. This is the story of technological progress in all 
fields. Many studies cite examples, just a few of which follow:

  <bullet> Convergence of voice, data, and video into bit streams 
        carried on digital networks.

  <bullet> Widespread bidirectional video conferencing, useful in 
        education and business.

  <bullet> High resolution medical images and electronic medical 
        records transferred for diagnosis and consultation.

    These new applications can be used on the Internet now, but can 
experience delays in delivery where the Internet is not robust enough 
to handle the additional traffic they induce, as well as impact the 
user experience of any others sharing the same portion of the Internet.
    The market is advancing U.S. broadband deployment, but at a pace 
limited by each individual provider's perceived return on investment. 
The result is twofold: we face inadequate provision for coming demand 
and we lack parity among world-class networks. To encourage faster 
progress, initiatives beyond ordinary market forces are needed.
Priority Action Will Return Rewarding Benefits to Consumers
    All levels of education are using broadband. Images and videos 
enrich the primary grades in science, music, art, and current events. 
High school students research material for their arts and their 
sciences assignments. Almost every higher educational institution makes 
its entire curricula available on its websites, either for fee or for 
free. For example, the University of Maryland University College 
enrolls 90,000 students worldwide, mostly in distance learning courses 
otherwise unavailable to working adults because of location, schedule, 
and duties.
    Telework and telecommuting enable people to join in the workforce 
who would otherwise be excluded by reason of location, mobility, age, 
or cost. However, these applications are most effective with ample 
bandwidth for fast transfers of large files and interactive video. 
Additionally, the very investment needed to expand the broadband 
infrastructure will create skilled jobs in U.S. industry in rural areas 
and across the U.S.
    Broadband is improving both the efficiency and effectiveness of 
health care delivery through rapid access to medical records, detailed 
medical imagery, video patient diagnosis and monitoring, and even 
telesurgery for patients unable to get to a qualified surgeon. These 
applications use bandwidth beyond what is generally available now.
    More extensive Federal and local government use of broadband 
facilities and services could provide superior services to its citizens 
in law enforcement, emergency management, health, housing, and 
business.
Telemedicine
    Increasing health care costs and an aging population are placing 
significant strains upon the U.S. health care system. Small pilot 
studies have shown that meeting seniors' needs for independence and 
autonomy, coupled with expanded use of home health technologies, 
mitigate against these circumstances and provide improved health 
outcomes. Difficulty with reimbursement policies, governmental approval 
processes, and absence of efficient deployment strategies have hampered 
adopting such technologies.
    These technologies can reduce or eliminate the need for personal 
services in the home and can also improve treatment in hospitals and 
nursing care facilities in rural areas and other environments. IEEE-USA 
believes that using electronic technologies to assist and monitor 
elderly, disabled, and chronically ill individuals in the home can 
improve quality of life, improve health outcomes, and help control 
health care costs.
    IEEE-USA urges Congress and policy-makers, in both the public and 
the private sector, to take the actions needed to expand uses for 
electronic devices, assistive and monitoring software, and home health 
communication technologies to provide home health care to those in 
need. Further, we support developing guidelines for reimbursement of 
these technologies--both for developers and users.
Universal Access Will Return Rewarding Results in Other Fields as Well
    As networks connect larger numbers of people, disproportionately 
positive economic and social benefits accrue to society because the 
possible interactions grow faster than the number of subscribers.
    Economically, broadband networks have been shown to spur growth 
through productivity, new and augmented markets, expanded work force, 
innovative products and services, and research. This occurs by speeding 
the diffusion of ideas and procedures throughout individuals and 
organizations, so that the direct benefits diffuse throughout the 
society as a whole. In rural areas, facilities ownership by enterprises 
and communities is providing expanded capability in sparsely populated 
markets, thus enhancing local economic opportunity and richness of 
life. Faster and more available wireless access can expand mobile 
commerce and create new multimedia applications such as mobile video 
telephony. The broadband infrastructure can enable energy efficiency as 
well as substitute for other resources, such as use of the 
transportation infrastructure, medical examination and advice, and 
paper-based records.
    National security and public safety can be enhanced by a robust 
Internet. The Internet's fundamental design provides redundancy in case 
of isolated failures; however, best practices for critical 
infrastructure protection must be employed to ensure improved 
robustness and survivability from both natural and man-made disasters.
    Socially, such networks have been shown to enrich the quality of 
life, and to diminish the disparity in access between rich and poor, 
urban and rural, and ethnic groups.
    Globally, high-performance networks will enable the United States 
to match or exceed services and applications available to the citizens 
or trading partners of other nations, with consequent competitive 
advantages.
Government Has Options for Constructive Action
    Designate deployment of high-speed broadband networks as a national 
priority and establish a series of bandwidth goals and target dates for 
deployment.

  <bullet> The President and Congress have a chance to provide vision 
        and leadership by giving priority status to high-speed 
        broadband deployment and access. Such leadership will close the 
        widely publicized gap in penetration, access, and price between 
        the United States and countries like Japan, South Korea, and 
        Europe.

  <bullet> Initially, we advocate the achievement of 20 Mb/s 
        bidirectional speed with 90 percent availability throughout the 
        Nation within 5 years. The wide penetration of such speeds will 
        achieve most of the expected benefits and accommodate numerous 
        simultaneous applications per household or small business. Of 
        course, greater speeds can be had by those with greater needs.

  <bullet> We further advocate the achievement of 100 Mb/s 
        bidirectional speed with availability to all businesses and 
        households within 10 years. The technology necessary to meet 
        this goal is scalable to almost any future need at inexpensive 
        upgrade costs.

  <bullet> Create a national annual census of broadband availability 
        and usage to monitor progress toward the goals, identify 
        competitive opportunities, and reveal underserved areas.

    Provide economic and other incentives for broadband investment and 
use.

  <bullet> The government should reaffirm and extend tax incentives to 
        private sector broadband investment. These include expensing of 
        certain investments, accelerated depreciation, R&D tax credit, 
        matching grants, and guaranteed loans for broadband deployment 
        in underserved areas including use of the Universal Service 
        Fund.

  <bullet> Other incentives would include deductions for certain 
        broadband subscriber expenses that further education and health 
        care.

  <bullet> Additionally, to stimulate use and demand, provide programs 
        to increase digital literacy.

    Foster competition in facilities, services, and content.

  <bullet> Competition among providers and technologies can be relied 
        on to provide wider deployment, higher speeds, and lower prices 
        just as it has in other countries. The following actions will 
        foster such competition:

    <ctr-circle> Rescind legislative and regulatory restrictions on 
            deployment of end-user owned wired and wireless networks by 
            municipalities and other communities wherever these provide 
            capability in the absence of adequate, cost-effective, or 
            timely commercial services.

    <ctr-circle> Encourage negotiation between service providers and 
            facilities providers for access to the physical 
            infrastructure, so as to realize the benefits of 
            innovation, content diversity, end-user choice, and 
            competition.

    <ctr-circle> Recommend network benchmark tests for broadband 
            performance and continually redefine them as usage and 
            technology evolve. Different broadband technologies have 
            more than raw speed differences. For the competitive 
            marketplace to work in selecting broadband alternatives 
            there must be information on the alternatives. Thus users 
            can select the performance best for their particular needs.

    Additional initiatives will also encourage broadband investment and 
use.

  <bullet> The FCC should designate ample licensed and unlicensed 
        spectrum bands, including unused portions of television bands, 
        for high-speed wireless networks, ultimately aiming at access 
        for all. This action will expand mobile and nomadic services 
        and augment access to the wired infrastructure.

  <bullet> Appropriate government agencies should step up their network 
        acquisitions to stimulate demand.

  <bullet> The National Science Foundation, other funding agencies, and 
        industry should assure research levels for hardware, software, 
        applications, and standards that are sufficient to spur 
        continuing technological development, as Japan and the European 
        Union are doing.
The above Considerations Support the Following Conclusions
    The capabilities and benefits of widespread, advanced broadband 
networks are achievable by visionary national policies and leadership, 
enabling cooperative government and industry initiatives. Such networks 
are necessary for attaining and sustaining U.S. technological and 
competitive advantage in the global economy. Once in place, such 
networks reduce bandwidth constraints, thus opening a new era of 
innovation for knowledge-based goods and services.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                              Larry Cohen

    Question 1. If this hearing is to act as a jumping off point for 
next Congress, and for the next Administration, can you each give a 
policy recommendation for how to go about deploying broadband to every 
American? What policy initiatives should be included in the President's 
national broadband Strategy? What can be accomplished at the FCC? And 
what initiatives should be taken by the Federal Government to increase 
understanding and information in order to improve demand on the part of 
the consumer?
    Answer. There are a number of immediate steps that the next 
Administration, Congress, and the FCC can take to achieve the goal of 
affordable, high speed Internet for all Americans.
    First, the President's broadband strategy should establish a 
national broadband policy goal. A reasonable initial goal would be to 
construct an infrastructure with enough capacity for 10 megabits per 
second (mbps) downstream and 1 mbps upstream by 2010.
    Second, Congress in partnership with the states should fund a 
program to map broadband infrastructure. We still do not have detailed 
national information about where broadband deployed and at what speeds. 
The next Congress should make it a top priority to authorize and 
appropriate funds to implement S. 1492, the Broadband Data Improvement 
Act, (Public Law 110-385), which provides grants to states to conduct 
broadband mapping and to create public-private partnerships to 
aggregate demand.
    Third, the FCC should reform the universal service program. Today, 
universal service subsidies support voice telephony service. The FCC 
should move forward immediately to reform the universal service program 
to support build-out of broadband networks in rural high-cost areas and 
subsidies for low-income households for Internet access and equipment.
    Fourth, Congress should adopt tax incentives, low-interest loans, 
and grants to stimulate build-out of high-speed broadband 
infrastructure. Other countries such as Japan, South Korea, and Sweden 
have spurred the deployment of faster networks through such programs. 
Congress could adopt such incentives as part of an infrastructure 
stimulus package designed to jump-start the economy, create jobs, while 
investing in 21st century broadband infrastructure.
    Fifth, Congress in cooperation with the states should fund programs 
to stimulate demand for high-speed broadband networks, including 
community-based digital literacy programs, grants for broadband 
applications and services, and programs that provide free or low-cost 
computers to low-income households. A Digital Ambassadors program could 
be considered as part of a job-creating stimulus package.

    Question 2. Massachusetts Governor Deval Patrick proposed and 
passed with the cooperation of the legislature an initiative to fund 
next generation communications infrastructure through state issued 
bonds. Is this a strategy that makes sense in your mind? Is it an idea 
that has merit at the Federal level?
    Answer. There is merit in exploring a Federal program that would 
support investment in next-generation communications infrastructure 
through an infrastructure bond program. Such a program should be 
structured to lower private sector capital costs for investments in 
next-generation communications infrastructure. In addition, it is worth 
exploring other programs that would lower private sector cost of 
capital for investment in next-generation networks such as accelerated 
expensing of investments in high-speed next-generation networks, 
investment tax credits, and competitive matching grants.

    Question 3. There has been talk about a second stimulus package, 
and the value of including infrastructure improvements in such a 
package. Could you speak to how public funds directed at infrastructure 
improvements--whether they be roads, bridges, railroads or 
communications networks--can build jobs and stimulate the economy?
    Answer. Public funds directed at infrastructure improvements--
whether they be roads, bridges, schools, or communications networks--
can build jobs and jumpstart the economy in the short-term, while 
investing in the 21st century infrastructure to assure long-run 
economic growth. Moreover, advanced networks support innovations in 
health care, education, public safety, energy, and public services that 
will improve our lives and communities, while providing public services 
in a more efficient manner.
    In a report prepared for the U.S. Department of Commerce, 
economists found that communities with broadband experienced a higher 
rate of job growth and new business start-ups than communities without 
high-speed networks. Another study of the central Appalachian region 
found that firms in communities with broadband were 14 to 17 percent 
more productive than those in communities without high-speed Internet 
access. A Brookings Institution paper calculated that build-out of 
broadband infrastructure to all households would add $500 billion to 
gross domestic product and 1.2 million additional jobs. Another report 
warned that the failure to improve broadband performance could reduce 
U.S. productivity by 1 percentage point or more per year.\1\
---------------------------------------------------------------------------
    \1\ William Lehr, Carlos A. Osorio, Sharon E. Gillett, and Marvin 
Sirbu, ``Measuring Broadband's Economic Impact,'' U.S. Department of 
Commerce, Economic Development Administration (Feb. 2006) (available at 
http://www.eda.gov/ImageCache/EDAPublic/documents/pdfdocs2006/
mitcmubbimpactreport_2epdf/v1/mitcmubbimpactreport.pdf); Mark L. Burton 
and Michael J. Hicks, ``The Residential and Commercial Benefits of 
Rural Broadband: Evidence from Central Appalachia,'' June 2005, Paper 
prepared for the West Virginia Development Office, Center for Business 
and Economic Research, Marshall University; R. Crandall and C. Jackson, 
``The $500 Billion Opportunity: The Potential Economic Benefit of 
Widespread Diffusion of Broadband Internet Access,'' Criterion 
Economics, 2001 (available at http://www.ntia.doc.gov/ntiahome/
broadband/comments/verizon/ExhibitA.pdf); C. Ferguson, ``The United 
States Broadband Problem: Analysis and Recommendations,'' Brookings 
Institution Working Paper, 2002 (available at http://www.brookings.edu/
views/papers/ferguson/working_paper
_20020531.pdf)
---------------------------------------------------------------------------
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                            Jonathan Linkous

    Question 1. If this hearing is to act as a jumping off point for 
next Congress, and for the next Administration, can you each give a 
policy recommendation for how to go about deploying broadband to every 
American? What policy initiatives should be included in the President's 
national broadband Strategy? What can be accomplished at the FCC? And 
what initiatives should be taken by the Federal Government to increase 
understanding and information in order to improve demand on the part of 
the consumer?
    Answer. Using Federal funds to pay for the deployment of large 
telecommunication pipes where there is no foreseeable need or where 
consumer demand and the private sector will already meet the need, 
would be imprudent. Similarly, deploying broadband over pathways 
already filled with dark fiber or paying for outdated 
telecommunications technology is equally foolish.
    However, there are a growing number of health, educational, and 
public sector services requiring broadband access where such access 
might not otherwise be available. Also, there are certain geographic 
areas that may present economic barriers to broadband deployment. 
Finally, low income families may not be able to afford such access. In 
these cases, there is a justifiable need for public support to gain 
access to broadband. Historically, these are the same arguments that 
justified the establishment of Universal Service.
    The easiest and most cost-effective approach to ensure broadband 
access to every American is to use the universal service mechanism. 
Thus, the existing definition of ``Plain Old Telephone Service'' that 
is offered through Universal Service policies should be revised to 
reflect faster speeds, both to and from the consumer. Such a change in 
public policy should originate from Congress and be implemented at the 
FCC.

    Question 2. Experts and legislators from both side of the aisle see 
great promise in modernizing the health care system, particularly the 
life saving and cost saving benefits of electronic prescribing and 
electronic health records. To what extent do you see the lack of 
broadband access and penetration as limiting the full adoption and 
functionality of our progress in developing digital health care?
    Answer. There are numerous barriers inhibiting the deployment of 
many forms of health technology. Technical standardization, clinical 
practice guidelines and reimbursement for remote health services are a 
few of the needs. Telemedicine, the provision of health services over 
distances, also needs affordable telecommunications services. 
Traditionally connecting large hospitals to outlying clinics, 
telemedicine is now being made available directly to the individual 
through the Internet and cell phones. Continuous, personal health 
monitoring and instant diagnosis and even treatment of an individual's 
health problems via telemedicine are around the corner. Such 
revolutionary applications are transforming how, why and when 
healthcare is delivered, improving care and vastly reducing costs.
    Universal access to these health services will soon become critical 
in order to avoid yet one more set of haves and have-nots. In the near 
future, the lack of personal access to telecommunications will be 
tantamount to a lack of access to healthcare.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                           Mara Mayor, Ph.D.

    Question 1. If this hearing is to act as a jumping off point for 
next Congress, and for the next Administration, can you each give a 
policy recommendation for how to go about deploying broadband to every 
American? What policy initiatives should be included in the President's 
national broadband Strategy? What can be accomplished at the FCC? And 
what initiatives should be taken by the Federal Government to increase 
understanding and information in order to improve demand on the part of 
the consumer?
    Answer. Older Americans have the potential to reap significant 
benefits from the widespread availability of affordable and high-
quality broadband services. Broadband services can create new 
opportunities for older Americans to maintain their independence and 
security, to receive improved medical supervision and care, and to 
maintain their productivity in the work force. Broadband provides new 
avenues for socialization and contact with the outside world for 
individuals who may experience decreased mobility. Broadband also has 
the potential to offer expanded support to family and friends who act 
as unpaid caregivers for older Americans.
    More generally, broadband can enable expanded innovation and 
provide new opportunities for economic growth, both in economic sectors 
associated with serving older persons, such as health and social care, 
and in the overall economy. A growing body of research links broadband 
deployment to increases in employment and economic growth.
    Congress should make ubiquitous, affordable, and truly high-speed 
broadband a national priority. It should create an aggressive national 
broadband deployment strategy that establishes the U.S. as the world 
leader in providing all of its citizens with access to the fastest and 
most affordable broadband services. Specific targets in terms of 
broadband penetration, coverage, and usage should be established to 
spur progress toward meeting the statutory objectives of ``access to 
broadband telecommunications capability that enables users to originate 
and receive high-quality voice, data, graphics, and video 
telecommunications using any technology.'' Establishing the following 
milestones would help reach that goal:

  <bullet> the provision of affordable broadband with symmetrical 
        speeds of at least 10 Mbps that is available to 100 percent of 
        U.S. households by the end of 2010;

  <bullet> the provision of affordable broadband with symmetrical 
        speeds of at least 100 Mbps available to 100 percent of U.S. 
        households by the end of 2015.

    In addition, a new national broadband policy should encourage both 
the demand and supply sides of the market for this technology and 
incorporate the following key principles:

  <bullet> transparency and accountability--Indicators of market 
        performance are essential for achieving strategic goals.

  <bullet> promotion of open and standardized broadband platforms--open 
        and standardized broadband platforms will result in the 
        greatest opportunities for innovation and the fullest benefits 
        of competition.

  <bullet> greater promotion of broadband adoption especially among the 
        older and underserved populations--see response to question #2 
        below.

    Question 1a. What can be accomplished at the FCC?
    Answer. Contrary to the FCC's recent Report to Congress that 
indicates that all Americans have access to affordable advanced 
telecommunications services, broadband deployment in the United States 
has substantial deficiencies. For example, evidence shows that there is 
a significant difference between rural and urban broadband Internet 
usage in the United States. There are substantial differences in 
broadband adoption based on household income. Age is also a factor 
limiting broadband adoption, with a scant 15 percent of households 
headed by individuals over 65 having a broadband connection.
    To implement meaningful reform, the following steps are appropriate 
by the FCC:

  <bullet> The FCC must identify the supported companies that have 
        upgraded their networks to provide broadband.

  <bullet> The FCC must audit these firms to determine the extent and 
        quality of broadband coverage, this audit can contribute to 
        generating accurate maps that identify the characteristics of 
        broadband deployment.

  <bullet> The FCC must establish the cost basis for the joint 
        provision of voice and broadband services.

  <bullet> The FCC must acknowledge revenue streams arising from both 
        voice and broadband services, and,

  <bullet> The FCC must award support to these companies based on data 
        obtained from the review of costs and revenues.

    To satisfy the statutory objectives, mapping must identify the 
current status of all broadband deployments. The FCC must establish a 
broadband speed benchmark that encourages the deployment of high 
quality broadband. For any new broadband facilities supported by any 
broadband expansion fund, priority be awarded to deployments that 
provide symmetrical data speeds of 10 Mbps or greater.

    Question 1b. What initiatives should be taken by the Federal 
Government to increase understanding and information in order to 
improve demand on the part of the consumer?
    Answer. Affordability is a key factor in improving demand on the 
part of the consumer. Given the inclusion of broadband services in the 
universal service offering, the FCC must establish an affordability 
standard. Affordability proceedings should be conducted with the 
assistance of the state commissions, as regional and local factors have 
a strong influence on the ability of households to afford broadband. In 
addition, policymakers should establish and sufficiently fund broadband 
assistance programs for low-income consumers to ensure that high-
quality broadband is within the reach of all U.S. households.

    Question 2. In your testimony, you mention the fact that only 19 
percent of people over age 65 have broadband service in their home. How 
much of the problem is lack of education and understanding, and what 
can be done to help this demographic learn more about the benefits of 
broadband access?
    Answer. Many older adults and many younger ones as well, could 
benefit by knowing more about the benefits of broadband access that are 
available today, and those that are on the horizon. In this regard, 
education and incentives that encourage broadband consumption should be 
implemented. The education efforts should be oriented toward ``lifelong 
learning'' to ensure that all members of society have sufficient 
knowledge to understand the benefits of information technologies, 
including broadband. The promotion of broadband consumption should 
leverage telework, telehealth, electronic commerce, electronic 
government, and distance-education activities as key focus areas. 
Special attention should be given to demonstrating the utility of 
applications in these areas to meeting the independent living 
assistance, employment, health, and education needs of older persons. 
Specific provisions to promote broadband consumption could include:

  <bullet> programs that promote the refurbishment and distribution to 
        low-income households of discarded but serviceable computers, 
        to ensure the availability of computers in low income 
        households;

  <bullet> public service advertising;

  <bullet> expanded adult community education programs targeting 
        broadband and computer use; and

  <bullet> a national initiative to ensure a minimum level of 
        technology education in schools and other appropriate venues.

    While limited awareness about the benefits of broadband access may 
help explain the relatively low adoption rate of home broadband service 
by older adults, it is not the only factor. Indeed, research suggests 
that older consumers' concerns about the costs of broadband services 
and capabilities and older consumers' perceptions of the relevance of 
these services and capabilities are more important factors in 
determining widespread adoption of broadband service.
    For example, broadband can create opportunities to address the 
complexities of serving an aging population by facilitating access to 
health care services that are necessary to help older persons age 
successfully. In this regard, recent AARP research suggests strong 
support for telehealth. Three-fourths of older adults age 65+ say they 
are willing to have a cardiologist diagnose or monitor a heart 
condition by receiving information that is transmitted electronically 
to them from their primary care doctor's office or their home. 
Moreover, older adults identify safety, emotional peace of mind and 
comfort as benefits associated with personal health monitoring devices 
that are well supported by always-on broadband connections. 
Nevertheless, cost concerns rise to the top of the older adults' 
perceptions of these devices. Indeed, four out of five older adults 
express concern about the costs to install and maintain these devices. 
Similarly, other research finds that older adults perceive these 
broadband-enabled services to be too expensive for individual consumers 
unless they are extremely frail or the only other alternative to 
nursing care or living with an adult child.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                           Margaret M. Conroy

    Question 1. If this hearing is to act as a jumping off point for 
the next Congress, and for the next Administration, can you each give a 
policy recommendation for how to go about deploying broadband to every 
American?
    Answer. This is a time of great opportunity for the 111th Congress 
to provide leadership and vision to establish universal broadband 
services to all Americans. Like public libraries, public education and 
the Universal Service Fund (USF), universal broadband must be a long 
term and major priority so that legislation and funding will be passed 
to see genuine build out of this essential new infrastructure--
especially in rural and remote communities.
    Congressional leaders and pertinent Committees must make broadband 
deployment and sustainability a top priority for the coming 
congressional session. To make the proverbial ``level playing field'' 
in America a reality, broadband is essential. Congress should consider 
integrating a broadband component into all programs addressing economic 
and community development as well as library services, education and 
healthcare.
    Additionally, Congress must put the reform of the Universal Service 
Fund (USF) as a first ``must do'' in its telecommunications agenda. USF 
is a critical tool for broadband build out and for sustaining broadband 
once it is constructed. As part of USF, the E-rate and rural 
telemedicine programs must be maintained and be configured to allow for 
more collaboration and aggregation of demand leading to broadband 
access especially in rural communities. Since it will be some time 
before there is ``big broadband'' to every home, we must make sure that 
unreached communities have access through their public libraries and 
rural healthcare providers for the interim and thereafter.
    When the Senate considers a new nominee for chair of the Federal 
Communications Commission (FCC) priority must be on a candidate who is 
not just visionary, but is genuinely willing to set broadband as the 
top goal for 2009-2010--and be willing to state such in a confirmation 
hearing.
    Congress also has a role in revitalizing the National 
Telecommunications and Information Administration (NTIA) and expanding 
the Rural Utilities Services program and related programs in the 
Department of Agriculture. Emphasis on existing or new initiatives 
should be on promoting aggregation of demand and the flexibility to 
develop partnerships, especially in rural and remote areas.
    Meanwhile, the Obama Administration must make broadband deployment 
one of the highest priorities to promote economic development, 
education and community development. The Administration should develop 
a clear vision statement to promote broadband policies and work closely 
with Congress to actualize this vision.
    We believe there is still a need for a strong public education 
program conducted by both leaders in the Executive Branch and Congress 
and through trusted intermediaries such as public libraries about why 
broadband is so essential--especially in communities that do not have 
broadband and have not experienced what it can do.

    Question 2. What policy initiatives should be included in the 
President's national broadband Strategy?
    Answer. We encourage the President to appoint strong leaders and 
effective administrators at the FCC and the NTIA to promote and 
coordinate the Administration's broadband efforts. A public education 
program should be established for both national leaders--but also for 
local education programs to inform communities about the need for 
broadband and the many essential services and opportunities for 
economic development, education and telemedicine. If there is a ``chief 
technology officer'' (CTO) the role should be as much about public 
education and promoting applications as it is on ending up on the same 
old corporate disputes between different carriers and technologies.

    Question 3. What can be accomplished at the FCC?
    Answer. The FCC must serve its role in the reform of USF and 
promoting broadband construction. Its policies should be technology-
neutral and provide options for different technologies to be used in 
different types of communities with different geographies and 
economics. This means a more flexible USF especially in rural areas. By 
all means, the FCC must assure that the E-rate and rural telemedicine 
programs are stabilized and functioning effectively.

    Question 4. And what initiatives should be taken by the Federal 
Government to increase understanding and information in order to 
improve demand on the part of the consumer?
    Answer. There should be a greater emphasis on public education to 
promote WHY our Nation needs broadband. At the end of the day, it is 
the applications that broadband allows--from commercial and retail 
enterprises to e-government services to distance learning and remote 
telemedicine services and much more. Policies that impact the use of 
the technology should not limit the potential for creative new uses of 
broadband. The library community stands firmly in support of network 
neutrality as one policy reform needed to assure an open Internet.
                                 ______
                                 
                                                  November 18, 2008
Hon. Claire McCaskill,
Hart Senate Office Building,
Washington, DC.

Dear Senator McCaskill,

    I am so appreciative of the opportunity to address the Senate 
Commerce Committee on September 16 to share stories of how Missouri's 
libraries (and indeed libraries across the nation) are dependent on 
robust broadband Internet access to meet the needs of citizens.
    You asked about the demand of higher education on Internet usage, 
and I am attaching a chart showing actual and projected usage of 
bandwidth from MOREnet for higher education circuits. MOREnet serves 
the majority of public colleges and universities in the state.
    You also asked about the State of Missouri's investment in public 
Internet access. Here are the funds from the current state budget 
dedicated to MOREnet:

        For education: $12,829,612

        For libraries: $3,109,000

    State agencies currently expend a little under $1 million per year 
for broadband and Internet services. This is the amount paid to 
communication carriers (ca. $800,000) and for MOREnet membership fees, 
and does not include equipment or personnel costs to handle 
connectivity and security.
    Finally, the amount MOREnet spends on e-rate eligible services 
returns around $6,000,000 annually to the state in e-rate funds 
($5,909,000 in FY08).
    Thank you again for the opportunity to address the Senate Commerce 
Committee and to provide you with information on how telecommunications 
investments support libraries and education in Missouri.
            Sincerely,
                                        Margaret M. Conroy,
                                          Missouri State Librarian.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
